<html>
<title> - BULLYING-FREE SCHOOLS: HOW LOCAL, STATE AND FEDERAL EFFORTS CAN HELP</title>
<body><pre>[Senate Hearing 112-913]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-913

  BULLYING-FREE SCHOOLS: HOW LOCAL, STATE AND FEDERAL EFFORTS CAN HELP

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING SOLUTIONS TO CREATE BULLYING-FREE SCHOOLS, FOCUSING ON HOW 
               LOCAL, STATE AND FEDERAL EFFORTS CAN HELP

                               __________

                     JUNE 8, 2012 (Des Moines, IA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                 U.S. GOVERNMENT PRINTING OFFICE 

91-970 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001








          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland       MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico           LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington            RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont        JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania  RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina        ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                JOHN McCAIN, Arizona
AL FRANKEN, Minnesota               PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado         LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island    MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut     

              Pamela Smith, Staff Director, Chief Counsel
                 Lauren McFerran, Deputy Staff Director
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  










                            C O N T E N T S

                               __________

                               STATEMENTS

                          FRIDAY, JUNE 8, 2012

                                                                   Page

                            Committee Member

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1

                            Witness--Panel I

Ali, Russlynn H., Assistant Secretary for Civil Rights, U.S. 
  Department of Education, Washington, DC........................     3
    Prepared statement...........................................     5

                           Witness--Panel II

Calbom, Linda M., Western Regional Manager, U.S. Government 
  Accountability Office, Sammamish, WA...........................    12
    Prepared statement...........................................    14

                          Witnesses--Panel III

Domayer, Emily L., Student, Morningside College, Sioux City, IA..    18
    Prepared statement...........................................    20
Bisignano, Penny, Consultant for Bullying Prevention and 
  Intervention, Iowa Department of Education, Des Moines, IA.....    22
    Prepared statement...........................................    24
Gausman, Paul R., Ed.D., Superintendent, Sioux City Community 
  School District, Sioux City, IA................................    28
    Prepared statement...........................................    31
Reilly, Ellen, Learning Support Specialist, Davenport Community 
  Schools, Moline, IL............................................    38
    Prepared statement...........................................    40
Shankles, Matt, Student, Linn-Mar High School, Marion, IA........    41
    Prepared statement...........................................    43
Sederquist, Liz, Student, Des Moines Area Community College, 
  Ames, IA.......................................................    44
    Prepared statement...........................................    47

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Chad Griffin, President, Human Rights Campaign...............    63
    Anti-Defamation League.......................................    64

                                 (iii)

  

 
  BULLYING-FREE SCHOOLS: HOW LOCAL, STATE AND FEDERAL EFFORTS CAN HELP

                              ----------                              


                          FRIDAY, JUNE 8, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Des Moines, IA.
    The committee met, pursuant to notice, at 1:15 p.m. in the 
cafeteria, East High School, 815 East 13th Street, Hon. Tom 
Harkin, chairman of the committee, presiding.
    Present: Senator Harkin.

                  Opening Statement of Senator Harkin

    The Chairman. Thank you very much. The Committee on Health, 
Education, Labor, and Pensions will come to order.
    I do want to remind everyone this is an official hearing of 
the Health, Education, Labor, and Pensions Committee of the 
U.S. Senate. It is a non-partisan hearing because it is an 
official hearing.
    And we have a court reporter someplace. OK, we do have our 
court reporter. OK. And you can hear me? Thank you very much.
    I might, at the end of this, as I like to do in field 
hearings, ask people maybe if they've got some observations, 
suggestions. If you do, the court reporter would like to have 
your name. When you stand up, if you could just loudly announce 
that.
    We have a roving mic; right, Tom? OK, thank you.
    First of all, I want to thank our interim superintendent, 
Dr. Ahart, for helping us set this up. Our principal here is 
Steve Johns. I know he couldn't be here, but I want to thank 
him and all the people at East High School, and Gail Soesbe. 
Thank you again very much for helping to arrange this.
    What I will do is I'll have an opening statement; I'll 
introduce our witnesses. We have three panels today. We'll go 
through and we'll hear their testimony, and then we'll have 
some questions, and then we'll see if people in the audience 
might have something they want to add also.
    All children deserve equitable access to quality public 
schools where they can learn and thrive. Yet, every day 
countless students are denied this opportunity because they 
don't feel safe.
    While the rate of serious violent crime among youth has 
actually gone down a little bit, there's another statistic 
that's going up, and that's the percentage of young people who 
have been bullied at school.
    Approximately 20 percent of kids from all walks of life 
experience bullying. It is alarming that 85 percent of students 
with disabilities have been bullied. Even higher than that, 94 
percent of students with Asperger's syndrome have been bullied. 
Lesbian, bisexual, gay and transgender youth are also at 
heightened risk. According to data released just yesterday by 
the Human Rights Campaign, LGBT youth are more than two times 
more likely to be verbally harassed and called names at school, 
physically assaulted, kicked or shoved, or excluded by their 
peers because they are ``different.''
    The top concerns of non-LGBT students in school, when 
they're polled, are grades, college, and career. LGBT students, 
when they're polled, say they're most concerned about their 
non-accepting families and bullying at school.
    Being the victim of bullying has adverse effects on mental 
health, concentration, and, of course, academic outcomes. And 
as Iowans, we have been reminded recently that bullying can 
lead to suicide in some cases. Our hearts go out to the family 
of Ken Weishuhn of Primghar who took his own life earlier this 
spring after coming out as gay and being bullied for it.
    It's also tragic that many students are unable to access 
their education because bullying makes it unbearable for them 
to go to school. I've heard from all too many young people who 
were compelled to drop out of school because of the hostile 
climate and lack of protections at schools. We will hear from 
one such student today who is very brave to come forward and 
talk about her experiences.
    Some were able to complete their education only through GED 
classes because they were denied the high school experiences 
that their peers were able to enjoy.
    We all need to be a part of the solution. We need to teach 
children to respect differences. As adults, we have to set the 
examples by modeling civility and empathy for others. Research 
shows that efforts to foster positive conditions for learning 
result in higher academic outcomes for students.
    The wrong approach and, quite frankly, the irresponsible 
approach is to just brush it off by saying it's a rite of 
passage or it's just kids being kids.
    Today we'll hear from young people, educators, community 
leaders, policymakers, experts who have stepped forward as part 
of the solution. Some of our witnesses are making a difference 
in communities here in Iowa. We'll hear from the distinguished 
Assistant Secretary of Education for Civil Rights. We'll also 
hear about new findings and recommendations from the Government 
Accountability Office on how the Federal Government can make 
things better.
    Most important, however, I draw your attention to the 
testimony of the three students that we have had here to hear 
firsthand from their accounts. That is the most important.
    With that, let me proceed. I'll introduce our first panel.
    Our first panel is our Assistant Secretary for Civil Rights 
at the Department of Education, Russlynn Ali. She's responsible 
for enforcing Federal civil rights laws in our Nation's 
schools, colleges, and universities, and for ensuring that 
institutions receiving Federal funds do not engage in 
discriminatory conduct related to race, sex, disability or age.
    Previously, Ms. Ali served as top assistant to the 
president of the Children's Defense Fund, as assistant director 
of policy and research at the Broad Foundation, as vice 
president of the education trust, and in numerous other 
government advisory positions. She has taught at the University 
of Southern California Law Center and the University of 
California at Davis.
    Madam Secretary, we welcome you to Iowa. Your testimony 
will be made a part of the record in its entirety, and I'd ask 
you to proceed as you so wish, and if you could sum it up in 5 
to 7 minutes, I'd sure appreciate it. Welcome to Iowa.

  STATEMENT OF RUSSLYNN H. ALI, ASSISTANT SECRETARY FOR CIVIL 
      RIGHTS, U.S. DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Ms. Ali. Thank you, Senator Harkin. It is my honor to be 
here today and talk a little bit about what we in the 
Department of Education are doing to help ensure that schools 
are safe for all students and free from bullying and 
harassment. I really want to especially thank you on behalf of 
Secretary Duncan for your tireless work on this issue, 
especially for our Nation's most vulnerable young people.
    I, too, have been heartbroken to learn about what far too 
many students experience in our schools: suicides, torture, 
mental confinement that leads to depression and sadness and, 
particularly for our purposes, the inability to learn. If 
students do not feel safe, they simply cannot learn.
    I had the honor of meeting very early on in the 
administration with the mother of a young suicide victim, Carl 
Walker-Hoover. I met Ms. Walker-Hoover on what would have been 
the week of her son's 11th birthday. He was bullied and 
harassed to the point where he believed he needed to take his 
own life to escape from it. And I will never forget that day in 
the very early spring in March 2009, as we were leaving, and 
Ms. Walker said to me, ``He didn't even know he was gay. He was 
bullied because he was gay, so they thought, but he didn't even 
know he was gay.'' He was 10 years old. He might not know 
whether he was gay.
    And it dawned on me then, and until now, those young 
students, in far too many instances, actually aren't bullied 
because of their sexual orientation. They're bullied because of 
the perception that they are not acting like a boy enough, or 
they are not acting feminine enough if they are females.
    When we as a society tolerate a culture in which children 
bully and harass each other, we fail to live up to the 
principles of fairness and equality upon which our schools and 
our country were founded. It is particularly true when bullying 
is based on personal characteristics such as race, sex, sexual 
orientation, gender identity, religion or disability.
    We are working on this issue in a number of ways, and have 
been for the last 3 years in particular. I know you are 
familiar, as are many in the audience I'm sure, with the White 
House Conference on Bullying Prevention. We are actually having 
our third annual summit coming soon where we are bringing 
together, from across the country, educators and students and 
community groups to learn more about this issue and to help 
prevent it going forward.
    The President has explained that bullying is not something 
we have to accept. As parents, as teachers, as students, as 
members of the community, he said we can, all of us, take 
steps. Everyone needs to feel like they exist in a climate in 
which they belong.
    The way we are doing this in the Department is--I'd like to 
talk about three things in particular. One, ensuring resources 
and support in training and technical assistance for educators 
in order to help them both understand the issue and how to 
eradicate a culture in their schools that might give rise to 
bullying and harassment, to help the courageous leaders like 
Paul Gausman, who I know we will hear from later today.
    Now, of course, there is no universal one-size-fits-all 
approach to fixing this. We recognize the pervasiveness of the 
problem. The data you cited is illustrative. We have also seen 
recent data that shows that over 3 million students have also 
been physically assaulted behind bullying and harassment. It is 
not, in other words, just teasing.
    We are stressing this first through ensuring that those 
with the greatest responsibility and that are in the position 
to best help change at the local level, local educators and 
local community members, have some support. We have distributed 
funds through the Safe and Supportive School grants to 11 
States. That fund in Iowa has been put to some extraordinarily 
good use, and I know we will hear from Penny later on today, 
who will give us details.
    We are also moving forward on technical assistance, 
ensuring that everyone everywhere can come to us, ask us how to 
help, that there's a place to go for best practices on how to 
stop what's happening in our Nation's schools. We have launched 
a Web site. You can visit that at stopbullying.gov. We have 
also produced a resource document analyzing all of the bullying 
laws across the country and gleaning best practices from States 
that are doing amazing things.
    We still have a long way to go. There are, fortunately, 49 
States today that have some kind of bullying law on the books, 
but no one, no two share the same definition. We do not have a 
common definition yet for what bullying is, certainly not at 
the Federal level.
    It is also, though, about vigorously enforcing the Nation's 
civil rights laws where they apply, protections based on race, 
ethnicity, color, sex discrimination and disability 
discrimination. We have seen, though, that we don't have 
jurisdiction over sexual orientation, that the civil rights 
laws can help for precisely what I talked with you about a few 
minutes ago and what I learned from Ms. Hoover-Walker.
    Those young children, if they are not bullied because of 
their sexual orientation but because of gender stereotyping, 
then the civil rights laws can help. It was the first time the 
Department of Education ever addressed this issue under title 9 
in this way.
    We have launched a number of proactive investigations. We 
have received nearly 2,000 complaints just in the last 2 years 
alleging harassment across all the statutes in our 
jurisdiction. That is more than ever before and, in fact, was a 
34 percent increase just from last year alone. As we track the 
data this year, it looks like by the end of this fiscal year we 
will receive even more.
    We have launched proactive investigations to ensure that we 
find out the systemic discrimination where it is happening, not 
waiting for citizens to file complaints with our office. And we 
are also, due in no small part to your support and leadership, 
finally able to collect data across our Nation's schools about 
incidents of bullying and harassment across the statutes in our 
jurisdiction and those students that were disciplined for it. 
This was the first year we collected the data. Next year we 
will have data across all schools in the country.
    Despite the fact that schools are still struggling with how 
to even report these data or collecting it internally, we've 
seen about 85 percent of the Nation's school children 
represented in our survey and over 100,000 incidences of 
students subjected to harassment, over 160,000 instances of 
students disciplined for some kind of harassment.
    These are but some ways to help. We have a lot more to do. 
In working with you and with communities across the country, we 
hope to see some real progress.
    [The prepared statement of Ms. Ali follows:]
                 Prepared Statement of Russlynn H. Ali
                            i. introduction
    Thank you for inviting me to participate in this hearing. On behalf 
of Secretary Duncan and myself: thank you, Senator Harkin, for all your 
work on preventing bullying, particularly on behalf of those student 
populations that are disproportionately affected by bullying. I 
appreciate the opportunity to share with you the work that the 
Department is doing to support schools in their efforts to provide all 
students with a high-quality education in a safe learning environment, 
free from discrimination, harassment, bullying, and violence.
    Bullying of any student for any reason is unacceptable. When 
students are bullied, they cannot feel safe. If they do not feel safe, 
they cannot learn. And if they do not learn, they cannot reach their 
full potential as students, citizens, and human beings.
    If adults allow this to happen, then not only may we have violated 
students' civil rights, but we may also have profoundly interrupted 
their development as human beings, and, in the most tragic instances, 
cost them their very lives.
    Ignoring, tolerating, or responding ineffectively to bullying can 
poison the school environment for all students: for the students who 
are targeted and victimized, and for the students who witness it, at a 
time when it is vital for students to learn lessons on peer contact, 
social interaction and humanity that they will carry with them after 
they leave school.
    When educators, parents, or students tolerate a culture that allows 
children to bully and harass each other, physically, socially or 
emotionally, based on their race or ethnicity, national origin or 
immigration status, sex, sexual orientation, gender identity, religion, 
physical or mental disability, or for any other reason--we fail to live 
up to the principles of fairness and equity on which this country was 
founded.
        ii. department of education bullying-prevention efforts
    The Department's work begins with the recognition that the real 
work of preventing bullying happens at the local level, in schools and 
playgrounds and college campuses, in homes, on the streets, and in 
community centers across the Nation. Teachers' and school 
administrators' good judgment, common sense, and knowledge of the 
school community are critical to crafting an effective response to 
harassment and bullying. And parents and community organizations play 
no less important a role. We encourage and support community-based 
approaches to addressing peer harassment and bullying and changing the 
school climate so that such conduct does not occur or recur. Each 
school has the ultimate responsibility to create a safe learning 
environment and to ensure that its policies, practices, and procedures 
protect all students from abuse, violence, and discrimination. There is 
no universal, one-size-fits-all approach that will be right for every 
school or all students; and the Department makes no effort to mandate 
one.
    But we also recognize that bullying and harassment are serious 
problems across the country, and thus appropriate subjects for a 
national commitment in response. Secretary Duncan, my colleagues in the 
Office for Civil Rights (OCR), and the entire Department are engaged in 
a coordinated effort to address bullying and harassment in our schools. 
The Department serves as a leader in the Federal Government's anti-
bullying efforts, which are coordinated through the Federal Partners in 
Bullying Prevention Steering Committee. In collaboration with its 
Federal Partners in Bullying Prevention, comprised of nine Federal 
agencies, the Department has hosted two National Bullying Summits 
(August 2010 and September 2011) and participated in a first-ever White 
House Conference on Bullying Prevention. We will host the third Annual 
National Bullying Summit in August 2012. These summits bring together 
non-profit leaders, educators, researchers, parents, and youth to 
discuss and identify areas that need additional guidance and 
clarification.
    In part as a result of our conversations with youth, parents, 
educators and other community leaders about this issue, we have, among 
other efforts, (1) issued policy guidance on Federal laws that apply to 
bullying, (2) provided resources based on best available research and 
practice, (3) vigorously enforced Federal civil rights laws, (4) 
improved data collection on bullying and harassment, and (5) 
coordinated efforts across government and with non-governmental 
organizations.
(1) Issuing Policy Guidance on Laws That Apply to Bullying
    We have issued written policy guidance to clarify for schools how 
Federal and State laws may affect a school's policies and procedures as 
they apply to bullying and harassment.
    To better understand the landscape of State bullying laws and model 
policies, the Department issued a letter in December 2010 outlining key 
components of State anti-bullying laws. We followed up in December 2011 
with a report analyzing each State's inclusion of those components in 
their laws. In late 2012, we expect to release a report that will 
analyze the impact such laws have on the day-to-day efforts to address 
bullying in schools and districts.
    In my office we've focused on addressing common practices and 
situations at educational institutions that we believe affect their 
compliance with civil rights laws.
    The Office for Civil Rights is responsible for enforcing laws that 
prohibit discrimination based on race, color, national origin, sex, and 
disability. In October 2010, we issued a Dear Colleague letter to 
clarify the relationship between bullying and discriminatory harassment 
under the civil rights laws enforced by the Department. The letter 
explains how student misconduct that falls under an anti-bullying 
policy also may trigger responsibilities under Federal civil rights 
laws and reminds schools that failure to recognize discriminatory 
harassment when addressing that misconduct may lead to inadequate or 
inappropriate responses that fail to remedy violations of students' 
civil rights. The letter also offers examples of racial and national 
origin harassment, sexual harassment, gender-based harassment, and 
disability harassment, and illustrates how a school could respond 
appropriately in each case.
    That letter also made clear, among other things, that although 
Title IX of the Education Amendments of 1972 does not cover 
discrimination based solely on sexual orientation, bullying that 
lesbian, gay, bisexual, and transgender (LGBT) students face frequently 
involves sex discrimination--that is, discrimination about the 
students' failure to conform to sex stereotypes or to behave in a so-
called gender appropriate manner. This type of discrimination is 
covered under title IX. We included an example in our policy guidance 
to remind schools and universities that the fact that harassment (1) 
targets LGBT students, (2) includes anti-gay comments, or (3) is based 
in part on a target's actual or perceived sexual orientation does not 
relieve a school of its obligation under title IX to investigate and 
remedy overlapping sexual- or gender-based harassment.
    We also provided clear examples demonstrating how the law applies 
in specific scenarios. For instance, we included a scenario in which a 
student, because of his learning disability, was called names and 
physically assaulted in school and while on a school bus. We then 
described how the school should have adopted a comprehensive approach 
to dealing with bullying, which may include counseling and discipline, 
training for staff on responding to harassment of students with 
disabilities, and monitoring locations where harassment takes place, to 
ensure that it does not resume. We believe that by providing clear 
examples of how schools might respond to particular situations, we can 
help to prevent many acts of bullying, harassment, and discrimination 
from occurring.
    In June 2011, the Department released another letter reminding 
schools of their obligation to provide equal access to student-
initiated groups or clubs under what is known as the Equal Access Act, 
a law passed by Congress nearly 30 years ago to ensure equal access to 
extracurricular clubs in secondary schools. This law has been invoked 
when schools in the United States have refused to accommodate 
student-initiated clubs with an LGBT theme, such as ``Gay-Straight 
Alliances.'' Such clubs have been shown to help reduce bullying of LGBT 
youth and create a safer climate for all youth.
    Notwithstanding the Department's efforts in this area, it is clear 
that certain categories of students are still not receiving adequate 
legal protection. The Obama administration, including the Department, 
therefore supports legislative efforts to address this problem, 
specifically the Student Non-Discrimination Act and the Safe Schools 
Improvement Act.
(2) Providing Resources Based on Research and Practice
    We need to help administrators and teachers understand bullying-
prevention research, and laws, and to develop and implement policies 
based on the best practices. We have leveraged our resources to offer 
tools, training and technical assistance to combat bullying and 
harassment.
    Department staff and senior leadership regularly attend and present 
at meetings of various groups and constituencies to help increase 
awareness and knowledge on bullying and the resources available for 
affected individuals and their families. Recent and upcoming events 
include the White House Conferences on LGBT Safe Schools and LGBT 
Families, a local anti-bullying summit in Michigan, the White House 
Initiative on Asian Americans and Pacific Islander's Stakeholders 
meeting, the policy committee for the American Foundation on Suicide 
Prevention, the Southeastern State Pupil Transportation Conference, and 
the Society for Prevention Research Annual Conference. In an effort to 
help coordinate these activities, the Department's subject-matter 
experts also regularly communicate and provide technical assistance to 
many of the organizations engaged in bullying-prevention campaigns, 
including the Cartoon Network's Stop Bullying, Speak Up! Campaign, Lady 
Gaga's Born this Way Foundation, and the Bully Project, LLC. A few 
weeks ago, I addressed the UNESCO meetings on Effective Policy and 
Practice to Address Homophobic Bullying in Educational Institutions, 
which built on the work already being conducted on this issue during 
the UN's first-ever international consultation to address bullying 
against LGBT students.
    OCR has 12 regional offices around the country that are equipped to 
provide technical assistance to educational institutions as they work 
to address and prevent civil rights violations. In addition, the 
Department funds 10 Equity Assistance Centers nationwide that provide 
training, materials and technical assistance to State or local 
education agencies to assist educators, schools and communities in 
reducing harassment, bullying and prejudice based on race, national 
origin or sex. And, the Department funds 10 regional Disability and 
Business Technical Assistance Centers that provide information and 
referral, technical assistance, and training on the Americans with 
Disabilities Act, including on disability-based bullying and 
harassment.
    The Department also funds two technical assistance centers. The 
Safe and Supportive Schools Technical Assistance Center provides 
assistance to schools and districts to understand school climate 
issues, develop assessment systems, and implement prevention 
programming, and the Positive Behavior and Intervention Supports (PBIS) 
Technical Assistance Center provides support for schools implementing 
PBIS. PBIS is a multi-tiered school-wide approach to establishing a 
social culture that is helpful for schools to achieve social and 
academic gains for all children while minimizing problem behavior.
    Just last month, a group of Federal agencies including the 
Department of Education re-launched a Web site that illustrates 
concrete steps everyone can take to prevent and respond to bullying. 
You can visit it at www.stopbullying.gov. The site features a 
comprehensive map of State anti-bullying laws, guidance on how to 
prevent and respond to bullying, and interactive webisodes for kids.
    Because the greatest responsibility for addressing bullying and 
harassment resides at the local level, we know that it's important to 
distribute funds to help States and communities do this important work. 
For example, the Department has awarded Safe and Supportive School 
grants to 11 States to measure school safety at the building level and 
to support changes in those schools with the greatest needs. The 
ultimate goal of the grants is to create and support safe and drug-free 
learning environments, and increase academic success for students in 
these high-risk schools. One of those grants went to Iowa, and is 
supporting efforts here at East High School. The Departments of 
Education, Health and Human Services, and Justice have, for the past 13 
years, engaged in a unique collaboration to award grants to local 
education authorities across the Nation through the Safe Schools/
Healthy Students initiative. Funding is provided to many school 
districts around the country, including Sioux City Community School 
District, to support school and community partnerships to integrate 
systems that promote the mental health of students, enhance academic 
achievement, prevent violence and substance use, and create safe and 
respectful school climates. Bullying prevention has been a key 
component of this initiative. Another example is the Department's 
funding for the Bureau of Indian Education (BIE) to develop a specific 
anti-bullying technical assistance initiative in BIE schools in Indian 
Country.
    We've invested in other grant initiatives to help at-risk and high-
poverty schools and neighborhoods, and to improve teaching and learning 
conditions and school climates generally, so that we're not just 
addressing bullying and harassment but the entire school environment.
    These are examples of the kinds of tools, training and resources 
that we've provided at the Federal level. And we want to continue to 
support States and school districts in their efforts, because robust 
efforts at the Federal level must be accompanied by equally vigorous 
enforcement, capacity-building, and knowledge-building at the local 
level.
(3) Vigorously Enforcing Federal Civil Rights Laws
    It is important to go beyond establishing good laws and policies: 
we must also vigorously enforce them. The Department has a very open 
complaint process that enables any member of the public, whether 
directly harmed or not, to file a complaint with our office. Over the 
past 2 years our office has received nearly 2,000 complaints of 
harassment based on race, color, national origin, sex or disability in 
educational institutions. We also engage in proactive investigations--
compliance reviews--when we believe that systemic violations may be 
occurring on a campus-, school-, or district-wide basis, and when the 
underlying problem is particularly acute or national in scope. We can 
also initiate ``directed investigations'' where we believe something 
might be going on in an educational institution and believe our 
presence will help resolve the situation before we have received a 
complaint. Since fiscal year 2009, OCR has initiated 14 of these 
proactive investigations on all forms of harassment covered by the laws 
OCR enforces.
    For example, OCR and the Department of Justice (DOJ) conducted a 
joint investigation of a school district to determine whether students 
in that district were subjected to peer harassment based on non-
conformance with sex stereotypes in violation of Title IX of the 
Education Amendments of 1972 and Title IV of the Civil Rights Act of 
1964. Students told our attorneys that they were constantly harassed 
(some almost every day for years) because of their failure to conform 
to gender stereotypes. Female students reported being called ``manly,'' 
``guy,'' or ``he-she''; male students reported being called ``girl,'' 
and ``gay boy,'' and being told, ``you're a guy, act like it.'' A 
female student reported being told to ``go kill herself '' and students 
said they were threatened and subjected to physical assaults because of 
their nonconformity to gender stereotypes. Some of these students 
suffered from physical and mental health problems. Some students 
stopped attending school for periods of time, left the school district, 
or dropped out of school entirely. We also found that the school 
district knew about the harassment, that the district did not take 
effective action to stop the harassment and that, as a result, the 
harassment continued and in certain instances escalated. In March 2012, 
after extensive settlement negotiations with the school district, we 
achieved a court-approved consent decree. As part of the consent 
decree, the school district agreed to take all reasonable steps to 
prevent and eliminate sex-based harassment, and to respond promptly and 
appropriately to all reports of harassment. The district also agreed to 
implement a number of specific reforms, including policy changes, 
hiring new staff focused on ensuring equity and safety, conducting 
additional training for students and staff, mental health counseling 
for bullying victims, surveying students to assess school climate and 
student behavior, and establishing student peer-based leadership 
programs.
    Students with disabilities are disproportionally affected by 
bullying behavior and are often more vulnerable to bullying than 
others. We received a complaint from a middle school student with 
cerebral palsy who alleged that he was bullied and harassed at school 
and on the school bus, including being kicked in the legs in the 
cafeteria and being hit with bottles at a pep rally. The student was so 
severely harassed that he requested home schooling. OCR successfully 
obtained an agreement with the school district to set up a ``hot line'' 
for the child to use to report any future concerns, and to provide 
better monitoring in the cafeteria and on the bus. OCR conducted 
training for all school staff, and the district agreed to provide 
training to all students at the middle school. The district also agreed 
to fully implement policies on the discipline of students for peer 
bullying and harassment, and to report incidents to parents in a timely 
matter.
    I describe these outcomes to highlight another approach of ours--
which is to craft more robust remedies designed to empower the entire 
school community to address issues of harassment. Our remedies are not 
just ``top-down'' (involving policy change and training), but also from 
the ``ground up'' (engaging schools and communities).
(4) Improving Data Collection on Bullying and Harassment
    At the Federal level, another approach we've used is to take data 
collection to another level to be able to monitor the ``equity 
health,'' of schools around the Nation.
    In March of this year, we unveiled the latest installation of a 
transformed Civil Rights Data Collection or ``CRDC.'' The CRDC is a 
representative sample from 2009-10 covering 85 percent of the Nation's 
students--that's 7,000 school districts and 72,000 schools. Next year, 
it will be expanded to all schools. The CRDC allows us to track which 
schools have policies on bullying and harassment and which do not. We 
also track the number of students reported to have been bullied and 
harassed, the number of incidents of bullying and harassment, and the 
number of students disciplined for bullying and harassment. All of 
these data are self-reported by schools. Because many schools weren't 
keeping track of these data, the quality of the data will improve with 
time. Not only will these data shine a light on the problem nationally 
and locally, but they will help individual schools across the country 
know who is being bullied or harassed, how often, and why, and be 
accountable for the safety of their students, and help the Department 
support States, school districts and schools in those efforts.
    A consistent theme heard at the initial Bullying Prevention Summit 
was the absence of a uniform definition of bullying that can inform 
both research and in policy. The lack of a uniform definition restricts 
the applicability and comparability of research and makes it difficult 
to monitor trends in bullying over time. We are working with the 
Centers for Disease Control (CDC) to help the field reach a consensus 
on what bullying is, and to improve understanding and development of 
ways to combat it. A definition is expected to be released this fall.
(5) Coordinating Across Government and With non-Governmental 
        Organizations
    The Department also actively forms partnerships with other 
government agencies and with non-governmental and civic organizations 
to combat bullying and harassment. These strategic partnerships have 
brought together a cross-section of local, State and national 
organizations whose different perspectives and experience have created 
a rich discussion on how to eradicate bullying in our schools.
    Within the Government, we have partnered with nine Federal agencies 
to ensure that bullying is addressed from all angles. And, we are 
collaborating internationally as well, as other countries have similar 
issues regarding school climate and we can learn from each other's 
experiences. We recently agreed to work with the Republic of Korea, 
which is very concerned about school violence, to examine data and 
policies to address bullying and ensure school safety.
    And with our invaluable non-governmental partners, including many 
in the education and civil rights communities, we've been able to 
accomplish so much more than what we'd be able to do alone.
                            iii. conclusion
    Through our collective efforts, and in partnership with other 
agencies and other experts in education and civil rights, we believe 
that we can help provide students, parents, and local school districts 
with the tools that they need to adopt more effective approaches to 
preventing and addressing bullying, harassment, and discrimination. The 
Department of Education is committed to working to ensure that every 
student has the opportunity to receive a high-quality education at a 
safe school, free from discrimination and harassment.
    In conclusion, let me reiterate my appreciation for the opportunity 
to participate in this hearing. This topic is so important. When we 
curb bullying, we contribute to the educational success of each child. 
We remove barriers to achievement, and we reaffirm our national 
commitment to provide an equitable educational opportunity for every 
child.

    The Chairman. Thank you very much, Madam Secretary.
    The complaints, the 2,000 instances that you got in, did 
that come through the Web site?
    Ms. Ali. Yes.
    The Chairman. Mostly the Web site?
    Ms. Ali. Yes, mostly through the Web site.
    The Chairman. Let's say it one more time. What is that Web 
site?
    Ms. Ali. Oh, I'm sorry. The Web site I mentioned earlier 
was stopbullying.gov. Our Web site at OCR on the ed.gov Web 
site for the Office for Civil Rights, you will see a complaint 
filing process. We have 12 regional offices across the country 
and over 600 attorneys, investigators and staff.
    The Chairman. So I take it you would encourage people that 
have incidents and things like that to basically get that 
information in, right?
    Ms. Ali. Absolutely. We are duty-bound to evaluate every 
complaint and vigorously enforce. The Secretary called, on the 
foot of the Edmund Pettus Bridge in Selma, AL, for a re-
invigoration of the Office for Civil Rights, and we are doing 
just that.
    The Chairman. One of the things I think that most people 
don't understand, and try to help me understand this a little 
bit better, civil rights laws cover--you're an expert, you're a 
lawyer, you know all this--it covers nearly everything, but it 
doesn't cover sexual orientation. So how can you or the Justice 
Department intervene if, in fact, it's not covered as a civil 
right?
    Ms. Ali. These are on a case-by-case basis, and we again 
examine all of the facts to determine where bullying and 
harassment is sexual orientation, and unfortunately we don't 
have jurisdiction based on that. But in most that I have seen, 
in addition to sexual orientation bullying and harassment, 
students again are also bullied and harassed because they're 
not conforming to gender stereotypes. That has long since been 
sex discrimination in the employment context. We have now made 
it clear, over the last 3 years, that it is also sex 
discrimination under title IX, which protects students in 
colleges and universities all across our country from sex 
discrimination.
    The Chairman. Thank you. You said we've already had two 
White House summits.
    Ms. Ali. Yes.
    The Chairman. The third is this summer, I think in August, 
if I'm not mistaken.
    Ms. Ali. Yes.
    The Chairman. Out of those summits, as I understand it, 
come suggestions about how we approach this. I was asked, we 
were both asked before we officially started here by the press, 
what is the proper role of the Federal Government in this.
    So I ask you, from the Department of Education's 
standpoint, tell me how you look at proceeding on this in a 
supportive manner for school districts around the country. Give 
me a thumbnail sketch, if you will, of what you think are the 
most important things that we, you and I at the Federal level, 
can do to help support those schools that actually do have good 
policies, take those examples and extend them to other schools, 
because there are some good schools that have good policies in 
this country. How do we spread that around the country?
    Ms. Ali. I think there are a couple of ways, certainly in 
conversations like this, and with your leadership and others. 
The civic conversation that has emerged over the last couple of 
years is leading to real action. It is leading to students no 
longer willing to tolerate a culture of bullying and harassment 
around them. I heard from young people just a few weeks ago who 
said they refuse to be silent anymore, and they are launching 
campaigns even though they have not been victims themselves to 
ensure that no student sits by and watches this anywhere, nor 
do their community members.
    It is also about, in these cases where we are vigorously 
enforcing, Seth Walsh's tragic suicide in Tehachapi, CA comes 
to mind. His mother filed a complaint with our office. She 
explained to us what Seth experienced, that for years he was 
told he wasn't masculine enough, that because he had female 
friends he was often ridiculed as being a girl. People didn't 
like the way he talked or the way he dressed. It got to the 
point where Seth avoided certain areas in school, where he 
would hide in the library to avoid unkindness.
    His mother and he reported it to school officials for 
years, and minimal things happened, if anything. In fact, many 
believed that if students were bullied and harassed because 
they were a member of the LGBT community, that there was 
nothing that adults could do precisely because of the civil 
rights vacuum when it comes to protecting those students.
    As we investigated, we realized that there had been a civil 
rights violation suffered by Seth. It was too late, 
unfortunately, for him, but not too late to ensure that 
Tehachapi was cured and that no student would have to suffer 
the way Seth did. Our resolutions are robust and they are about 
eradicating the culture and helping leaders sustain a healthy 
and positive environment.
    Climate checks are so hugely important for educators to 
actually know whether their students feel safe. That is a part 
of many of our resolutions. Those are the kinds of practices 
that educators can engage in across the country so that they, 
too, can do a self-reflection, if you will, about what's 
happening in their schools and meet students' needs where they 
are.
    The Chairman. Madam Secretary, thank you very much for 
coming all the way out here to Iowa. More than that, thank you 
for your lifetime of work on behalf of children.
    There are a lot of unsung heroes around this country who do 
a lot of things you don't hear about. I just want you to know 
that Russlynn Ali has spent her life working on behalf of 
underprivileged kids, kids that come from disadvantaged areas, 
and you've set a great example for a lot of these kids through 
your own personal achievements. But more than that, you haven't 
forgotten to leave the ladder down for other kids, too.
    So I want you to know I appreciate it very much. Thank you 
for being here, and thank you and Secretary Duncan, and also 
President Obama for leading on that side, on the executive 
branch side, in this area, and as I said, walking the walk.
    The President, as I keep pointing out, this is the third 
summit at the White House on bullying, and I know that 
Secretary Duncan has taken effective steps also. I appreciate 
you and the Office of Civil Rights for not only being proactive 
but also back-stopping the President and the Secretary in their 
great work, too.
    Ms. Ali. Thank you, Chairman.
    The Chairman. Thank you. You can please stay. I know you 
probably have a plane or something to catch, but thank you 
again for coming out to Iowa.
    Ms. Ali. Thank you. Really, your leadership has been the 
guide for so many, and certainly mine, for me as well. I am one 
of those kids that we talk about not being able to learn very 
much, and it's about helping you ensure that we help them. 
Thank you.
    The Chairman. I look forward to working with you.
    Ms. Ali. Thank you.
    The Chairman. Thank you very much, Madam Secretary.
    Now we'll call our second panel.
    The second panel is Linda Calbom, the Western Regional 
Director for the U.S. Accountability Office. In this role, she 
is responsible for the operations of the Los Angeles, San 
Francisco, Seattle, and Denver field offices. She is also 
responsible for directing several engagements in GAO's 
Education Workforce and Income Security Team, including work 
focusing on school bullying.
    Prior to joining GAO in 1990, Ms. Calbom was a senior audit 
manager with Deloitte and Touche in Seattle, WA.
    I'm trying to get something cleared up here.
    Thank you very much. The GAO is releasing a report today, 
Friday, June 8, on school bullying. Legal protections for 
vulnerable youth need to be more fully assessed, and our 
Western Regional Director, Linda Calbom, is here to address us 
about this study that was just done by the GAO.
    Welcome. Your statement will be made a part of the record. 
If you could sum it up, I'd sure appreciate it. Thanks.

 STATEMENT OF LINDA M. CALBOM, WESTERN REGIONAL MANAGER, U.S. 
        GOVERNMENT ACCOUNTABILITY OFFICE, SAMMAMISH, WA

    Ms. Calbom. Thank you very much, Mr. Chairman, and thank 
you for having us here today to talk about the results of our 
work in that study which you and other members of the committee 
requested.
    As you well know and mentioned in your statement, millions 
of American youth are subjected to bullying each year, and it 
is all across the country. While much is being done at the 
local, State, and Federal levels to address this growing 
epidemic, there continues to be a need for more information 
about legal and practical approaches to combating bullying.
    In this context, you asked us to address the following 
questions: first, what is known about the prevalence of school 
bullying and its effects on the victims; second, the approaches 
that selected States and local school districts are taking to 
combat school bullying; third, the legal options Federal and 
State Governments have in place when bullying leads to 
allegations of discrimination; and finally, how the key Federal 
agencies, including Education, are coordinating their efforts 
to combat bullying.
    As you mentioned, we did just release our report. It's 
entitled, ``School Bullying: Extent of Legal Protections for 
Vulnerable Groups Needs To Be More Fully Assessed,'' and I 
think there were some copies made available of the report here.
    In this report, we addressed the questions I just 
mentioned, and we make recommendations to the Departments of 
Education, Health and Human Services, and Justice, who are all 
working on this issue together, to help address the issues that 
we identified in our work. Today I'm just going to very briefly 
sum up our findings and the recommendations in that report.
    In addressing your first question, we found that bullying 
is indeed widespread, impacting somewhere between 20 and 28 
percent of youth, and that it has, as you said, long-lasting 
and sometimes very detrimental effects on victims. However, 
data on who is being bullied and how often is limited and 
sometimes conflicting due to inconsistent definitions and 
demographic information collected in national surveys on school 
bullying.
    Federal agencies are currently working on developing a 
uniform definition of bullying but have not yet decided whether 
to expand the type of demographic information gathered in their 
surveys. Because of this, we included a recommendation in our 
report that the three agencies work together to develop 
information in future surveys on the extent that youth and 
various vulnerable groups are, in fact, being bullied.
    Regarding the approaches that States and school districts 
are taking to combat bullying, we found that all eight States 
that we selected for review had enacted anti-bullying laws, and 
all of the six school districts we reviewed had established 
anti-bullying policies and procedures. However, the States, as 
the Secretary just mentioned, the States all varied in how they 
defined bullying, who they protected, and what they required 
the schools to do to address bullying.
    The six school districts we talked to told us about a range 
of different approaches they take to tackle bullying, including 
several in adoption of a prevention-oriented framework that's 
geared toward improving overall behavior in schools, and 
several schools also sponsored events such as Rachel's 
Challenge and Ryan's Story that are geared toward promoting a 
positive overall culture in the school that can also help 
prevent bullying.
    As far as the legal options when bullying leads to 
allegations of discrimination, we found that Federal and State 
civil rights laws offer some protections but that vulnerable 
groups are not always covered, as was mentioned earlier. For 
example, Federal agencies lack jurisdiction under civil rights 
statutes to pursue discrimination cases based solely on 
socioeconomic status or sexual orientation, as you were talking 
about earlier. The civil rights laws in the eight States we 
reviewed, while they often went beyond the protections afforded 
at the Federal level, were mixed as to what classes of 
individuals were protected. Therefore, the extent of 
protections available under civil rights laws for bullying 
victims can literally depend on the State that they live in.
    And finally, Mr. Chairman, we found that despite all the 
good coordination efforts by Education, HHS, and Justice to 
carry out research and provide information to the public on 
bullying, there has not been information gathered on States' 
civil rights laws as they relate to bullying. This information 
is key to understanding where there may be gaps in civil rights 
protections for students who are bullied, which is why we 
recommended that Education do a one-time compilation of State 
civil rights laws and procedures.
    Our recommended analysis of these legal gaps, paired with 
additional demographic information on the frequency of bullying 
of vulnerable groups, would be instrumental in helping 
policymakers determine whether additional actions are needed to 
protect vulnerable groups who are most often the target of 
school bullying.
    That concludes my prepared remarks, Mr. Chairman, but I'm 
happy to answer any questions you might have for me.
    [The prepared statement of Ms. Calbom follows:]
                 Prepared Statement of Linda M. Calbom
    Chairman Harkin, Ranking Member Enzi, and members of the committee: 
I am pleased to be here today to discuss the results of the work that 
you and other members of the committee requested on school bullying. It 
is estimated that millions of American youths have been bullied by 
their peers, including physical, verbal, and electronic attacks.\1\ 
Some of these incidents, including some where bullying has been linked 
by the media to teen suicide, have received widespread attention, 
resulting in heightened awareness of bullying, as well as a wide range 
of actions at the Federal, State, and local levels to address the 
behavior. Some of these incidents involved bullying based on personal 
characteristics, including race, religion, or sexual orientation, and 
have also raised questions about the role and availability of Federal 
and State civil rights protections. Given the dynamic and rapidly 
changing nature of these efforts, governments at all levels, as well as 
the public, face a growing need for information about possible legal 
and practical approaches to combating bullying. My statement is based 
on our report released yesterday, which addresses the following 
objectives:
---------------------------------------------------------------------------
    \1\ For the purposes of this testimony, the term ``bullying'' is 
used to reflect behavior that is intended to inflict harm, repeated 
over time, and characterized by an imbalance of power between the 
perpetrator(s) and victim(s). Some sources refer to similar behavior as 
``harassment,'' and may use the terms interchangeably.

    <bullet> What is known about the prevalence of school bullying and 
its effects on victims?
    <bullet> What approaches are selected States and local school 
districts taking to combat school bullying?
    <bullet> What legal options do the Federal and selected State 
governments have in place when bullying leads to allegations of 
discrimination?
    <bullet> How are key Federal agencies coordinating their efforts to 
combat school bullying?

    To address these objectives, we reviewed research on the prevalence 
and effects on victims; analyzed State bullying laws, and school 
district bullying policies; interviewed officials from the Departments 
of Education (Education), Health and Human Services (HHS), and Justice, 
and a nongeneralizable sample of eight States and six school districts; 
and reviewed selected relevant Federal and State civil rights laws. 
More information on our scope and methodology is available in the 
issued report.\2\ We conducted our work on which this testimony is 
based from April 2011 through May 2012 in accordance with generally 
accepted government auditing standards.
---------------------------------------------------------------------------
    \2\ GAO, School Bullying: Extent of Legal Protections for 
Vulnerable Groups Needs to Be More Fully Assessed, GAO-12-349 
(Washington, DC: May 2012).
---------------------------------------------------------------------------
    Although definitions vary, including definitions used by Federal 
agencies, many experts generally agree that bullying involves intent to 
cause harm, accompanied by repetition, and an imbalance of power. 
Notably, bullying is distinct from general conflict or aggression, 
which can occur absent an imbalance of power or repetition. For 
example, a single fight between two youths of roughly equal power is a 
form of aggression, but may not be bullying. When bullying occurs, it 
may take many forms, including physical harm, such as hitting, shoving, 
or locking someone inside a school locker; verbal name calling, taunts, 
or threats; relational attacks, such as spreading rumors or isolating 
victims from their peers; and the use of computers or cell phones to 
convey harmful words or images, also referred to as cyberbullying. 
Bullying often occurs without apparent provocation and may be based on 
the victim's personal characteristics. For example, youth may be 
bullied based on the way they look, dress, speak, or act. To address 
bullying, Federal, State, and local governments have a range of efforts 
under way, including studies of the prevalence of bullying, laws to 
prevent and address bullying, and antidiscrimination laws that, for 
certain stated classes of students, can be used in some circumstances 
to address discrimination resulting from bullying.
    In summary, with regard to the prevalence and effects of bullying, 
our findings suggest that reported levels of bullying and related 
effects are significant. Research shows that bullying can have 
detrimental outcomes for victims, including adverse psychological and 
behavioral outcomes. According to four nationally representative 
surveys conducted from 2005 to 2009, an estimated 20 to 28 percent of 
youth, primarily middle- and high school-aged youths, reported they had 
been bullied during the survey periods. However, differences in 
definitions and questions posed to youth respondents make it difficult 
to discern trends and affected groups. For example, the surveys did not 
collect demographic information by sexual orientation or gender 
identity. Education and HHS are partially addressing the issue of 
inconsistent definitions by collaborating with other Federal 
departments and subject matter experts to develop a uniform definition 
of bullying that can be used for research purposes. However, gaps in 
knowledge about the extent of bullying of youths in key demographic 
groups remain.
    Selected States and school districts are taking various approaches 
to reducing bullying. The bullying laws in the eight States that we 
reviewed vary in who is covered and the requirements placed on State 
agencies and school districts. For example, six of the States cover a 
mix of different demographic groups, referred to as protected classes, 
such as race and sex or gender, in their bullying laws, while two 
States do not include any protected classes. With respect to school 
districts, each of the six districts we studied adopted policies that, 
among other things, prohibit bullying and describe the potential 
consequences for engaging in the behavior. Also, school district 
officials told us that they developed approaches to prevent and respond 
to bullying. For example, several school officials said they 
implemented a prevention-oriented framework to promote positive school 
cultures. Both State and local officials expressed concerns about 
various issues, including how best to address incidents that occur 
outside of school.
    We also found that while Federal and State civil rights laws may 
offer some protections against bullying in certain circumstances, 
vulnerable groups may not always be covered. Federal civil rights laws 
can be used to provide protections against bullying in certain 
circumstances, but some vulnerable groups are not covered and therefore 
have no recourse at the Federal level. For example, Federal agencies 
lack jurisdiction under civil rights statutes to pursue discrimination 
cases based solely on socioeconomic status or sexual orientation. Some 
State civil rights laws provide protections to victims of bullying that 
go beyond Federal law, but Federal complainants whose cases are 
dismissed for lack of jurisdiction are not always informed by Education 
about the possibility of pursuing claims at the State level.
    Finally, regarding Federal coordination efforts to combat bullying, 
we found that a variety of efforts are under way, but that a full 
assessment of legal remedies has not been completed. Specifically, 
Education, HHS, and Justice have established coordinated efforts to 
carry out research and disseminate information on bullying. For 
example, The Federal Partners in Bullying Prevention Steering Committee 
serves as a forum for Federal agencies to develop and share information 
with each other and the public, and http://www.stopbullying.gov 
consolidates the content of different Federal sites into one location 
to provide free materials for the public. In addition to these efforts, 
education has issued information about how Federal civil rights laws 
can be used to address bullying of protected classes of youths and is 
conducting a comprehensive study of State bullying laws and how 
selected school districts are implementing them. However, no similar 
information is being gathered on State civil rights laws and procedures 
that could be helpful in assessing the adequacy of legal protections 
for victims of school bullying.
    In conclusion, we found that the nature and extent of protections 
available to students who are bullied depend on the laws and policies 
where they live or go to school. Education and Justice have taken 
important steps in assessing how Federal civil rights laws can be 
applied and Education has completed a study of State bullying laws, but 
neither agency has assessed State civil rights laws and procedures as 
they may relate to bullying. More information about State civil rights 
laws and procedures is a key missing link that is needed by 
administration officials and decisionmakers alike, to assess the extent 
of legal protections available to students who have been bullied. 
Furthermore, while multiple efforts to collect information about 
bullying have been under way for several years, the prevalence of 
bullying of youths in certain vulnerable demographic groups is not 
known. A greater effort by key Federal agencies to develop more 
information about the extent to which a broader range of demographic 
groups are subject to bullying and bullying-related discrimination 
would better inform Federal efforts to prevent and remedy bullying. 
This information, together with an assessment of Federal and State 
legal protections, could also aid policymakers in determining whether 
additional actions are needed to protect vulnerable groups of youths 
who are most often the target of school bullying.
    To allow for a more comprehensive assessment of Federal and State 
efforts to address bullying, our report includes recommendations to 
Education to compile information about State civil rights laws and 
procedures that relate to bullying and to develop procedures to 
routinely inform individuals who file complaints of discrimination 
stemming from bullying about the potential availability of legal 
options under their State's anti-discrimination laws; and to Education, 
HHS, and Justice to develop information about bullied demographic 
groups in their surveys of youth and to use this information and other 
information from studies of State bullying and civil rights laws to 
assess the extent to which legal protections against bullying exist for 
vulnerable demographic groups. Education and HHS generally agreed with 
our recommendations, although Education took issue with our 
recommendation that it compile information about State civil rights 
laws and procedures as they pertain to bullying. In response, we 
clarified that recommendation to address some of their concerns, but we 
continue to believe that a one-time compilation of State civil rights 
laws and procedures would be beneficial, and provide a basis, along 
with other information, for analyzing the overall legal protections 
that are available for vulnerable demographic groups. A more complete 
discussion of agency comments is provided in the report.
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
this concludes my prepared remarks. I will be happy to answer any 
questions you may have.

    The Chairman. Thank you very much, Ms. Calbom, and thank 
you for the study.
    I just might again inform people that a year ago in March 
2011, this committee asked the GAO to do the study. So it was a 
committee request. They've done a thorough study for a whole 
year, and this is the result. We got the report back, which was 
just released today and which Ms. Calbom was just referencing.
    I think one of the key things is what you just said, and 
I'm just reading from your statement, that a greater effort by 
key Federal agencies to develop more information about the 
extent to which a broader range of demographic groups are 
subject to bullying and bullying-related discrimination would 
better inform Federal efforts to prevent and remedy bullying.
    Then you also said more information about States' civil 
rights laws procedures is a key missing link that we need to 
know and understand.
    I assume by that, are you suggesting that perhaps this 
would be a proper area for the Department of Education, the 
Federal Department of Education, to engage in collecting that 
kind of information?
    Ms. Calbom. Yes. We feel that if they took that type of 
information, which they could collect--and we purposely used 
the word ``compile'' because we're not asking them to do an in-
depth analysis of case law. We know that would be very 
difficult and time-consuming. But if they compiled the 
information on States' civil rights laws, if they looked at 
that in conjunction with the study they just finished on the 
State bullying laws so we can see who is covered under that, 
lay that over the Federal civil rights laws, and then you can 
take a look at where are the gaps in the law. And then if you 
look at that in conjunction with gathering the demographic 
information, it's like here are the students most often being 
targeted, here are the students that aren't covered. What do we 
need to do?
    The Chairman. I just said to my staff that I think this is 
something we need, based upon your findings and your 
suggestions, something we need to take back to the Department 
of Education and see if we can't implement that there.
    I wanted to ask you, in your work for the study, were there 
any State bullying laws or civil rights laws that stood out to 
you as the strongest in protecting vulnerable groups? Anything 
there?
    Ms. Calbom. Yes. It's interesting because I asked my team 
that same question the other night just to see if we had some 
examples. All the States are very different. I mean, some 
States cover a lot of different demographic groups, like I 
believe California covers quite a few groups specifically. But 
then you have Massachusetts, I believe, that is pretty broad 
because they want to make sure everybody is covered and they 
don't leave anybody out.
    It varies all across the board from State to State whether 
certain protected classes--both in the civil rights and the 
State bullying laws, whether they are specifically mentioned or 
not, or whether they keep it very broad.
    The Chairman. Some of our witnesses who will be on the next 
panel talk about Dr. Dan Olweus, right? Oh, it's like a V, 
that's right. Olweus. That's right. I've been told that before, 
too. That he had three definitions that agree on bullying. It's 
aggressive behavior characterized by unwanted negative actions. 
No. 2, it involves a pattern of behavior repeated over time. 
And No. 3, bullying relies on an imbalance of power or 
strength.
    When I read those, and then there's a couple of people that 
had these in their testimony, I'm wondering if demographic 
groups is the right way to structure this. It doesn't mention 
anything in there about demographic groups. It could apply to 
anyone.
    Ms. Calbom. Right.
    The Chairman. Some kids are bullied because maybe they're 
smaller in stature or they have physical characteristics that 
somebody feels that they should bully them on, but they're not 
a protected class.
    So I'm just wondering out loud. Is demographic groups the 
right way to address this? I'll ask the next panel that, too. I 
was just wondering if you have any thoughts on that.
    Ms. Calbom. Yes, I do. I think part of the reason that we 
wanted to recommend or did recommend that more information be 
gathered about demographic groups is to show that very thing, 
that all kinds of kids are being bullied for all kinds of 
reasons, and as I think everybody would agree, all kids should 
be protected.
    The Chairman. That's right. Exactly.
    Thank you very much, Ms. Calbom. Thank you for the study, 
and thank you for the report.
    Ms. Calbom. My pleasure.
    The Chairman. Thank you very, very much.
    Ms. Calbom. Thank you for holding the hearing, Mr. 
Chairman. It's a very important topic.
    The Chairman. Thanks for coming here from Seattle, too. I 
appreciate that. Thank you.
    We'll go to our next panel, and I'd like to call them all 
up: Penny Bisignano, Emily Domayer, Dr. Paul Gausman, Ellen 
Reilly, Matt Shankles, and Liz Sederquist. If you could all 
take your places here, wherever your name appears.
    Again, I thank you all for being here. You've been here to 
see our other witnesses. Each of you has a statement. I read 
them last night. They're all great statements. They will all be 
submitted to the record in their entirety, so I would ask you 
to sum it up in 5 minutes or so, and then we'll engage in a 
nice discussion.
    We will go from left to right. I will try not to intervene 
until we get to the end, although sometimes somebody says 
something that I've got to respond to or ask a question about.
    If you could just take 5 to 7 minutes. I don't mind if you 
go 5 minutes or so. Once you start getting close to 10, I might 
get nervous.
    First I'm going to introduce Emily Domayer, born in Des 
Moines in 1987, grew up in Sioux City, IA, graduated from Sioux 
City North High School in 2006. She was diagnosed with 
Asperger's syndrome at age 12.
    In 2005, she attended the Iowa Youth Leadership Forum, a 
statewide gathering of high school students with disabilities 
who have leadership potential. She has come back every year as 
a counselor. She considers herself to be an advocate for people 
with disabilities, particularly those on the autism spectrum. 
She's been playing violin since she was 9 years old.
    Emily, welcome, and please proceed.

 STATEMENT OF EMILY L. DOMAYER, STUDENT, MORNINGSIDE COLLEGE, 
                         SIOUX CITY, IA

    Ms. Domayer. The boy pointed at people and said, ``Dumb, 
dumber, and dumbest.'' When he said ``dumbest,'' he pointed at 
me.
    I was 7 years old the first time I was bullied. I was so 
shocked and stunned that I didn't know how to react or what to 
do. All I really knew was that what he had said was wrong and 
that his words stung like vinegar on a cut.
    It was in second grade that I first realized I was 
different. I felt like I was in and from a different world from 
my classmates. Sometimes they would talk about me as if I 
wasn't there, condescendingly explaining my behavior to each 
other, saying ``she always does that.''
    It was the kids who were in the popular crowd who picked on 
me the most. They were a small group of girls and boys, kids 
who seemed to be well-liked by the teachers. Later, I looked 
back at these early experiences and knew that I was so confused 
about everything, who I was, why I behaved the way I did, why I 
didn't understand how to make friends. I was perceived by 
others to be the shy kid. I was not diagnosed with Asperger's 
syndrome, an autism spectrum disorder, until I was 12, which is 
a very late diagnosis.
    I wanted to tell my parents that I was getting bullied but 
I did not know how to explain what was happening. Thankfully, 
when I was in third grade, the bullies were in the other class. 
We had two classrooms for each grade. Unfortunately, the 
bullying got worse when I was in fourth grade. A new girl moved 
into my neighborhood--I'll call her Girl A--and she behaved 
well in front of my parents and other adults. But when their 
backs were turned, she had the personality of a vicious 
junkyard dog. It took me many years to realize that she chose 
me because I was vulnerable. I didn't have any friends, and it 
was difficult for me to make friends. The rules of friendship 
were completely foreign to me.
    One time, she and another student picked on me when the 
teacher was out of the room. They called me Queen of the Dorks 
and put an imaginary crown on my head. I was very hurt by their 
actions.
    Our teacher once said, after discovering that some of the 
students were arguing, that we should all get along because we 
were all friends. I knew even then that wasn't going to fix 
anything.
    In second, fourth and fifth grade, my peers verbally abused 
me almost every day about the clothes I wore. I didn't dress 
like they did. I didn't wear the latest cool clothes. I was not 
a cool kid. I didn't pay attention to celebrities in the news 
or watch the same TV shows the other kids watched.
    In my childhood, I just wanted to be a happy kid who felt 
free to be myself. I wanted to be a kid, but my classmates were 
not OK with that. They knew I wasn't cool, and they used every 
opportunity they could find to make me feel like I would never 
be good enough to be their friend.
    They were relentless. They made fun of the speech I wrote 
at the end of the year for the anti-drug program DARE. My 
Halloween costume wasn't cool. When I gave a presentation in 
Social Studies, they laughed at me and asked me questions in a 
mocking tone of voice. I always hated PE because I wasn't very 
coordinated and my peers were impatient and unkind toward me. I 
always felt like I was never good enough.
    The only reason I ever felt comfortable going to school 
when I was being bullied was that I got along very well with my 
teachers. In fifth grade, my teacher gave me a hug every day 
after school was over. I needed it.
    Fifth grade was the worst of all. There was another girl, 
Girl B, who chose me as her target. The whole school year, she 
seemed to enjoy treating me like garbage. She pulled my hair, 
kicked me in line, and made fun of my clothes whenever she 
could. One time my mom came to school, and after she left, Girl 
B made fun of my mom wearing a scarf on her head. It was winter 
time. I was furious, but because I didn't know how to handle 
the situation, I kept my rage inside.
    Recess is hell for most students on the autism spectrum 
because it is about socialization, an area people on the 
spectrum struggle with most often. I usually spent most of my 
time during recess talking with either the recess monitor, who 
was also one of the lunch ladies, or one of my few friends. I 
felt comfortable talking with the monitor because she was nice 
to me, unlike my peers.
    One day on the playground I was standing around just 
talking with someone when Girl B suddenly came up to me and 
told me to come with her. I told her I didn't want to. She 
started to ask me why, and she wouldn't stop it. After not 
being satisfied with my answers, she grabbed me by the arm and 
gave it a snake bite, twisting my arm very hard with both her 
hands and causing severe pain. I found a teacher, and she sent 
Girl B to the principal's office. After my mom learned about 
the incident, she came to school to speak to the principal, who 
said that Girl B was having issues at home. Not much else was 
done.
    I am particularly concerned about students who are unable 
to communicate that they are being bullied. Before I was able 
to advocate for my disability, I had no idea how to let the 
adults around me know that I was being bullied. How can 
students with autism who have little or no verbal abilities 
inform responsible adults if they are being bullied?
    I wished that my elementary school teachers and 
administrators had done more to address bullying. I felt so 
alone. It doesn't matter who you are, what you look like, how 
you dress, what faith you believe, how you learn, whatever, no 
one should have to feel afraid to go to school. Bullying is not 
a rite of passage.
    It is so heartbreaking to me to think of young children and 
teens who have committed suicide because they were bullied so 
much they felt the only solution was to end their lives. Every 
student has the right to have a safe learning environment. 
School should be a place where students feel comfortable to be 
themselves. A school's No. 1 priority above all else should be 
safety. When students don't feel safe, how can they learn?
    Bullying will become less prevalent when teachers, school 
administrators and parents are honest and open about what 
behavior is tolerated and what is not. Bullying will go away 
when schools, parents and students work together so that kids 
understand that bullying will not be tolerated.
    [The prepared statement of Ms. Domayer follows:]
                 Prepared Statement of Emily L. Domayer
    The boy pointed at people and said, ``dumb,'' ``dumber'' and 
``dumbest.'' When he said ``dumbest,'' he pointed at me. I was 7 years 
old the first time I was bullied. I was so shocked and stunned that I 
didn't know how to react or what to do. All I really knew was that what 
he had said was wrong and that his words stung like vinegar on a cut. 
It was in second grade that I first realized that I was different. I 
felt like I was in and from a different world from my classmates. 
Sometimes they would talk about me as if I wasn't there, 
condescendingly explaining my behavior to each other, saying, ``She 
always does that.''
    It was the kids who were in the ``popular'' crowd who picked on me 
the most. They were a small group of boys and girls, kids who seemed to 
be well liked by the teachers. Later, I looked back at these early 
experiences and knew that I was so confused about everything--who I 
was, why I behaved the way I did, why I didn't understand how to make 
friends. I was perceived by others to be the ``shy kid.'' I was not 
diagnosed with Asperger's syndrome, an autism spectrum disorder, until 
I was 12, which is a very late diagnosis. I wanted to tell my parents 
that I was getting bullied, but I did not know how to explain what was 
happening.
    Thankfully, when I was in third grade, the bullies were in the 
other class. We had two classrooms for each grade.
    Unfortunately, the bullying got worse in fourth grade. A new girl 
moved into my neighborhood, (I'll call her ``Girl A'') and she behaved 
well in front of my parents and other adults. But when their backs were 
turned, she had the personality of a vicious junk-yard dog. It took me 
many years to realize that she chose me because I was vulnerable; I 
didn't have many friends, and it was difficult for me to make friends. 
The rules of friendships were completely foreign to me.
    One time, she and another student picked on me when the teacher was 
out of the room. They called me ``queen of the dorks'' and put an 
imaginary crown on my head. I was very hurt by their actions. Our 
teacher once said, after discovering that some of the students were 
arguing, that we ``should all get along because we are all friends.'' I 
knew even then that was not going to fix anything.
    In second, fourth and fifth grade, my peers verbally abused me 
almost every day about the clothes I wore. I didn't dress like they 
did; I didn't wear the latest, ``cool'' clothes. I was not a ``cool'' 
kid. I didn't pay attention to celebrities in the news or watch the 
same TV shows the other kids watched.
    In my childhood, I just wanted to be a happy kid who felt free to 
be myself. I wanted to be a kid. But my classmates were not OK with 
that. They knew I wasn't cool, and they used every opportunity they 
could find to make me feel like I would never be good enough to be 
their friends. They were relentless. They made fun of the speech I 
wrote at the end of the school year for the anti-drug program DARE. My 
Halloween costume wasn't cool. When I gave a presentation in Social 
Studies, they laughed at me and asked me questions in a mocking tone of 
voice. I hated P.E. because I wasn't very coordinated and my peers were 
impatient and unkind toward me. I always felt like I was never good 
enough.
    The only reason I ever felt comfortable going to school when I was 
being bullied was that I got along very well with my teachers. In fifth 
grade, my teacher gave me a hug every day after school was over. I 
needed it.
    Fifth grade was the worst of all. There was another girl, (Girl B) 
who chose me as her target. The whole school year, she seemed to enjoy 
treating me like garbage. She pulled my hair, kicked me in line, and 
made fun of my clothes whenever she could. One time, my mom came to 
school, and after she left, Girl B made fun of my mom wearing a scarf 
on her head. (It was winter) I was furious, but because I didn't know 
how to handle the situation, I kept my rage inside.
    Recess is hell for most students on the autism spectrum because it 
is about socialization--an area people on the spectrum struggle with 
most often. I usually spent most of my time during recess talking with 
either the recess monitor, who was also one of the lunch ladies, or one 
of my few friends. I felt comfortable talking with the monitor, because 
she was nice to me, unlike my peers. One day on the playground, I was 
standing around, just talking with someone, when Girl B suddenly came 
up to me and told me to come with her. I told her I didn't want to. She 
started to ask me why, and she wouldn't stop it. After not being 
satisfied with my answers, she grabbed me by the arm and gave it a 
``snakebite,'' twisting my arm very hard with both her hands and 
causing severe pain. I found a teacher and she sent Girl B to the 
principal's office. After my mom learned about the incident, she came 
to school to speak to the principal, who said that Girl B was having 
issues at home. Not much else was done.
    I am particularly concerned about students who are unable to 
communicate that they are being bullied. Before I was able to advocate 
for my disability, I had no idea how to let the adults around me know 
that I was being bullied. How can students with autism who have little 
or no verbal abilities inform responsible adults if they are being 
bullied?
    I wish that my elementary school teachers and administrators had 
done more to address bullying. I felt so alone.
    It doesn't matter who you are, what you look like, how you dress, 
what faith you believe, how you learn, whatever--nobody should have to 
feel afraid to go to school. BULLYING IS NOT A RITE OF PASSAGE! It is 
so heartbreaking to me to think of young children and teens who have 
committed suicide because they were bullied so much, they felt the only 
solution was to end their lives. Every student has the right to have a 
safe learning environment. School should be a place where students feel 
comfortable to be themselves. A school's No. 1 priority, above all 
else, should be safety. When students don't feel safe, how can they 
learn? Bullying will become less prevalent when teachers, school 
administrators, and parents are honest and open about what behavior is 
tolerated and what is not. Bullying will go away when schools, parents 
and students work together so that kids understand that bullying will 
not be tolerated.

    Note: I was born in Des Moines, in 1987. I grew up in Sioux City, 
IA, and graduated from Sioux City North High School in 2006. When I was 
12, I was diagnosed with Asperger's Syndrome, a form of autism. In 
2005, I got a great opportunity to attend the Iowa's Youth Leadership 
Forum (YLF), a statewide gathering of high school students with 
disabilities who have leadership potential. I have come back every year 
as a counselor, because I continue to see the tremendous, life-changing 
effect YLF has on the students as well as the staff. I consider myself 
to be an advocate for people with disabilities, particularly those on 
the autism spectrum. I have been playing violin since I was 9 years 
old. I love cats and I love to read.

    The Chairman. Emily, I can't comment much about your violin 
playing, but I can sure say you are one heck of a writer and 
speaker.
    Ms. Domayer. Oh, thank you.
    The Chairman. Boy, that was tremendous.
    Ms. Domayer. Thanks.
    The Chairman. Thank you very much.
    Now we'll turn to Penny Bisignano, an Educational 
Consultant for the Iowa Department of Education as part of the 
Safe and Supportive Schools Grant team, with her focus on 
bullying prevention and intervention.
    Prior to joining the grant team at the Iowa Department of 
Education, she served as a consultant to the Department and 
provided training and networking for the statewide network of 
Olweus--got the V in there this time--Bullying Prevention 
Program Trainers, and facilitated projects in school 
improvement and teacher quality.
    Penny coordinated a Federal elementary school counseling 
grant for Des Moines Public Schools, coordinated the Counselor 
Education Program at Iowa State University, and served as a 
school improvement coordinator for Area Education Agency 11 in 
Iowa.
    Again, welcome. I read your testimony. It will be made a 
part of the record in its entirety. Please sum it up, if you 
can.

     STATEMENT OF PENNY BISIGNANO, CONSULTANT FOR BULLYING 
PREVENTION AND INTERVENTION, IOWA DEPARTMENT OF EDUCATION, DES 
                           MOINES, IA

    Ms. Bisignano. I sure will. Thank you.
    Thank you, Emily. As you were speaking, I thought about the 
calls that we receive at the Department of Education from 
parents and students about what they're experiencing and how 
difficult this is. I heard the term ``relentless'' and ``I felt 
so alone.'' And we hear that, and it's so powerful. It's 
something that we really need to work on every single day, and 
that's really my job at the Department of Education.
    I'm really honored to be here today, Senator Harkin, and 
thank you, everyone, for the opportunity.
    I would really like to focus on three areas and be as brief 
as I can. We talked about the definition of bullying and how 
challenging that is that we don't have perhaps a Federal 
definition, although we do appreciate at the stopbullying.gov 
site that we do have and follow a definition that helps us in 
our work, and that is that bullying is really unwanted 
aggressive behavior among school-age children that involves a 
real or perceived power imbalance. The behavior is repeated. I 
think about relentlessly, the repeated things, Emily, that you 
talked about, and has the potential to be repeated over time.
    Bullying includes actions like making threats, spreading 
rumors--and often we think that's not serious, but it's very 
serious--attacking someone physically or verbally, and 
exclusion. Very often, it begins with exclusion. In elementary 
school, we see that as one of the strategies that help to make 
kids feel left out.
    Again, I think you mentioned this, Senator Harkin, the 
researcher and really father of bullying prevention, Dan Olweus 
from Norway, says bullying is peer abuse, and I think we need 
to really pay attention to the fact that this is an abusive 
behavior. It's an act of violence.
    What we can do and what we know that is encouraging to us 
is that we really have a guideline around some best practices. 
I'd just like to have us hear those. There are really 10 that 
guide us.
    No. 1 is, in a school, we need to focus on the social 
environment of the school, and that means addressing the 
climate, the climate in which our kids come there every day to 
learn.
    No. 2 is to assess the nature and extent of bullying. Often 
we don't ask. We say we don't have bullying here, but unless 
we're really surveying our students, and now we know that we 
need to ask parents and family and staff as well, so that we 
have data to make good decisions.
    We need to get support from the adults in the environment. 
Everybody needs to be engaged in this. It's not something that 
one teacher can do or one staff member. It's not something that 
happens with just a few, but we need everybody engaged.
    There also needs to be a group that shepherds the work. If 
we're going to address bullying, we need those who are 
passionate, have it in their heart to do this, and that should 
include parents and students, as well as community.
    It's so critical, and I heard this earlier, to train all of 
the adults in the school around bullying prevention, getting 
everybody to join. When I heard Emily's story, I think we all 
need to join so that we can understand what this is, the harm 
that's caused.
    We need to create and enforce very specific rules to 
address bullying, make sure that we're addressing this in 
classrooms, increase our supervision, and intervene 
consistently and appropriately. Seventy percent of teachers in 
a survey we know believed that they intervened almost always, 
while students, 25 percent of students believed that the 
teachers intervened almost always. So there's a real 
discrepancy in our perceptions.
    And then it all has to continue over time.
    What we're doing in Iowa, very quickly, is that we have 
been leaders in bullying prevention since 2004, even before our 
law was passed in 2007. We intentionally have two nationally 
certified trainers around bullying prevention and intervention 
in every area education agency, and with our Safe and 
Supportive Schools grant there's someone who is assigned to 
each one of those schools to provide that.
    We've hosted ICN sessions, workshops and webinars, and 
continue to do that.
    We have ongoing guidance from our department attorney, 
Carol Greta.
    And again through the grant, we have provided this last 
spring our first full-day intake and investigator training. 
Across the State of Iowa, we had 400 educators participate in 
that. We will continue that work.
    We know that when somebody tells you that something has 
happened, we need to pay attention to that.
    We are partnering with Iowa State Extension and Outreach 
around youth engagement for each one of our grant schools. So 
we have youth teams that are really there to help us, really, 
to understand and know what we can do to address bullying and 
to improve the climate overall. That's really what that's 
about.
    We've also partnered with the Iowa Pride Network in a Safe 
Schools certification program which includes both an audit of 
the Iowa bullying laws so that schools are meeting the 
components of the law, and then elements for addressing 
bullying more comprehensively in each of our schools.
    In the fall we will launch at the Department of Education a 
refined data collection system from every school in the State 
of Iowa, which will give us much more information about all 
those categories that are in our Iowa law of students who may 
be bullied.
    And just one consideration, in closing, for thinking about 
the future. All areas that support student learning, we call 
that learning supports in Iowa, and they need to receive the 
same level of priority and legislation and funding as reading, 
math, and other academics. School climate has a significant 
impact on the child and student's ability to learn. It's as 
important to know if a student is safe as it is to know his or 
her achievement scores.
    Thank you.
    [The prepared statement of Ms. Bisignano follows:]
                 Prepared Statement of Penny Bisignano
    Good afternoon, ladies and gentleman. I am happy to be with you on 
this very important occasion to talk a little bit about bullying in 
schools, something that I spend every day of my life thinking about and 
making efforts to address.
    My name is Penny Bisignano and I am a consultant at the Iowa 
Department of Education and part of the Iowa Safe and Supportive 
Schools Grant Team. My area of specialization is bullying and 
harassment in schools. Every time I tell someone what I do, they tell 
me their own story of bullying. Usually they talk about something they 
experienced or are experiencing or about someone in their family or in 
a friend's family. Bullying is everywhere. I take calls daily from 
parents whose children are suffering both physically and mentally. They 
tell me their kids aren't focused on learning and academics when they 
fear for their physical or emotional safety at school every single day. 
I know they are right.
    Today I will focus my 5 minutes on four areas.

    1. The definition of bullying and the best practices for addressing 
it.
    2. What we are doing in Iowa to address bullying.
    3. The key components of the Iowa Anti-Bullying Anti-Harassment 
Law.
    4. Considerations for moving forward.
                        how is bullying defined?
    Bullying is more complex than physical or verbal harm. It is a form 
of violence in schools. The Federal stopbullying.gov defines bullying 
as,

        ``unwanted, aggressive behavior among school-aged children that 
        involves a real or perceived power imbalance. The behavior is 
        repeated, or has the potential to be repeated, over time. 
        Bullying includes actions such as making threats, spreading 
        rumors, attacking someone physically or verbally, and excluding 
        someone from a group on purpose.''

    Researcher, expert, and author Dr. Dan Olweus has a similar 
definition, one that identifies bullying as peer abuse. He says,

          ``A person is bullied when he or she is exposed, repeatedly 
        and over time, to negative actions on the part of one or more 
        other persons, and he or she has difficulty defending himself 
        or herself.''

    These definitions agree on three components of bullying.

    1. Bullying is aggressive behavior characterized by unwanted, 
negative actions.
    2. Bullying involves a pattern of behavior repeated over time.
    3. Bullying relies on an imbalance of power or strength.

    Bullying can take many forms, including derogatory speech, 
exclusion or isolation, physical attacks, the spreading of rumors, 
taking or damaging money or property, threats, and forced actions. It 
can be racially or sexually motivated. And, it can take place in person 
or via cell phones or Internet (cyber bullying).
                 best practices for addressing bullying
    At stopbullying.gov, the Health Resources and Services 
Administration (HRSA) provides 10 Best Practices for bullying 
prevention and intervention. It is important that all 10 be in place in 
order to effectively address bullying in schools.
    1. Focus on the social environment of the school. When we address 
the social environment in school, we really address the climate for 
learning, as a climate of safety and respect promotes student success. 
The insecurity, lack of control, and sense that nobody cares that come 
with bullying make it difficult for students to focus on academics. 
Some bullied students may stop coming to school altogether.
    2. Assess the nature and extent of bullying in each school. In 
order to specifically target areas for improvement, we must know what 
kind of bullying is occurring and the degree to which it is occurring. 
Data from anonymous student surveys can help inform and motivate adults 
to take action, help administrators and educators tailor prevention 
strategies, and serve as a baseline from which schools can measure 
their progress in reducing bullying.
    Surveys provide data regarding whether and how students are 
bullied, whether and how they report such treatment, and if they are 
afraid of being bullied. They also give insight into off-campus ``hot 
spots'' for bullying and the degree to which students feel bullying is 
tolerated at their school. Finally, surveys identify numbers of 
students who engage in bullying others and who try to help students 
they see being bullied.
    The most recent Iowa Youth Survey (2010) of 6th, 8th, and 11th 
graders was taken by 86 percent of 359 public school districts and 17 
percent of 183 non-public schools.

    Students bullied one or more times in the previous 30 days--50 
percent.
    Students' perceptions of whether teachers or adults tried to stop 
bullying:

          ``almost always'' or ``often''--52 percent;
          ``almost never,'' ``once in a while,'' or ``sometimes''--48 
        percent.

    Data from the largest national data base on bullying among U.S. 
students (Olweus & Limber, 2010) present additional data. It included 
524,000 student surveys from 3d -12th graders in more than 1,500 
schools in 45 States.
    Students involved in bullying 2-3 times a month (as one who 
bullied, one who was bullied, or both)--21 percent girls and 25 percent 
boys.
    Bullied students had reported the bullying to a teacher or other 
adult at school--<33 percent.
    Student feelings when they see a student their age being bullied:

          ``feel sorry for''--83 percent.

    Student responses to bullying:

          ``try to help''--35 percent girls and 29 percent boys;
          ``don't help but believe I should''--30 percent girls and 22 
        percent boys.

    3. Obtain support from adults, including school staff and parents 
to address bullying prevention. Every adult has to be engaged in the 
work: school staff, bus drivers, nurses, school resource officers, 
custodians, cafeteria workers, librarians, parents and community 
members--especially agencies serving youth. When students know that 
adults take their experiences seriously and are working to stop 
bullying, they will move from being bystanders to being defenders of 
the cause.
    4. Form a leadership group that ``shepherds'' the work to address 
bullying. This group should be made of representatives from the entire 
school community, including parents and students. Often student 
advisory groups form from within the student body to focus on bullying 
prevention; they can provide suggestions and feedback to the leadership 
group.
    5. Train all the adults in the school in bullying prevention. As 
one of the top five hot spots for bullying in school is in the 
classroom with the teacher present, staff training that is based on 
solid research specific to bullying must take place in every school. 
Training should not be a one-time event, like an assembly, speaker, 
curriculum, video, song, or public service announcement. Bullying 
prevention training needs to be ongoing and, again, specific to 
addressing bullying. Programming must be comprehensive and should 
become part of the way the school operates daily, part of the culture. 
All adults need to understand:

    1. The nature of bullying and its effects.
    2. How to respond if they observe bullying.
    3. How to work with others at the school to help prevent bullying 
from occurring.

    Remember bullying is not just a problem behavior, it is peer abuse 
that impacts the physical and mental health of students. Stopping 
bullying is more than addressing discipline issues as they arise, it is 
about stopping harm. Adults must take the first step in changing school 
climate.
    6. Create and enforce very specific rules to address bullying and 
set expectations for students. It is not enough to rely on typical 
behavior codes that do not explicitly forbid bullying. School rules 
need to use the term ``bullying'' and make it clear that the school not 
only expects students not to bully, but expects them to be good 
citizens and not passive bystanders when they are aware of bullying. 
Providing clear rules specific to bullying makes sure that students are 
aware of adult expectations. Those rules must be enforced by all adults 
in the school setting and supported by parents and community members. 
Rules should be posted and included in classroom discussions and 
individual interventions.
    7. Include a classroom component in bullying prevention programs. 
Setting aside time weekly or at least bi-weekly for upper grades to 
discuss bullying and peer relations helps to build community and 
contributes to the overall school climate. This discussion should not 
be something created and delivered to students. It gives them a key 
role in creating a climate in which all students feel safe and engaged 
in school.
    8. Increase supervision in areas where bullying is occurring. 
Students know where the ``hot spots'' or problem areas are for bullying 
and readily disclose those areas when asked. Bullying is known to 
thrive in areas where adults are not present or not vigilant, such as 
hallways and stairwells. Increasing supervision in those places can be 
very helpful in reducing instances of in-school bullying.
    9. Adults must intervene consistently and appropriately. Even if 
adults are unsure whether they are witnessing bullying, it is important 
they stop the event and assure that students are safe. Students need to 
know that adults will respond and take their safety seriously.
    Research shows adults overestimate their effectiveness in stopping 
bullying. When surveyed, 70 percent of teachers believed they 
intervened ``almost always'', while 25 percent of students agreed with 
the same. (Charach et al., 1995)

    It is important to note here that, unless there has been 
professional development for staff regarding what bullying is and how 
to intervene, these statistics will not improve.

    10. Bullying prevention and intervention should continue over time. 
The work does not ever stop but needs to become a part of everyday 
school processes and procedures. In order to create lasting changes to 
the social norms of the school and create a safe and caring environment 
of learning for each and every student, kids and adults--including 
parents and community members--need to stay engaged. There is no ``end 
date'' for bullying prevention and intervention.
                       what we are doing in iowa
    Iowa has been a leader in bullying prevention and intervention 
since 2004, 3 years before the passage of the Anti-Bullying Anti-
Harassment Law of 2007.

    <bullet> Financed (via Department of Education) national 
certification in Olweus Bullying Prevention Programming for two 
consultants in each of the Area Education Agencies.
    <bullet> Commissioned and trained over 30 Olweus Bullying 
Prevention Program Trainers statewide to serve 20 Safe and Supportive 
Schools (SSS) grant-funded schools and provide consultation and support 
for additional 27 high schools not selected for funding.
    <bullet> Provide trainers with ongoing professional development, 
resources, and networking.
    <bullet> Hosted webinars focusing on bullying prevention and 
intervention specific to cyberbullying, best practices in bullying, and 
engaging the community in efforts to address bullying.
    <bullet> Provided initial training for nearly 400 Iowa educators in 
intake and investigation of reports of bullying incidents.
    <bullet> Formed core team of adults and students and student leader 
teams in SSS Grant schools to lead anti-bullying efforts, guided by 
Department of Education/Iowa State Extension and Outreach partnerships.
    <bullet> Partnered with The Iowa Pride Network and their Safe 
School Certification Team to audit components of the Iowa Anti-Bullying 
Anti-Harassment law for each of the grant funded schools and additional 
non-funded schools.
    <bullet> Contracted with the Safe School Certification Team to 
complete an 18-24 month Certification under the Safe School 
Certification Model.
    <bullet> Committed to facilitate the next steps for SSS Grant 
schools and others in further professional development around improving 
investigation skills for reports of bullying and harassment in schools.

    Finally, in the fall of 2012, the Iowa Department of Education will 
launch a refined bullying/harassment data collection system for Iowa 
schools. This system is meant to collect incident report data from all 
districts in the State and will provide more specific data around types 
of bullying occurring, locations of bullying incidents, number of 
students involved in bullying, whether reports are founded or 
unfounded, kinds of consequences applied in bullying incidents and 
more.
    In addition to our prevention work at the Department of Education, 
we take phone calls on a very frequent basis from parents who feel 
their concerns around bullying have not been addressed. We work to 
bridge the communication gap that has developed and help schools and 
families to resolve some challenging situations.
    When Iowa school districts are visited as part of the State 
accreditation process and on all equity site visits, bullying and 
harassment policies are examined to assure they meet the expectations 
in the Anti-Bullying Anti-Harassment Law. During the visit, multiple 
groups are interviewed and questions regarding bullying and harassment 
are included in those interviews. That data is given back to all 
districts so they can address issues that appear and to recognize and 
acknowledge their successful efforts to address bullying as well.
 key components of the iowa anti-bullying anti-harassment law (ia code 
                            section 280.28)
    <bullet> Each public district must have a policy around bullying 
and harassment.
    <bullet> Failure to adopt a policy with all the required components 
could subject an accredited nonpublic school or school district to a 
possible loss of accreditation.
Expectations for inclusion in the policies are:

        <bullet>   Statement that bullying and harassment are against 
        State and school policy.
        <bullet>  Description of expected behaviors of all parties 
        relative to prevention, reporting, and investigation of 
        bullying/harassment.
        <bullet>  Consequences and remedial actions for those who 
        violate the policy.
        <bullet>  A procedure for reporting bullying/harassment.
        <bullet>  Identification by job title of the school official 
        responsible for ensuring the policy is implemented and 
        identification of the person/persons responsible for receiving 
        reports of bullying/harassment.
        <bullet>  Procedure for prompt investigation of complaints.
        <bullet>  Identification of the person(s) responsible for 
        conducting the investigation.
        <bullet>  A statement that investigators will consider the 
        totality of circumstances presented in determining whether 
        conduct objectively constitutes harassment or bullying under 
        this section.
        <bullet>  A statement of the manner in which the policy will be 
        publicized.

    <bullet> The law's definition of bullying includes electronic 
bullying.
    <bullet> The law includes protection for 17 traits or 
characteristics, whether they are real or perceived in the instance of 
bullying, but is not limited to those 17 (in 2007 the Iowa Legislature 
amended the Iowa Civil Rights Act. [Iowa Code Chapter 2160] to add 
sexual orientation and gender identity to the list of protected 
statuses).
    <bullet> The school improvement advisory committee, a required 
committee for each accredited nonpublic school and each school 
district, must discuss anti-bullying efforts annually.
    <bullet> Only one of the following four needs to be met in order to 
define behavior that creates an objectively hostile school environment:

        1.  Places the student in reasonable fear of harm to the 
        student's person or property.
        2.  Has a substantially detrimental effect on the student's 
        physical or mental health.
        3.  Has a substantially detrimental effect on the student's 
        academic performance.
        4.  Has the effect of substantially interfering with the 
        student's ability to participate in or benefit from the 
        services, activities, or privileges provided by a school.
                   considerations for moving forward
    1. All areas that support student learning need to receive the same 
level of priority in legislation and funding as reading, math and other 
academics. Since school climate has a significant impact on the child/
student's ability to learn, it is as important to know if a student is 
safe from bullying and harassment in your school as it is to know his/
her achievement scores. It is as important to know a school's safety, 
engagement, environment index score (e.g. from the Safe and Supportive 
Schools grant) as it is to know the school's academic achievement 
average score.
    2. Any bullying legislation needs to have provisions for required 
professional development for all staff regarding bullying prevention, 
including all adults who interact with students.
    3. Legislation needs to include the expectation that schools 
regularly (at least yearly) administer anonymous surveys to students, 
parents and staff on the status of bullying and other school climate 
issues. Schools should be accountable for showing how survey data is 
used to make programming and other decisions regarding climate.
    4. Assure in legislation and in funding that prevention and 
intervention programming is evidence-based, is specific to bullying, 
and encompasses the HRSA Best Practices. Bullying has become a high 
profile topic. It will be important to be grounded in good practices 
and steer schools away from those increasing resources in print and 
online by people that have little or no proven impact in reducing 
bullying. We need to expect quality, evidential strategies that truly 
fit with violence prevention and peer abuse. Just as they are in 
academic areas, our strategies for bullying prevention must be 
evidence-based.
    5. Students, families and communities must all be empowered to feel 
they are part of this work.
                          more considerations
    <bullet> In future legislation, outlining the specific, harmful 
effects of bullying will help to address it fully.
    <bullet> Require that adults report bullying (similar to the report 
of child abuse) when they see it or have a reason to suspect it.
    <bullet> Add more support for targets of bullying and families of 
targets.
    <bullet> Put more teeth in laws that forbid retaliation after 
reporting incidents of bullying.
    <bullet> Reporting incidents of bullying and individual 
interventions around those incidents is not as effective as a systems 
approach.
    <bullet> Targets of bullying are often bullied not because they 
have any particular characteristic but simply because they are there.

    I close with this quote taken from Dr. Justin Patchin, speaking May 
21, 2012 at the Minnesota Task Force on Bullying Prevention called by 
Governor Mark Dayton.

          ``We need legislation that is prescriptive, thoughtful, 
        evidence-based, and supported with adequate resources. If 
        legislators are serious about doing something to stop bullying, 
        they must move beyond the rhetoric and provide appropriate 
        resources for schools, parents, law enforcement, and other 
        community institutions to tackle this problem. Focusing on 
        improving the climate at school can have a significant impact 
        on a host of problematic behaviors. If students believe that 
        they are cared about at school, and they value those 
        relationships with their teachers, counselors, and 
        administrators, they will in turn refrain from engaging in 
        behaviors that would risk damaging those relationships. That 
        said, bullying and cyberbullying are not just school problems, 
        they are societal problems. Everyone has a role and 
        responsibility to do something, and it can start right here 
        with us today.''

    The Chairman. Thank you very much, Penny, and thank you 
again. I thought those 10 points were very succinct, very well 
done.
    Next we turn to Dr. Paul Gausman, currently superintendent 
of schools for the Sioux City community school district. In 
this position, he has direct oversight of the educational 
process for more than 14,000 students in Sioux City.
    Formerly, he was superintendent of schools for the West 
Central school district in South Dakota. In addition to his 
duties in Sioux City, Dr. Gausman is currently on staff as a 
performing artist clinician with the Yamaha Corporation of 
America in the area of marching percussion, concert percussion, 
and drum set.
    I didn't know all that about you.
    Mr. Gausman. I didn't know you were going to read the whole 
bio.
    [Laughter.]
    The Chairman. He holds a doctorate in educational 
leadership from the University of St. Thomas and St. Paul and 
an education specialist degree from the University of Sioux 
Falls, a Master of Science degree in educational administration 
and supervision from the University of Nebraska at Omaha, and a 
Bachelor in music education from the University of Nebraska at 
Lincoln.
    Dr. Gausman, again, welcome. Thank you for your great 
leadership in the Sioux City school district. Your testimony, 
again, is part of the record, and please proceed.

STATEMENT OF PAUL R. GAUSMAN, Ed.D., SUPERINTENDENT, SIOUX CITY 
           COMMUNITY SCHOOL DISTRICT, SIOUX CITY, IA

    Mr. Gausman. Thank you, Senator, and thank you for hosting 
this event. I'm going to begin.
    Penny noticed that Emily used the word ``relentless.''
    The word that struck me, Emily, when you used it over and 
over again, was ``cool.'' You weren't cool enough. You said 
that, I think, four or five times.
    I am here as the superintendent of schools from Sioux City, 
IA to introduce you to one of our coolest graduates we've ever 
had, Emily.
    [Laughter.]
    The Chairman. Oh, that's right. You're a graduate.
    Ms. Domayer. Yes, that's right.
    Mr. Gausman. She's also a hero, as far as I'm concerned.
    But I do want to acknowledge to her that this community, in 
one way or another, failed you, and I'm certainly sorry about 
that.
    Senator, as you know, we've had a 12-year partnership with 
the Waitt Institute for Violence Prevention. The Waitt 
Institute was created by the founder of Gateway Computers. The 
Waitt Foundation has partnered with our district to provide 
funding and curriculum and training around the area of bullying 
and violence in schools.
    We were originally approached by our partners at the Waitt 
Institute recently to participate in a national documentary on 
bullying in the American schools, and our participation was to 
highlight some of the progressive programs and significant 
success of our work on bullying in our schools.
    You see, Senator, we became visible on a national stage 
because we were the first school district in the Nation to 
create and implement a workplace bully prevention program for 
our staff members. We believe that in order to expect the best 
behavior from our students, we must make certain that we have 
policies and procedures in place to assure that our adults are 
also modeling the most positive behavior possible.
    I want to be clear, though, that the documentary filmmakers 
of this national film, now titled ``Bully,'' were quite honest 
with us that they would also like to spend some time in our 
district looking for a specific student or situation where they 
could see the reality of bullying from the perspective of an 
individual who was bullied. And while we're not particularly 
proud of all that is presented in the documentary, we do 
celebrate that our district has some of the most progressive 
bully prevention programs available today. Yet, we acknowledge 
that that work of art shows you--and I know you watched that 
recently--some of our dirty laundry, if you will, related to 
the challenges of bullying in American schools.
    I believe that the end result of that documentary is a work 
of art that's compelling and emotional and challenging. I'm 
proud of our school board for stepping forward and having the 
courage to engage the national discourse on bullying, the most 
important topic of our day.
    We do continue to believe in the importance of community 
and national dialog on the challenges of bullying. Our 
participation in this documentary has created some of the most 
rich and most meaningful discussion in our own community about 
what the entirety of the community can do to assist and support 
schools in our efforts to prevent bullying.
    You see, that's our perspective, Senator, that bullying is 
best defeated by prevention, not by reaction. Many of the 
programmatic solutions--and I want to be clear. I think I have 
now heard from just about every company in the Nation selling 
an anti-bullying product.
    [Laughter.]
    Most of those products deal with how to react to or respond 
to bullying.
    Our district, our board of education, and our community 
continue to work toward the prevention of bullying-like 
circumstances. We have consistently said that we are not unique 
because we have bullying in our schools, but we do want to 
become unique by being the school district that makes a 
difference.
    You see, bullying is not specific to schools. Bullying is 
all around us. It's visible in shopping malls, places of 
worship, sporting events, community events, et cetera.
    Research tells us that only about 25 to 50 percent of 
children who are bullied actually tell an adult about the 
incidents, and we've certainly witnessed that low level of 
reporting in our schools. We have a challenge of finding ways 
to have students feel safe and comfortable in reporting those 
instances to us.
    As an example, one of the ways that we've discovered that 
we can find bullying without even the reports is that it became 
apparent to us that we needed high quality audio and video 
systems on each of our buses. We implemented brand new systems 
in our buses last year. We have about 70 buses, and we now have 
staff members who not only drive the bus, Senator, they spend 
time during the day watching sample footage from each of those 
systems looking for challenges.
    We have also now fully implemented some of the most 
progressive curriculum in the area of bully prevention 
education. Thank you to the Safe and Supportive Schools grants. 
The curriculum that we have is entitled Second Step for 
students in K-8; a program where older high school students 
work with younger high school students, titled Mentors and 
Violence Prevention; and a program in after-school activities 
titled Coaching Boys Into Men. That's a program where we work 
with students to understand why they may be coached to be 
assertive or aggressive on a field of play, but that same level 
of assertive or aggressive behavior may not be acceptable in 
other areas of their lives.
    We have also made changes to our school board policies 
regarding bullying, hazing and harassment, and those policies 
are not just documents. They are action items for us in our 
district.
    Finally, I would like to point out that I believe our 
biggest challenge of the day very likely deals with cyber 
bullying, the use of electronic devices and gadgets, the 
Internet, to bully one another as a result of the anonymity 
offered or the lack of face time that gives bullies the 
opportunity to thrive.
    Senator, I encourage you to consider the many examples that 
are presented today, but don't stop just at the compelling 
nature of those immediate examples. Consider this as it truly 
is, an epidemic. It is bigger than a single person. It's bigger 
than a single staff member or a school building or a school 
district. It is our culture, and our culture must change.
    I regret that any student in any school district has a less 
than positive experience as a part of their education. I 
acknowledge that we in the Sioux City Community School District 
are like many others. We're in a district of continuous 
improvement. We know that we must study the data, we must 
listen to our customers and our constituents, and we must 
create meaningful change for the future. Thank you.
    [The prepared statement of Mr. Gausman follows:]
              Prepared Statement of Paul R. Gausman, Ed.D.
    My name is Dr. Paul Gausman, and I am honored to be the 
superintendent of schools for the Sioux City Community School District. 
The Sioux City Community School District is the fourth largest district 
in Iowa with 14,000 students in about 30 school facilities. We are 
honored to have the opportunity to teach our student population that is 
made up of a fairly high percentage of students of poverty and growing 
racial and ethnic diversity.
    The Sioux City Community School District has enjoyed a 12-year 
partnership with the Waitt Institute for Violence Prevention. The Waitt 
Institute was created by the founder of Gateway computers, Ted Waitt, 
who, with other members of his family, are graduates of our fine 
schools. The Waitt Foundation has partnered with our district providing 
funding, curriculum, and training for staff and students over our 
dozen-year relationship.
    The Sioux City Community School District was approached by our 
partners at the Waitt Institute to participate in a national 
documentary on bullying in the American schools. Originally, our 
participation was to highlight some of the progressive programs and 
significant successes of our work to prevent bullying in our schools. 
We became visible on a national stage, because we were the first 
district in the Nation to create and implement a thorough workplace 
bully prevention program for our staff members. We firmly believe that 
in order to expect the best in behavior from our students, we must make 
certain that we have policies and procedures in place to assure that 
our adults are modeling the most positive behavior possible.
    The documentary filmmakers of this national film now titled 
``Bully'' were quite honest with us, however, that they would also like 
to spend some time looking for a specific student or a specific 
situation where they could see the reality of bullying from the 
perspective of an individual who was bullied. While we are not 
particularly proud of all that is presented in that documentary, we do 
celebrate that our district has arguably some of the most progressive 
bully prevention programs available today. Yet, we acknowledge that the 
work of art shows you some of our ``dirty laundry'' related to the 
challenges of bullying in American schools. I believe the end result is 
a documentary that is compelling, emotional, and challenging.
    When we gave the filmmakers permission to film in our schools, our 
School Board members stepped forward and gave their consent as well. I 
am proud of our Board for having the courage to engage the national 
discourse on the most important topic of the day. Students must 
absolutely feel safe to have a chance to be successful in school, and 
at times, we as an entire culture fail those students on this basic 
need and right.
    We continue to believe in the importance of community and national 
dialog on the challenges of bullying in American society. Our 
participation in this documentary has created some of the richest and 
most meaningful discussion in our community about what the entirety of 
the community can do to assist and support schools in our efforts to 
prevent bullying. You see, that is our perspective, that bullying is 
best defeated by prevention, not by reaction. Many of the programmatic 
solutions; and believe me I have heard, by participating in this 
documentary, from just about every company selling any anti-bullying 
product in this great Nation; many of those products deal with how to 
react, how to respond when bullying occurs. Our District, our Board of 
Education and our community continue to work toward the prevention of 
bullying-like circumstances. We have consistently said that we are not 
unique because we have bullying in our schools, but we want to become 
unique by becoming the school district that has made a significant 
difference. You see, bullying is not simply specific to schools, 
bullying is all around us. It is visible in our shopping malls, our 
places of worship, our sporting events, community events; it is simply 
magnified in our schools because we are a people-centered organization.
    Research tells us that only about 25 percent to 50 percent of 
children who are bullied, actually ever tell an adult about the 
incidents, and we have certainly witnessed that low level of reporting 
in our schools. We have an ongoing challenge of finding ways to have 
students feel safe and comfortable reporting incidents to a school 
employee in a timely manner. In addition and at times, the victim does 
not want to contribute information during the investigation for fear of 
retaliation. Again, this is an area where we can improve.
    While we are recognized as a district that is progressive in making 
a difference in the challenges of bullying in our schools, and we were 
the 2011 recipient of the ``Lighting the Way'' award from the Waitt 
Institute for positive differences dealing with bullying and violence 
in our culture; we recognize that we cannot stop learning. As an 
example, it became apparent that we needed high quality audio and video 
recording systems on each and every bus in our District. We implemented 
brand new audio and video systems in our buses last year, and we now 
have staff members who not only drive buses, but they spend time during 
the day watching sample footage from each of those systems, looking for 
challenges.
    We have now created stronger relationships between our 
transportation department and our building principals, so that we try 
to find challenges before they are even reported to us.
    We have now fully implemented some of the most progressive 
curriculum in the area of bully prevention education as a result of our 
continued partnership with the Waitt Institute. We have a curriculum 
titled ``Second Step'' for all students in grades K-8 that teaches 
students to recognize, refuse, and report bullying. We also have 
components with this curriculum that connect to parents so that they 
know what their students are learning in school and they can support 
those items at home. We have a program in our high schools titled 
``Mentors in Violence Prevention'' or ``MVP.'' This program allows 
older students, typically high school juniors and seniors, to partner 
with incoming freshmen students. The older students facilitate 
conversations with the younger students around a series of social 
scenarios depicting bullying and abusive peer culture in their school 
and community. During these discussions, students talk about how they 
might keep challenges from rising to a level that is significant and 
how they could prevent those challenges from ever occurring at all.
    We also have an after-school curriculum titled ``Coaching Boys Into 
Men.'' This is a violence prevention program designed to allow high 
school athletic coaches to discuss with male athletes about the 
importance of respect for themselves and others with a noted focus on 
the women and girls in their lives. We believe we need to work with 
students to understand why they may be asked to be assertive or 
aggressive on the field of play yet, that same level of aggressive or 
assertive behavior might not be welcome in other aspects of their 
lives.
    We have also made changes to our School Board policies regarding 
bullying, hazing, and harassment. Those policies are not just documents 
to us, they actually guide our actions, and they give us the 
opportunity to behave in different ways to prevent those challenges. 
And of course, we have a very thorough staff development process 
regarding these very important topics.
    Finally, I would like to point out that our biggest challenge of 
the day very likely deals with cyber-bullying. The use of electronic 
devices and gadgets, the Internet, to bully one another, as a result of 
the anonymity offered by the lack of face time that gives bullies the 
opportunity to thrive.
    I encourage you to consider the many examples that are presented 
today; but do not stop at the compelling nature of the immediate 
examples. Consider this as it truly is, an epidemic. It is bigger than 
a single person; it is bigger than a single staff member, a single 
school building, or a single school district. It is our culture and our 
culture must change. I do regret that any student in any district has a 
less than positive experience as a part of their education. We, in the 
Sioux City Community School District, are, like many, a district of 
continuous improvement. We must study the data, we must listen to our 
customers and constituents, and we must and we will create meaningful 
change for our future.
    Thank you for your time.
                                 ______
                                 
               Attachment.--Sioux City Community Schools
                                overview
    Established in 2007, the Sioux City Project is a partnership 
between the Sioux City Community School District, the Waitt Institute 
for Violence Prevention, and the United Way of Siouxland in order to 
create a structure within our schools to support the systemic 
implementation of bystander, violence and bullying prevention 
curriculum, programming, and public education communication. The Sioux 
City Project was one of the first comprehensive, community initiatives 
in the Nation to undertake a bystander intervention approach to bully 
and violence prevention.
    This comprehensive approach to primary prevention has been guided 
by four basic goals:

    1. To increase the number of youth who believe violence and 
bullying are wrong.
    2. To increase the number of youth willing to intervene and take 
action against violence and bullying.
    3. To decrease the incidents of violence and bullying in schools.
    4. To increase the number of adults who talk to youth about 
bullying and violence against women and girls being wrong.
                         curriculum & programs
Second Step Curriculum
    Second Step teaches students in grades K-8 to recognize, refuse, 
and report bullying; to be assertive and build friendships. From 2008-
10, Second Step was phased into the District's curriculum and strategic 
plan.
Mentors in Violence Prevention (MVP) Program
    The MVP program allows the partnership of older students, typically 
high school juniors and seniors, with freshman students. The older 
students facilitate conversations with freshman students around a 
series of social scenarios depicting bullying and abusive peer culture 
in school and community settings. During the MVP sessions, scenarios 
are viewed from the perspective of a bystander and discussions are 
conducted based on the participants' impression of how wrong the 
behaviors may be, how likely they see themselves taking an active role 
in preventing the behavior from continuing or playing out, and then 
deciding on possible options for them to intervene in the role of an 
active bystander.
    Since the implementation of the MVP program, approximately 300 high 
school educators, 100 community partners, 800 student mentors, and 
8,500 high school students have been positively influenced by the 
content.
Coaching Boys into Men
    Coaching Boys into Men is a violence prevention program designed 
for high school athletic coaches to inspire and teach male athletes 
about the importance of respect for themselves, others, and 
particularly the women and girls in their lives. Since the 
implementation of the Coaching Boys into Men program, over 120 Sioux 
City Community School District coaches and 600 student athletes have 
been influenced by the content.
Bully Prevention Advocates
    In addition to the curricular items, the Sioux City Community 
School District firmly believes that all of our employees are role 
models for students. We became the first school district in the Nation 
to write, adopt, and actively implement school board policy to address 
workplace bullying. Comprised of employees from all job 
classifications, Bully Prevention Advocates provide assistance with 
awareness and facilitate resolution and complaint procedures.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                findings
    Throughout the Sioux City Project, student perceptions and 
attitudes are gathered annually through the use of the Waitt Institute 
for Violence Prevention--Sioux City Community School District: Student 
Perception Survey, or WIVP/SCCSD, surveying how wrong the students 
believe certain behaviors are, how likely they would be to intervene as 
a bystander when confronted by certain behaviors, how likely they 
perceive other peers might intervene in similar situations, and how 
often adults talk to them about dating violence and bullying being 
wrong. Each section of the survey contains the same 18 behaviors that 
represent a continuum of violent and abusive behaviors, i.e., types of 
abuse: verbal, emotional, sexual, and physical. General findings of the 
WIVP/SCCSD student survey are described in this document.
2008-2011 Bystander Attitude, Perception, Behavior
    Goal 1: Youth who believe violence and bullying are wrong. 
Favorable trends on 10 of 18 behaviors (55 percent).
    Goal 2: Youth likely to observe ``others in my school'' intervening 
against violence and bullying. Favorable trends on 13 of 18 behaviors 
(72 percent).
    Goal 3: Youth willing to intervene against violence and bullying. 
Favorable trends on 12 of 18 behaviors (67 percent).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Since 2008, the Sioux City Community School District has surveyed 
parents at spring conferences for their thoughts regarding school 
climate and the quality of education. Results show the District is 
making positive gains in violence awareness, prevention, and education.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The percentage of high school youth in the Sioux City Community 
School District receiving one or more discipline referrals for a 
``minor'' behavior infraction decreased and the percentage of high 
school students receiving three or more discipline referrals decreased.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Dr. Gausman. That was 
very profound. Thank you.
    Ellen Reilly is a learning support specialist with the 
Davenport Schools. She is the district anti-bullying 
coordinator, and also provides at-risk, homeless, and other 
specialized services in her district of nearly 16,000 students.
    She has a Master's in criminal justice and organizational 
development from St. Ambrose University in Davenport, is a 
certified trauma and law school specialist at the National 
Trauma and Loss Institute, has been working in the area of 
bullying prevention.
    I saw you nodding when Dr. Gausman said prevention. So 
you've been doing that for the last 12 years. Oh, you're a 
certified Olweus--I'll get that name right--bully prevention 
trainer, having trained over 30 schools in the last 3 years.
    This is very interesting. Ellen Reilly, thank you very much 
for being here, and please proceed.

    STATEMENT OF ELLEN REILLY, LEARNING SUPPORT SPECIALIST, 
            DAVENPORT COMMUNITY SCHOOLS, MOLINE, IL

    Ms. Reilly. Thank you very much. I really appreciate being 
asked to be here today. In 2008 I was working for Davenport 
Schools. I'd only been there for a couple of years, and after 
the legislation was passed in Iowa in 2007, the anti-bullying 
legislation, I became what I later learned was called annoying 
to administrators in our district because I was persistent in 
implementing an anti-bullying program; because, you see, even 
though people know that bullying happens, and educators know it 
happens, it seems to be sometimes that thing that we push 
aside. It's not easy to address. It's difficult, as a matter of 
fact, especially at a systemic level.
    Now here we are in 2012, and Davenport Schools has 
implemented the Olweus anti-bullying program in all 30 of our 
buildings K-12. It was a very interesting process to do, and 
not every building is implementing at the same level. We have 
various levels of implementation, and that is evidenced by how 
schools respond to bullying--that's probably the best way to 
look at it--and also by our survey data, which we do survey on 
an annual basis.
    I have three points that I'd like to address specifically 
today. No. 1, dealing with bullying is a complicated process. 
No. 2, zero tolerance is not effective. And No. 3, to truly 
address bullying in schools, we must include proper training 
and ongoing support to teachers, administrators and others who 
work with children, and I think we heard that from Penny as 
well.
    In talking about the Olweus anti-bullying program, which 
I'm just going to refer to as Olweus now, it's not a 
curriculum. It's not a lesson that's taught in a classroom. 
It's a whole-school approach, it's systems change, and it's 
looking at systems change from four different levels, that 
being school-wide, in the classroom, on an individual level, 
and at the community level.
    At the core of Olweus, there are four anti-bullying rules. 
I refer to them as the speed limit. Just because the speed 
limit is posted doesn't mean you're going to follow it. But, 
boy, when you see the police officer in his car, you slow down. 
So I refer to the rules as the speed limit in our district.
    No. 1, we will not bully others. No. 2, we will help others 
who are bullied. No. 3, we will include those who are easily 
left out. And No. 4, when we know someone is being bullied, 
we'll tell an adult at school and an adult at home, and expect 
them to do something about it.
    In Davenport, we post those rules throughout the school and 
in every classroom. They're even posted at our football stadium 
and around local areas where students that attend our schools 
also go in the community and participate in youth events. Our 
community is very engaged in our anti-bullying program.
    We share this information with parents on how we're going 
to handle bullying in our schools. We give it to them at 
conferences, in newsletters, and it's on our Web site. We 
survey our students on an annual basis, and that information is 
reviewed and then put together in a trend report so that 
parents, teachers and students can see how we're doing in the 
area of bullying prevention.
    I can say that since we implemented--our first 
implementation school was 2008--we have seen a decrease in the 
number of bullying incidents and the number of students who are 
reporting being bullied. We've seen an increase in the number 
of incidents being reported, which we wanted to see. We want 
students to report it when it's happening.
    We've seen an increase in students reporting that adults 
intervene when they see bullying, and we've also seen an 
increase in the number of students who intervene and try to 
support their peers when they're being bullied.
    Davenport also started the Be Bully Smart campaign, and 
that is a grassroots community awareness campaign on bullying 
that we have engaged our police department, our parks and rec 
department, Big Brothers, Big Sisters. We train their staff, 
and then they in turn are able to endorse and support our 
program on anti-bullying in the community.
    Zero tolerance is not effective, and I want to read here 
that the definition of zero tolerance is that it's usually 
bringing the maximum punishment for every transgression. The 
best approach to managing consequences for bullying situations, 
which is what I deal with on a regular basis, is to have 
someone who is well-trained in best practices address the 
situation by thoughtfully discussing the incident and issuing 
appropriate progressive consequences that fit the circumstance 
and severity of the bullying. Consequences, especially in 
bullying situations, should teach, not destroy.
    And finally, to address bullying in schools, we do need to 
provide training. We need to be able to accurately identify 
bullying, and I've heard the definition, and Penny brought up 
the definition from Dr. Dan Olweus. Our goal is to ensure that 
students are safe if they experience bullying. This can include 
parent conferences, safety plans, changes to schedules, one-to-
one supervision. We do whatever we can to make sure students 
are safe, because the reality is that bullying is never going 
to go away. We need to do prevention efforts to reduce it, and 
then we need to be able to reduce the negative impact on 
students.
    I want to make a final statement regarding our LGBT 
population and say that I believe that it is critical that we 
have gay-straight alliances in every middle and high school. I 
would like to see that happen. I'd like to see it happen in 
Iowa, and I would like to see it happen on a national basis, 
because gay-straight alliances have the same goals that Olweus 
has, and that is to create safe environments in schools, to 
educate the school community about homophobia, transphobia, 
gender identity and other sexual-oriented issues, and then 
fight discrimination, harassment and violence in schools.
    I believe that when a student enters secondary school, 
middle school and high school, that a GSA should have the same 
importance as the French Club, the debate team, the football 
team, or any other school group that exists. It should have the 
same recognition and the same value.
    Thank you.
    [The prepared statement of Ms. Reilly follows:]
                   Prepared Statement of Ellen Reilly
    Chairman Harkin, thank you for having me today. It is an honor and 
a privilege to be able to speak to you about the efforts of Davenport 
Community Schools to address bullying.
    In 2008 as a result of the 2007 Iowa anti-bullying legislation, 
Davenport Community Schools implemented the Olweus Bullying Prevention 
Program in all 30 of our schools. With over 35 years of research and 
successful implementation all over the world, Olweus is a whole-school 
program that has been proven to prevent or reduce bullying throughout 
the school setting. Dr. Dan Olweus developed the program and is often 
considered the ``pioneer'' in bullying research.
    There are three main points I wish to address today:

    1. Dealing with bullying is a complicated process;
    2. Zero Tolerance is not effective; and,
    3. To truly address bullying in schools, we must include proper 
training and ongoing support to teachers, administrators, and others 
who work with children.

    1. Dealing with bullying from the individual all the way up to the 
system level is a complicated process; the implementation of a 
structured bullying prevention like Olweus can help address these 
challenges.

    The Olweus Anti Bullying Program is designed to improve peer 
relations and make schools safer, more positive places to learn. The 
Olweus Bully Prevention Program is not a curriculum. It is a whole-
school, systems-change program at four different levels: schoolwide, 
classroom, individual, and community.
    The goals of Olweus are to:

    <bullet> reduce existing bullying problems among student;
    <bullet> prevent the development of new bullying problems; and
    <bullet> achieve better peer relations at school.

    At the core of Olweus are four anti-bullying rules:

    1. We will not bully others.
    2. We will help others who are being bullied.
    3. We will include others who are easily left out.
    4. When we know someone is being bullied we will tell an adult at 
home and an adult at school and expect them to do something about it.

    Every Davenport Community Schools posts the bullying rules 
throughout the school and in every classroom. Each school also holds an 
annual assembly to review the rules and remind everyone of how 
Davenport Schools deals with bullying. Information goes home to 
parents, is presented at registration and conferences, and put in 
newsletters. Students are surveyed on school climate annually and the 
results are shared with students, staff, and parents. Survey 
information assists each building to set goals for the following year 
and improve supervision in areas where students report bullying is more 
likely to occur. Davenport Schools have seen an increase in the number 
of adults and students stopping bullying when they see it, an increase 
in students reporting bullying if it is happening to them or someone 
they know, and a decrease in the overall incidences of bullying. 
Davenport has also engaged the community in our bullying prevention 
efforts by training staff from Big Brothers/Big Sisters, Davenport 
Police Department, Parks and Rec, our local LGBT Support organization. 
Davenport also started the Be Bully Smart campaign, a community call to 
action with a simple message: ``See it. Stop it. Report it.'' Using 
yard signs, posters, banners, and most importantly, a Facebook Page, Be 
Bully Smart brings awareness to the issue of bullying at a community 
level, providing resources on bullying and bullying prevention.

    2. Zero tolerance is not effective.

    Zero tolerance imposes automatic punishment for infractions of a 
stated rule, with the intention of eliminating undesirable conduct, 
with little evidence that supports the claimed effectiveness of such 
policies. It is often interpreted as bringing the maximum punishment 
for every transgression. The best approach to managing consequences in 
bullying situations is for someone who is well-trained in anti-bullying 
best practices to address the situation by thoughtfully discussing the 
incident and issuing appropriate, progressive consequences that fit the 
circumstance and severity of the bullying. Consequences, especially in 
bullying situations, should teach, not destroy.

    3. To truly address bullying in schools, we must provide proper 
training and ongoing support to teachers, administrators, and others 
who work with children. Accurate identification of bullying, proper 
investigation techniques and appropriate consequences are all critical 
in addressing bullying.

    Not all mean behavior is bullying. Bullying, as identified by Dr. 
Dan Olweus, is intentional, aggressive behavior that involves an 
imbalance of power and is most often repeated over time. Bullying is 
peer abuse. School staff must be trained on how to properly investigate 
bullying situations. Davenport Schools' goal is to ensure students are 
safe if they have experienced bullying. This can include parent 
conferences, safety plans, changes to schedules, one-to-one supervision 
and other strategies that increase student safety. Additional training 
and counseling are also options to deal with students who have been 
bullied and who do the bullying. The reality is bullying will always 
exist. We can only be vigilant in our efforts to prevent bullying from 
happening and reduce the negative impact when it does occur.
    I would like to say a few words about providing a stronger support 
system for our lesbian, gay, bisexual and transgender (LGBT) youth in 
our schools today. We are educators. We have a responsibility to 
educate. As educators we must not fear openly talking about LGBT issues 
in our middle and high schools. Gay teens in our schools are often 
subjected to such intense bullying that they are unable to receive an 
adequate education. These youth leadership organizations have the same 
goals align with those of Olweus, but with a focus on the LGBT 
population. Their goals are:

    1. to create safe environments in schools for students to support 
each other and learn about homophobia, transphobia, and other 
oppressions;
    2. to educate the school community about homophobia, transphobia, 
gender identity, and other sexual orientation issues; and
    3. fight discrimination, harassment, and violence in schools.

    It is my hope that not only in Iowa, but throughout the Nation, 
every middle and high school would have an active, supported Gay 
Straight Alliance (GSA) in place.
    Thank you.

    The Chairman. Ellen, thank you very much. That's a great 
leaping-off point for our next witness, Matt Shankles, who will 
talk about the gay-straight alliance.
    Matt is a rising junior at Linn-Mar High School in Marion, 
IA, with a strong interest in theater, performing in the Prep 
In-Step Show Choir, and has earned membership in the 
International Thespian Honor Society.
    Matt is also an advocate for safer schools, serving as co-
president of the school's gay-straight alliance. He is a 
creator of a once-anonymous Twitter account to counteract 
bullying. It's @linn_mar
_love.
    Is that right? Did I get it right? OK.
    Matt traveled to Washington, DC to attend the GLSE Safe 
Schools Advocacy Summit to advocate for the Safe Schools 
Improvement Act.
    Matt, welcome. Please proceed.

  STATEMENT OF MATT SHANKLES, STUDENT, LINN-MAR HIGH SCHOOL, 
                           MARION, IA

    Mr. Shankles. Thank you. I guess my experience with 
bullying really began in eighth grade. Through a process I 
won't describe, my classmates had learned that I was gay. And 
although recently I've been more popular in school, after I 
came out I lost probably half my friends, and they bullied me 
relentlessly with slurs and threats and remarks that no one 
should ever have to have said to them or directed at them or 
seen directed at anyone else, on top of that.
    I wasn't even free of the bullying when I left school. Even 
now, if I walk home from school, people will yell obscene 
things out car windows at me. So I have to take a different 
street home that isn't as busy.
    In October of last year, an anonymous Twitter account began 
spreading false rumors about various people in my high school. 
They cyber bullied me and other people, and I related to that 
so much. And while all this was happening, I became more and 
more depressed. I couldn't get away from it. I was always 
concerned with what other people thought or what other people 
needed to think, and how can we make people think something 
else or how can I distract myself from it, or anything except 
school work.
    Those habits, as I was bullied in middle school--middle 
school is really the time when you should be building the 
habits to be able to concentrate on your school work, and I've 
never quite been able to do that anymore.
    I didn't report the bullying because I didn't think the 
school administration or somebody could do anything for me, and 
we do have the Olweus class meeting system in our school system 
at Linn-Mar as well.
    Then at one point a friend suggested that I, ``pretend to 
be straight in order to stop the bullying,'' which I never 
understood how I was different. I don't look at the differences 
between people. I always see people as very much the same, and 
I can see similarities in people who you'd never even think 
they were the same until you really looked.
    So I never looked at myself as any different. I didn't 
understand what I needed to hide, what I needed to change, what 
needed to happen in order to make it stop, although I knew that 
I thought I should change myself, and that is not how you stop 
the bullying. That is not what gets it fixed, because even if I 
were to bend to other people's expectations of myself, they 
would just bully someone else.
    Eventually I came to a point in my life where I really just 
didn't want to be alive anymore, and I never felt that way 
again, which is good. I went from eighth grade into high school 
and I joined my school's gay-straight alliance, and what she 
said about gay-straight alliances is 100 percent true. What 
gay-straight alliances can do in a school is so productive and 
so amazing.
    I use Twitter, as Senator Harkin said in my biography 
before, to counteract the bullying through an anonymous Twitter 
account called @linn_mar_love. And really, it was weird because 
I could reach out to people because they didn't know who I was, 
and they could reach out to me, and there was no more social 
boundary there.
    Anyway, earlier this year I had the opportunity to visit 
Washington, DC to advocate for two important pieces of Safe 
Schools legislation. I am grateful to GLSEN, the Gay, Lesbian 
and Straight Education Network, GLSEN, for giving me the 
opportunity to learn about advocacy and to meet with my 
Senators and Representative. For me, it was a truly life-
changing experience really, and I'm excited because GLSEN has 
invited me to become a student Ambassador and to continue 
telling my story as a way to make a positive change through 
things like today.
    While in Washington, I learned about the Safe Schools 
Improvement Act, S. 506, and the Student Non-Discrimination 
Act, S. 555. These two bills will ensure that every school 
district has a comprehensive anti-bullying policy with 
effective protections for all students. While Iowa and 14 other 
States already have comprehensive anti-bullying laws, most 
States have only generic anti-bullying laws that are unable to 
provide protection for vulnerable students, as Senator Harkin 
stated before.
    Two of the lawmakers I have met with have been very 
supportive. Senator Harkin is a co-sponsor of the Safe Schools 
Improvement Act and the Student Non-Discrimination Act and has 
been a leader in trying to make schools safer for all students, 
as we know.
    Representative Loebsack signed onto the bill after I met 
with him and told him my story.
    Last, no one should go through this, ever. There is a 
paragraph here in my testimony I'm going to skip, but I just 
want to say students are dying in their homes and in their 
schools. That's not OK. We're here because something needs to 
be done. Thank you.
    [The prepared statement of Mr. Shankles follows:]
                  Prepared Statement of Matt Shankles
    Dear Chairman Harkin and members of the HELP Committee, thank you 
for giving me the honor of testifying before you today. My name is Matt 
Shankles, and I am a rising junior at Linn-Mar High School in Marion, 
IA. I would like to speak about the terrible bullying and harassment I 
faced in school because of my sexual orientation, how this treatment 
affected me, and what we can do to help make schools safer for all 
students.
    My experience with bullying and harassment began in the eighth 
grade when my classmates learned that I was gay. Although I had been 
popular, after I came out, I lost many friends and others began to 
bully me relentlessly with slurs, threats, and by spreading false 
rumors about me. I couldn't even be free of the bullying when I left 
school--students driving by would yell slurs at me as I walked home. 
Several students even began to cyber-bully me through Twitter by 
ridiculing me and spreading lies.
    While all of this was happening, I became more and more depressed. 
I couldn't escape the bullying, and I didn't feel there was anyone I 
could turn to. I didn't report the bullying because I didn't think that 
the school administration could do anything to help me.
    At one point my best friend even suggested that I pretend to be 
straight in order to stop the constant bullying. I was so hurt by this 
suggestion; I did not feel different from everyone else--what was it 
about me that I needed to hide just to be able to go to school every 
day and be treated like a human being. Lost in despair, I began to hate 
myself. One day, after enduring constant bullying, I simply lost hope. 
I locked myself in my bathroom, planning to end my life with a knife. I 
sat there in the dark for a long time. Fortunately, my stepfather 
eventually found me and loudly slammed open the door, snapping me out 
of my daze. I really believe he saved my life that day. But to this 
day, I worry that he does not trust me.
    After that day, things at school did gradually begin to improve. 
Though I was still depressed, I confided in my school's guidance 
counselor who offered me hope. I also became involved with my school's 
Gay-Straight Alliance, which we call Spectrum. The support of other 
students helped to restore my self-esteem and made the relentless 
bullying more bearable. Eventually, I became co-president of the group.
    Fortunately, I never again felt the way I did that day. Over time, 
I saw the ordeal I had gone through as an opportunity to help others, 
and I dedicated myself to fighting back against bullying and 
harassment. I began to use Twitter to reassure other students facing 
bullying by providing positive messages instead of ridicule. I also 
began to help spread awareness of bullying and harassment by telling my 
story to other students, to teachers, and even to lawmakers.
    Earlier this year, I had the opportunity to visit Washington, DC, 
to advocate for two important pieces of safe schools legislation. I am 
grateful to GLSEN, the Gay, Lesbian & Straight Education Network, for 
giving me the opportunity to learn about advocacy and to meet with my 
Senators and Representative. For me, it was a truly life changing 
experience, and I am so excited that GLSEN has invited me to become a 
Student Ambassador and continue telling my story as a way to make 
positive change.
    While in Washington, I learned about the Safe Schools Improvement 
Act (S. 506) and the Student Non-Discrimination Act (S. 555). These two 
bills will ensure that every school district has a comprehensive anti-
bullying policy with effective protections for ALL students. While Iowa 
and 14 other States already have comprehensive anti-bullying laws, most 
States have only generic anti-bullying laws that are unable to provide 
protection for vulnerable students. Two of the lawmakers I met with 
have been very supportive. Senator Harkin is a cosponsor of the Safe 
Schools Improvement Act and the Student Non-Discrimination Act and has 
been a leader in trying to make schools safer for all students. 
Representative Loebsack signed on to the bill after I met with him and 
told my story.
    I was lucky. No student should have to fear going to school like I 
did or become hopeless that things will ever change. Although I still 
face bullying in school, I am fortunate to have family and friends who 
care about me and a school that takes this issue seriously. My mother 
has told me how proud she is to have a son who fights to help others 
who are suffering. I hope that by telling my story and by helping 
others realize that resources and support are available, we can make a 
difference for students all across our country.
    Thank you for allowing me the opportunity to testify today and tell 
my story.

    The Chairman. Thank you very much, Matt. Thank you. Thank 
you for your courage.
    Now we go to Liz Sederquist. Liz Sederquist is a student at 
Des Moines Area Community College and Gilbert High School. She 
participates in rugby at Iowa State University and has been 
active in softball, band, marching band, a member of Iowa Pride 
Network's Leadership Team. Liz plans to major in anthropology, 
with a double minor in archaeology and history.
    I had a pleasant conversation with her beforehand.
    I have your testimony and, Liz, thanks for being here. 
Please proceed.

STATEMENT OF LIZ SEDERQUIST, STUDENT, DES MOINES AREA COMMUNITY 
                       COLLEGE, AMES, IA

    Ms. Sederquist. Thank you for having me here. Like you said 
before, my name is Liz Sederquist, and I am technically a 
student at DMACC through their correspondence program, which a 
high school has to proctor my tests, and I do homework I guess 
you would call it, and I will get my diploma.
    I'm still technically a student at Gilbert High School, but 
I rarely ever attend. I have no classes there. I'm there long 
enough to take my DMACC test.
    The reason why I rarely step foot in Gilbert is because I 
slowly dropped my classes in order to remove myself from a 
school that was unsupportive and hostile to me because I myself 
identify as lesbian.
    At the beginning of the year I had long hair and had tried 
to act straight because I knew it was a conservative school, 
and I did this to protect myself. I was living a double life.
    Early in the year I met a guy, and he wanted to help me 
with my algebra class because I was having problems with it and 
I was struggling. He had a crush on me and constantly was 
asking me to go on dates and wanted to actually be with me. I 
made it clear I just wanted to be friends, and we decided to go 
to Homecoming together as friends.
    Afterwards he still continued to pursue me, and I continued 
to make it clear that I just wanted to be friends. He got mad 
at me, and there was one day that I had decided to confide in 
him and tell him that I was gay, and later on that would be the 
wrong move to do. He got angrier as I kept saying that I did 
not want to be with him. He decided to out me at school, which 
in the LGBT community you do not out somebody. It is wrong. You 
don't know the reasons why somebody is in the closet.
    I was scared about how people were going to react, but 
nobody had believed me at first. Later on I had had window 
paint on my car to support the rugby team at ISU, and someone 
had taken their key and wrote the words ``bitch,'' ``cunt'' and 
``fag'' into my windows, leaving scratches. My car was 
vandalized, and I had also gotten a text from a friend saying 
all these things that everybody else was saying about me, 
including derogatory names and different slurs.
    I had told the principal, and I had tried showing him 
pictures of my car. I tried showing him text messages, but he 
continued to say that he believed me and that I didn't need to 
show him the evidence. And me being a teenager, I didn't want 
to see that anymore. It was depressing me, so I did the wrong 
thing and I deleted them.
    Now that people knew that I was gay, I slowly started to be 
me. In February I had attended an LGBT conference at Iowa State 
University known as Mumble Talk or MBLGTACC, and afterwards I 
decided to cut my hair and show the world who I really am and 
how I feel and express myself in a way that I felt was 
necessary.
    People really started to harass me, and I went to the 
principal numerous times. He would meet with me but just brush 
off all of my concerns. I started to feel fear for my physical 
safety and worried about people starting even more rumors. To 
me, it felt like 600 people against 1. I felt very small, and 
it was very overwhelming because so many people were up against 
me. I had some allies, but they were so scared to actually 
stand up for me that it didn't even help.
    When you're worried about your safety, it's hard going to 
school. It's difficult to concentrate. I'd get anti-gay texts 
on my phone, I'd hear slurs, and I'd be called names, and the 
person who had outted me to the school was kind of the 
ringleader of everything.
    This is not how I wanted to go to school. I wanted to feel 
safe, so I decided to pursue and make a gay-straight alliance, 
or a GSA. I wanted to educate my peers and faculty and stop the 
homophobia and hate. I began working with Iowa Pride Network.
    Unfortunately, the advisor that I wanted for the GSA kept 
trying to talk me out of it. He kept saying I would get bullied 
and harassed even more, and he told me that he was just 
concerned for my safety and for my well-being. But I wanted the 
support and I was tired of hearing anti-gay remarks, and I 
wanted a change.
    I kept being told that the gay-straight alliance was a bad 
idea. At the time, I was dealing with teachers who wouldn't 
call on me in class or even involve me. Some of my teachers 
even felt it was OK to say ``that's gay'' when describing a 
dislike, which is not right.
    Female teachers didn't feel comfortable around me and 
avoided me because I identified as lesbian, and most faculty 
wanted nothing to do with me. I finally felt so discouraged I 
gave up on the GSA and my school. I developed severe anxiety, 
stomach issues, and depression. I didn't want to go to school, 
and I didn't want to have to go to faculty that didn't pay 
attention to me and no one handling the bullying problem.
    My mom had called the superintendent, and the 
superintendent said he would look into it, but nothing had ever 
changed. My principal had called my mom and would yell at her 
and say I was never in school, and my mom would simply explain 
it was because the school wasn't handling the bullying 
situation, or it was because I had such severe anxiety and 
stomach problems that I couldn't attend school anyway.
    And that's when I decided to enroll in DMACC to get away 
from the harassment and bullying and to get my diploma, because 
I wanted to find a way to get away from everything unless 
something severe would happen and I would get into such a low 
depression that I could end up like the other tragic students 
and possibly commit suicide, and I didn't want that to happen.
    I was currently a junior, and I had enough credits to 
graduate this spring or this summer, and I wanted to go to 
college in the fall, but now I can't because I can only 
graduate once my class does next year in 2013. My life is now 
put on hold, and because I'm being held back, so is my 
financial aid for college because the adult diploma is a gray 
area.
    The one bright spot I was looking forward to this spring 
was possibly going to prom with my girlfriend. I wanted to go 
to prom because this was technically my senior year now, and I 
wanted to have that high school and senior year experience. I 
was told I wasn't allowed because I was missing too much school 
and I was only attending DMACC classes and I wasn't a full-time 
student. But at that time, I still had some Gilbert classes.
    There was another student at my school who had missed 
school and was also attending classes mostly at Iowa State, but 
he was allowed to go. It was a double standard, and the 
principal said not only could I not go to prom, I would not be 
allowed to bring my girlfriend, but yet everybody else can 
bring their own date.
    My experience at Gilbert High School has been tough. It's 
very hellish at times, and I hope that through this testimony 
schools will realize that not providing a safe and supportive 
environment does affect students and their ability to learn. 
Students should not have to worry about being judged for who 
they are and judge them on their actions, not on how they 
present their gender or sexual orientation, like myself. You 
should be able to go to school and know that there is going to 
be teachers that support you, or at least put their opinions 
aside and treat you like a normal human being.
    School faculty needs ongoing training, not just training 
once a year but actual ongoing training. People who want to 
become teachers also need classes as well to help them 
understand how to deal with bullying, not just with sexual 
orientation or gender identity but also with disabilities and 
anything in-between.
    Schools also need gay-straight alliances. As Matt and Ms. 
Reilly had said, they do help. Even if it is not just a gay 
person starting it, it's a great way to have a support group 
for that person who is getting bullied, whether they're gay, 
straight, or have a gender identity or not, and they can go 
there and have the support, almost like a family, and they can 
go and tell people what is going on and what is happening at 
school, or even what's going on at home, because some families 
don't always accept their child when they have a different 
gender identity than what they are or their sexual orientation, 
or anything really. And a GSA does help.
    I know in my school, a GSA would make a big difference, and 
I am still trying to fight to have a GSA at that school even 
though I am not a part of that school, but I am still willing 
to help, because no kid should have to go through what I did. 
No one should have to live a double life, and no one should 
have to worry about being judged. And yes, people are going to 
judge you no matter what, but people need to understand that 
we're human and we come in all different shapes, sizes, colors, 
different mental states, different everything. And it's 
important that we embrace who we are, and we should not have to 
be afraid to embrace who we are.
    A GSA would also help the anti-gay remarks stop. They may 
not stop completely, but when you hear faculty saying ``that's 
so gay,'' or you even hear students calling another one a 
faggot or gay in general, it's hurtful. Even if they themselves 
are not gay, to force that on someone is hurtful, and it can 
really damage someone.
    Senator Harkin, thank you for allowing me to speak today, 
and I hope that my story and some of my ideas help bring issues 
to light.
    [The prepared statement of Ms. Sederquist follows:]
                  Prepared Statement of Liz Sederquist
    Hello my name is Liz Sederquist and I am a student at Des Moines 
Area Community College pursuing my adult diploma. I am also, 
technically. still a student at Gilbert High School although I rarely 
attend.
    The reason I rarely step foot in Gilbert High School is because I 
slowly dropped classes in order to remove myself from a school that was 
unsupportive and hostile to me because I identify as a lesbian.
    At the beginning of the year I had long hair and tried to ``act'' 
straight because I knew it was a conservative school. I did this to 
protect myself.
    Early in the year, I met a guy in algebra who tried helping me 
better understand the subject. He had a crush on me and wanted to go 
out. I made clear I just wanted to be friends. As friends, we decided 
to go to the homecoming dance together. Afterwards, he continued to 
pursue me and I continued to make clear that I just wanted to be 
friends. He got mad and I confided to him that I am gay. I thought he 
would understand.
    Instead, he got angrier and outted me to the school. He told many 
people. I was scared about how people were going to react, but nobody 
believed it at first. Then someone wrote ``BITCH'', ``CUNT'' and 
``FAG'' on my car. I had also received a text from a friend telling me 
people were also saying these awful things at school.
    I told the principal. I tried to show him my car, but he didn't 
want to see the graffiti or scratches--instead he told me that he 
believed me and that he was going to talk to the students responsible. 
But he never did.
    Now that people knew, I slowly started being me.
    I went to an LGBT conference at Iowa State University and 
afterwards decided to cut my hair. That's when people really started 
harassing me.
    I went to the principal numerous times. He would meet with me but 
brush off my concerns. I feared for my physical safety and worried 
about someone starting more rumors. It felt like 600 people against 
one. It's a numbers game which becomes a mental game. When you feel 
like that many people are against you, it's overwhelming. I had some 
allies, but they were too scared to stand up with me or for me.
    When you are worried about your safety it sucks going to school. 
It's hard to concentrate.
    I would get anti-gay texts on my phone. I'd walk down the hall and 
I'd be called names. The guy that outted me was the ring leader.
    This is not how I wanted to go to school. I wanted to feel safe so 
I decided to start a gay-straight alliance to help educate my peers and 
faculty and stop the homophobia and hate. I began working with Iowa 
Pride Network.
    Unfortunately, the potential advisor of the gay-straight alliance 
tried talking me out of it. The advisor said I would be bullied or 
harassed even more. But 1 wanted that support and I was tired of 
hearing anti-gay remarks. I wanted a change.
    I kept being told a gay-straight alliance was a bad idea. At the 
same time I was dealing with teachers who wouldn't call on me in class 
or involve me. One teacher even felt it was OK to say ``that's gay'' 
when describing dislike. Female teachers didn't feel comfortable around 
me and avoided me because I identify as a lesbian.
    Faculty wanted nothing to do with me.
    I finally felt so discouraged I gave up on the gay-straight 
alliance and my school. I developed anxiety, stomach issues, and 
depression. I just didn't want to go to school. I didn't want to go to 
have faculty not pay attention to me, and no one handling the bullying 
problem.
    My mom called the superintendent. He said he would look into it. 
But nothing changed.
    My principal would call my mom to say that I was never in school, 
and my mom would explain it was because the school wasn't handling the 
bullying situation.
    That's when I decided to enroll in Des Moines Area Community 
College (DMACC) to get away from the harassment and bullying and get my 
diploma through DMACC. I am currently a junior and have enough credits 
to have graduated this spring and I wanted to go to college in the 
fall, but now I can't because I can only ``graduate'' once my class 
does next year. My life is put on bold, and because I'm being held 
back, so is my financial aid for college.
    One bright spot I was looking forward to was going to my high 
school prom with my girlfriend. I wanted to go to prom and have that 
high school experience. I was told I wasn't allowed because of me 
missing school and attending DMACC for classes. But another student in 
my grade who had missed school and was attending classes at Iowa State 
University was allowed to go. It was a double standard. The principal 
said not only could I not go to prom; I wouldn't be allowed to bring my 
girlfriend.
    My experience at Gilbert High School has been tough.
    I hope through this testimony that schools will realize that not 
providing a safe and supportive environment does affect students and 
their ability to learn. Students shouldn't have to worry about being 
judged for who they are. Judge them on their actions not on how they 
present their gender or sexual orientation. You should be able to go to 
school and know that there are going to be teachers that support you.
    School faculty needs on-going training. People who want to become 
teachers need classes that help them understand how to deal with 
bullying.
    Schools here in Iowa need to follow and understand Iowa's Safe 
Schools Law as well as Federal laws that protect students. People must 
be held accountable for their actions.
    Schools need gay-straight alliances. I know in my school, a GSA 
would help make students understand that anti-gay remarks do hurt 
people and that hate toward any group of people makes our school an 
unsafe place.
    Senator Harkin, thank you for allowing me to speak here today.

    The Chairman. Liz, thank you very much.
    I appreciate all your testimonies, but I've got to say, 
these three students, weren't they remarkable? Let's hear it 
for them. I mean, they're great. Wow.
    [Applause.]
    This is the future leadership of our country right here, I 
can tell you right now. Very eloquent statements by all of you, 
and I thank you for being here.
    Let me just say thank you for sharing your stories, for 
being so courageous to do that. It takes a lot of courage.
    We all have different stories. You've heard all this other 
stuff here. I believe you are an inspiration to other students. 
But--and maybe this is not a fair question, but I'll try it 
anyway. If you had just one bit of advice to give to a student 
who is being bullied today in school, what would that advice 
be?
    I'm going to ask you, and you, and you.
    Emily.
    What would you say to someone you know who was getting 
bullied? What would you say to them as a friend?
    Ms. Domayer. Don't be afraid to find a responsible adult 
who you know cares. Unfortunately, for students with autism, 
that's not always easy because they're not able sometimes to 
verbalize what is going on. I'd say that parents need to take 
an extra look and look at their schools and make sure that 
everybody is on the same page as far as bullying.
    The Chairman. Matt.
    Mr. Shankles. Well, it's hard to say. I don't know if I can 
really answer it because every situation is different. But I 
guess they should just know that, no matter what, even if it 
seems like you're the most alone person in the world, there is 
always someone there, always something, someone there for you, 
someone who cares.
    The Chairman. That's good advice.
    Liz.
    Ms. Sederquist. If I were to give advice to someone, I 
think the first thing I would tell them is don't give up. Think 
about who you are inside and out, and I'm not going to say to 
forget about that person or the group of people who are 
bullying you because that is a hard thing to do. You have to 
think about the things that you want to do, your dreams, your 
aspirations, everything, and you have to focus on that, and you 
have to tell yourself that every day. If somebody is calling 
you ugly, you need to sit there and you need to say, you know 
what, I'm beautiful. I am who I am, and I am proud of who I am.
    As Matt had said, there's always someone there. There's 
always a light at the end of the tunnel, and you should not 
give up. If you get pushed down, come back up and fight back 
and be strong. Do not sit there and be silent, because silence 
is the worst thing ever. If people don't know what is 
happening, then how can anybody help?
    Open your mouth, raise your voice, yell and scream if you 
have to, but do something about it. Have people who are going 
to be there for you and help you with it, and be proud.
    The Chairman. Wow. All three of you, you're wise beyond 
your years, very wise, and it's very profound what you just 
said. What I think I got out of that was, if you were giving 
advice, you'd say, first, be proud of yourself, take pride in 
who you are. Don't think that you're a second-class citizen. 
You have the same rights as everybody else.
    Second, find someone that you can trust and that you can 
rely on. Find someone that you can confide in who will help you 
and support you. And I think also, wouldn't you say, try to 
build those coalitions within your school where students feel 
like you do. I mean, don't feel like you've got to do it by 
yourself. There are other students who feel like you do. Maybe 
they're not getting bullied, but they're sensitive to this. 
You've got to reach out and start forming these coalitions of 
students.
    Maybe I'm wrong, but in my experience just through working 
in this area, it's not the gay or the lesbian or the Asperger's 
syndrome or the kid that's slight of structure or someone who 
dresses different. They're not the ones who are really alone. 
The bullies are the ones who are really alone. They've just got 
to be isolated, because if you all work together, the bullies 
will find out that they don't represent, I think, the mass of 
any student body out there.
    Don't let the bullies think that they control everything, 
that somehow they have the support of all the other students.
    But this sort of leads to my other point, and that is, Dr. 
Gausman, what you said, and I think all three of you, and 
especially, Ellen, you talked about prevention. Here we have a 
State where we have anti-bullying laws and anti-bullying 
policies in our schools. Yet, it's still going on. What is 
being done? What sort of training is there for principals and 
teachers? What sort of information are they getting from State 
organizations such as ISEA, the Iowa State Education 
Association, the School Administrators of Iowa, the Elementary 
and Secondary School Principals Association? What kind of 
information and ongoing training do they get through these 
associations that they belong to?
    Ms. Reilly. First, I would just speak to the fact that, 
yes, we have policy, and yes, we have procedures. However, in a 
day and age of No Child Left Behind, when academic scores are 
what defines how we spend our time on professional development 
within our schools, it is very difficult to find any additional 
time to train people on the impact of bullying, on the myths 
and facts of bullying, and on their responsibility as an 
educator and what they need to do.
    As educators, we should not be chained to math and reading 
scores. We should be chained to creating whole people and 
looking at the whole individual and the whole issue. Again, the 
academics are important. That's what we are; we're educators. 
But, kids, you've heard it. They can't learn if they are 
afraid, and we have to listen to kids when they say they're 
afraid. We can't tell them just ignore it, walk away. It's 
abuse, and it needs to be dealt with as abuse.
    The Chairman. Dr. Gausman.
    Mr. Gausman. Yes, if I could. Just a couple of thoughts 
related, that we do have conversations about this regularly, 
and this is something that does need to be ongoing, as has been 
suggested. It's important for us through our training. We 
participated in a national documentary related to bullying, and 
that's all about taking a look at bullying through the lens of 
those who are bullied. It's a compelling story.
    We need to understand the bullies to really make a 
difference. It's about insecurity. It's about power. It's about 
control. And we must, of course, look for those who are being 
bullied and do what we can to mitigate those circumstances for 
them. But if we're truly going to prevent, we're going to have 
to understand.
    I mean, everyone in this room, it doesn't matter who they 
are, they've been a victim of bullying either as a bully 
themselves, as a person who was bullied, or as a bystander, or 
in most cases some combination of those. It's not new, but for 
us to make a difference, our organizations do help us. The Safe 
and Supportive Schools grant is really very helpful. Our 
organizations, some that you mentioned today, are very helpful 
to us, but we really have to engage the community.
    Part of the reason we participated at the level that we 
did, knowing that we might not be reflected upon as the most 
positive, was because our goal was to stir things up just a 
little bit to see if we could get our community talking about 
the challenge of bullying in schools.
    As I sat at the White House a couple of months ago I 
thought, well, we accomplished that task, stirring things up 
just a little bit. Now, what's really important is that we 
understand that you can't find an administrator who isn't 
addressing the bullying problem and fix that administrator and 
have the problem go away. There is no one person. I mean, if 
there's a villain in the film, if you will, or if there's a 
villain in the challenge, I don't think we can look out the 
window and find that villain. I think we have to look in the 
mirror.
    The Chairman. I think you made the point elsewhere in your 
testimony that it's not just the school. It's the community.
    Mr. Gausman. Sure it is.
    The Chairman. It's the families.
    Mr. Gausman. I don't want to make it sound as though we're 
not holding ourselves accountable. We should be held 
accountable. We deserve to be held accountable, as well, but we 
can't do it alone.
    The Chairman. Penny, my question was the training for 
principals, information for teachers. I mean, we have all these 
organizations, and they have meetings. As Ellen said, a lot of 
this is so focused just on academics and scores, test scores, 
but there's not much time for this other training. I just 
wanted to get any observations on that.
    Ms. Bisignano. I think when I hear the students here 
talking about being proud, be who you are, that we really have 
an obligation as adults to protect our students, and we need to 
step up. A part of that is the misinformation, the misdirection 
that's out there around bullying and bullying prevention. So we 
need to really get clear about what works and what doesn't. We 
need to really know what's evidence-based and what is not. We 
need to survey, which means we ask questions so Emily has an 
opportunity to tell us what's been going on. We shouldn't wait 
for her to be in agony and do a report. We want to know what's 
going on in all of our schools.
    But we have to start with the adults. We just have to do 
that. I think a policy is not going to get us there. We really 
have to look at this as a system, and that's why I again, what 
Paul would say, and Emily and Ellen, that we have that Safe and 
Supportive grant, which I think is helping us a lot in Iowa to 
really look at the climate, the conditions for learning, the 
safety conditions, the engagement, being engaged, thinking 
about your experience at Gilbert, to be engaged in school to 
know I'm valued here, they want me here, it's important that 
I'm here, and an environment that's that way for all of our 
students, and it means each, not all as a total group, but each 
and every student.
    So we're very excited about that work because we really 
feel this could really be a model for what we look at in the 
country to change those norms, the social norms in a school, so 
that everyone there feels valued, they feel that they belong 
and it's important that they're there.
    The Chairman. Let me ask you another question. I just made 
a note on this. It just occurred to me. I asked about the 
structure as it exists now with teachers, principals, that type 
of thing. How about backing up? How about our schools of 
education? When they get out and they do their practicums or 
whatever they call it, their practice teaching, is there 
anything there? I have to find this out. I don't know the 
answer to that question. As part of their instructional 
material in how they learn to teach, is part of that learning 
how to recognize bullying and what they should do in their own 
classroom?
    Ms. Bisignano. In some. The folks here could speak to that. 
But again, we have a lack of consistency about what this really 
is and what it's about, and I think that a Federal definition 
and some encouragement about really helping people to know what 
does make a difference in bullying and harassment so we don't 
have the--as you say, I've been contacted by every company in 
the country. Everyone wants to come and do an assembly.
    Another kind of program is now an anti-bullying program. I 
saw this with the students at risk. When students at risk was 
first identified as an area that we needed to focus on a number 
of years ago, every publisher changed their materials to state 
these are student-at-risk materials.
    We really need to make sure that we are all on the same 
page, that this is treated seriously. I see it almost as civil 
rights. If we look at the movement of civil rights and we look 
at what's happening with bullying, I think that's probably a 
good model for us, that we need to have some common 
understanding and appreciation of how we're going to protect 
our kids.
    The Chairman. Liz, your story is obviously very 
compelling--I'm going to go back to you, Liz--and your decision 
to drop out of school and to come to DMACC. As I read your 
testimony and listened to you, it occurred to me that this is a 
rather small school. I don't know how big Gilbert is. What is 
it student-wise?
    Ms. Sederquist. About 500 to 600 kids.
    The Chairman. Five hundred, something like that. But what 
kind of comes through in there is that the faculty there and 
the principal and others, they seem to have lacked any training 
at all in how to deal with this.
    Ms. Sederquist. Well, there was training about 10 years ago 
at Gilbert.
    The Chairman. Pardon?
    Ms. Sederquist. There was training at Gilbert about 10 
years ago. But when you have faculty turnover, and you have a 
new principal, I mean, that training goes out the window, and 
that was a one-time thing.
    The Chairman. I see.
    Ms. Sederquist. So that's when I said we need training 24/
7, sort of like a corporation, how managers and even workers go 
through training all the time, right? Schools should do that, 
because there is a turnover of students every 2 years, there is 
a turnover of faculty God knows how many years, and it would be 
better if we had training going on all the time, because then 
it can be refreshers. And, yes, it may get annoying, but it's 
annoying for a reason. It's to be put in your brain for a 
reason.
    And, if the training was happening all the time, then new 
people that come in--I mean, there's new students every day. 
There's new people every day. There's faculty that comes in and 
there's visitors that come in. If the training happened all the 
time, that might cut down on some things. But the fact that 
there is faculty that ignores students and excludes students, 
and a principal, or even a superintendent that just shoves the 
things aside, it's just wrong.
    The Chairman. So ongoing training, not just a one-shot type 
of deal but an ongoing, supportive type of training process 
that goes on.
    Ms. Sederquist. Exactly.
    The Chairman. Matt.
    Mr. Shankles. On top of the ongoing training, I completely 
agree, I think the training should include materials or 
statistics from the school, from the students, how can we 
handle this because this is what is actually happening. I know 
in the past I've participated in teacher trainings at Linn-Mar 
where I came in on a teacher workday and gave a seminar, told 
my story. I kind of explained a little bit about Iowa's Safe 
Schools legislation and said here's what I think you can do, 
and I really felt that through my story I definitely helped 
some teachers there. Some reached out to me and said that it 
actually did help.
    The Chairman. Go ahead, go ahead. Just chime in there, Liz. 
And then Emily. Did you have something?
    Ms. Domayer. Yes.
    The Chairman. Go ahead, Liz.
    Ms. Sederquist. As Matt said with teachers and training and 
everything, I believe that with ongoing training, that would 
help a lot. It would make a difference. But, not just centering 
around LGBTQ. It can be around disabilities, as well. You know 
how GSAs have materials, and they teach things and history and 
stuff. California is putting LGBTQ in the textbooks. I'm not 
saying we have to put them in the textbooks, but to have 
teachers learn about that and learn through the struggles about 
anybody, and have seminars and workshops, it could possibly 
help so then they would know a little background information.
    The Chairman. Emily.
    Ms. Domayer. When I was first diagnosed, the teachers did 
not understand how--I had an individualized education plan, an 
IEP, but I was still in all regular education classes. It was 
like my parents had to actually teach these teachers about 
autism and Asperger's syndrome because they didn't understand 
any of it. I do think that we have come a long way in the last 
few years with regard to autism awareness, and I think that's 
really great. But I also think that if we do ongoing training, 
that there needs to be very specific stuff about people with 
disabilities, kind of saying these are the stereotypes and 
here's a real person with this disability, this is what this 
looks like, this is what this person has gone through.
    I think that also, engaging parents using social media is 
another important aspect, having a school disability awareness 
Facebook page or using a Twitter account to stay in contact 
with parents and just let them know, OK, I'm the teacher, but I 
still want you to know that I'm here for you, and that if you 
have any questions about anything, how your child is doing, so 
that way the social media will help students and teachers and 
communities all be on the same page so that there's no 
confusion about, OK, my child was bullied, what do I do?
    I definitely think that, along with what everyone else has 
said, that there needs to be a group effort and that it has to 
be a community effort, that people should work together on it.
    The Chairman. I think you're giving me an interesting idea 
here. That's why I asked my staff. As social media is being 
used to bully, you're saying social media could also be used 
the other way around.
    Ms. Domayer. Yes. I am a member of a couple of different 
autism groups on Facebook, a women's autism group. Yes, these 
social media things like Twitter and Facebook can be used for 
negative things, but fortunately also for some positive benefit 
as well.
    The Chairman. That's what Matt did.
    How do we extend this out, Ellen?
    Ms. Reilly. I want to say that with our Be Bully Smart 
campaign, we have a Facebook page, and it's a resource to our 
community, and it's spread across Iowa, and hopefully it could 
even go nationwide, because it doesn't say anything about 
Davenport. It says, ``Be Bully Smart. See it. Stop it. Report 
it.'' I've had parents use the Facebook page to send private 
messages to me and ask me how do I handle this bullying 
situation. Have I gone too far? Is there more I need to do? 
What can you do to help?
    So again, just as it can be used to harm, it is also a very 
helpful tool to use to get information across to people.
    And I do want to say something else quickly about training. 
Central High School in Davenport has the IS3 grant, and one of 
the most powerful things that has come out of this is the youth 
voice. They have surveyed these kids, and one of the things 
that came out was they've been trained in Olweus, but the 
students don't think that the teachers take it seriously 
enough, and they've requested that the school be re-trained and 
that the students, the leadership team be re-trained with the 
teachers so that the teachers know the students know what 
they're supposed to be doing, which I think was just a--you 
know, Olweus is really designed to train the teachers. But at 
the high school level, these kids are advocates and they want 
something done.
    The Chairman. Dr. Gausman, you get one of those grants. 
You've gotten those.
    Mr. Gausman. Yes, at two of our high schools we have those. 
With the Safe and Supportive Schools grant, I have two points 
that I'd like to make related to that.
    We know things we wouldn't know otherwise because of the 
surveys that go on. Something very important for us is--you're 
so right that these students are wise beyond their years. We've 
got to connect this information with our community. We simply 
cannot just train the staff and have bullying go away. We're 
going to have to--I mean, like it or not, the school is a 
reflection of the community, and we must realize that if we 
learn things about our school through this comprehensive 
survey, we need to get that data into the community so that the 
community understands what's there. It's not something we 
should hide from them. It's something we should engage them 
with.
    So the second piece is that as we train our staff members 
in Second Step, and then as those staff members begin to 
facilitate groups with the students--that's the curriculum that 
we use, it's titled Second Step for kindergarten through eighth 
grade--we had community members step forward this year and 
begin developing pieces that would go home so that the parents, 
the guardians of the students would know what they were 
learning in school as it related to bully prevention activities 
and they could reinforce that at home.
    It's that step beyond the schools that I really think is 
missing and where we can do a better job. So that's where we're 
really focusing a lot of our energy.
    The Chairman. To sum up, you can use these grants, these S3 
grants----
    Mr. Gausman. Safe and Supportive Schools.
    The Chairman. Safe and Supportive Schools grants, you can 
use those to build that kind of a Twitter, Facebook, social 
media environment, right?
    Mr. Gausman. Sure.
    The Chairman. I'll have to find out how much of that is 
being done with all these grants around the country now. I just 
made a note on that because I don't know. It's through my 
committee, and I don't even know that.
    Michael, we're going to find out about that, right?
    [Laughter.]
    I never thought about it. I guess I'd been brain-locked 
into thinking that social media was just used to harm, but it 
can be used the other way around like you've done. You learn 
something new every day.
    I've just received a note that says my time has just about 
run out. I will first ask if any of you have anything that you 
haven't said or that you wanted to bring up or point out that 
hasn't been done, or you're saying, ``gosh, I wish he'd asked 
this question,'' and I didn't ask it.
    Liz, one last thing?
    Ms. Sederquist. One thing I wanted to add about surveys is 
when you make the kids and school take surveys in, say, a 
computer lab or anything, when they're all together, I honestly 
believe that's a bad idea, because you have students looking at 
each other's screens or papers or whatever, and that can make a 
student be, like, ``oh well, if I say this, what are they going 
to think?'' I believe if we did surveys in a separate room, 
everybody went in one at a time, then maybe they would be more 
truthful, and maybe we would find out what's really going on in 
school, because then they don't have anybody around to judge 
them. I mean, the walls aren't going to judge them, so they can 
be honest and be open.
    The Chairman. A good suggestion. I don't know.
    Matt.
    Mr. Shankles. I just got to thinking about the Olweus class 
meetings, and I don't know if they go into high school because 
we don't have them at Linn-Mar High School, class meetings, but 
I remember that we had to take surveys in middle school, and it 
was basically all of us sitting in a room and everyone went, 
``What are you going to put here?'' ``I'm just going to say no 
on everything.''
    So I always felt, looking back, trying to talk to some 
people within the learning research center at Linn-Mar, how can 
we get more accurate results from surveys, like she said, and 
that is something that had not occurred to me, to put people in 
a separate room. Yes, kind of like voting.
    [Laughter.]
    The Chairman. What I'd like to do now, as I said, I do have 
some time, so I'd like to open it up to the audience. Laura 
Sands on my staff has a roving mic. I'd just ask if you have a 
question or a comment, a statement, to be as brief as you can. 
The court reporter, due to our rules here, they have to have 
your name. So just state your name.
    And maybe nobody has any. But if you do, just hold your 
hand up and Laura will give you a mic.
    Ms. Taha. My name is Sherrie Taha. It's S-h-e-r-r-i-e, last 
name Taha, T-a-h-a.
    Senator, thank you so much for having this here. I was 21 
when I came out, and that was a few decades ago, and there was 
definitely some bliss in ignorance. And through the decades, as 
our society has come to be more open, one of my concerns has 
been for the kids who start to realize at younger and younger 
ages who they actually are. And more importantly, the people 
around them start to notice who they are and peg them for a 
victim.
    I appreciate that while our society becomes more open, it 
also becomes more dangerous. Thank you for doing this, and the 
community is a very critical piece to include in this. So I 
particularly appreciate you having this at the time when 
Capital City Pride will be having our celebration this weekend, 
and that's a very important community aspect of it.
    I lived out of Iowa for 30 years and saw Pride change over 
the decades from just a handful of people participating to 
being throngs of people. In the 10 years that I've been back in 
Iowa, I've seen Pride grow from just a handful of people to 
hundreds participating. And while I'm not an organizer of that 
event, and while I don't know what your schedule is, I'm sure 
that your participation in the parade on Sunday would be 
greatly appreciated and be a notable aspect of the importance 
of the community being involved, the political community in 
addition to individual efforts.
    I'm going to be there in the crowd, and I hope and would 
guess that the organizers would find a place for you in the 
parade. So I'd just like to plug that.
    The Chairman. OK. Thank you.
    Ms. Taha. One last thing that is very important that I 
heard, in addition to the community piece, is the power and 
control with regard to the bullies, and this is an important 
piece that has been talked about with domestic violence and 
oppression of any sort, whether it has to do with women being 
oppressed in their homes or racialist aspects, or disability or 
LGBT, whatever the community is. The importance of that power 
differential is a key piece in the community, too. And I've 
overstated, but thank you.
    The Chairman. Thank you very, very much.
    There's somebody over here, Laura, a couple of people here 
who had their hands up. I can't see who they are right now.
    Ms. Parker. Hi. I'm Wendy Parker. I'm the educational 
services director at Newton Schools. I came with my son, 
Andrew, who graduated in 2006. He was a Matthew Shepherd 
Scholarship winner.
    The Chairman. Well, congratulations.
    Ms. Parker. We've been doing a study group at Newton for 
the last 6 months, actually started about a year ago when Penny 
came out, and we were looking at what are we going to do, sort 
of the reaction thing, and then we sort of realized we don't 
really know where we are. I can sit here and think--my other 
son is gay also, graduated from Newton, had no problems. So I 
can say we don't have any problems at Newton, clearly. Look at 
my experience.
    Not true. So we are spending 3 days in June. Two days ago, 
we spent a whole day. We are interviewing kids, interviewing 
teachers, really talking about where are we in Newton. In fact, 
we have a very active GSA. We're very proud of it. We won an 
award this year.
    But in talking to those GSA kids--we went to the conference 
on bullying. I went with them. The most important thing----
    The Chairman. At what school?
    Ms. Parker. Newton.
    The Chairman. Newton. OK.
    Ms. Parker. The most important thing to them is that they 
have classrooms that are safe and teachers that respond to 
things, as well as a peer group which goes along with the GSA.
    On the training, I think about what any of us who work for 
schools know, back to school is blood-borne pathogens. 
Everybody does it. You do it, and if you don't do it, I don't 
know what happens to you, but it's so horrible that we all do 
it, right?
    Could this training be like blood-borne pathogens, so 
important that if you don't do it, that something horrible 
happens to you? But along with training--because I just think 
it should be required. You shouldn't have to get a grant. You 
shouldn't have to do this. It should be required. It should be 
a class for new teachers. I know Human Relations touches on it, 
but I'm a teacher that teaches those classes, and sometimes it 
happens, sometimes it doesn't.
    So how does it happen? And then the followup coaching and 
are we really doing it, and surveys that really reflect if it's 
having an impact, because just training doesn't do it. We were 
going to go in a direction of Safe and Supportive Schools, and 
with that we also get--they come in four times a year and 
actually do coaching and followup.
    I think it's so brave for Sioux City to be here, so 
wonderful. You have helped us so much by sharing your story, 
you know? Because, I'll tell you, if you went in our school and 
you followed every single person under a microscope, somebody 
would say the wrong thing, and that can be so traumatic to a 
kid. When one teacher says, ``Hey, if you two don't stop 
messing around, I'm going to think you're boyfriend and 
boyfriend.'' You know what, that just killed somebody in that 
room emotionally.
    So we just can't do that, and we have to have that followup 
and say that's what we're talking about, that's what we were 
talking about with that training.
    That's my message, blood-borne pathogens.
    [Laughter.]
    The Chairman. All right. Thank you. I've never heard it 
expressed that way.
    [Laughter.]
    Mr. Book. Hi. I'm Gerry Book. I'm dressed in my farmer's 
hat right now, but I do have a Master's in Counseling and I am 
certified for just about everything in Special Ed.
    When we were in school, I'd done a lot of group work in the 
past, and so I thought, well, let's organize a support group 
here, and Liz is the only one I remember saying support group, 
and I think that's the most important term that you need in a 
school. Every kid needs a support group. He needs one at home, 
and he needs one at school. He also needs at least one adult in 
both places that cares about him, or her.
    [Laughter.]
    But we were kind of going along by trial and error, and 
finally the way we organized our support group was the kids 
would come up with an issue and we finally located a place 
where we could meet privately. The rules were you didn't talk 
about it. It was confidential in your support group. We also 
explained that if suicide and that sort of thing came up, we 
had to talk about it to somebody. But most of the time it was 
private.
    We had many kids bring issues. There were issues about 
home, parents, issues about other kids, issues with teachers, 
and they discussed it and talked about it and worked with each 
other. They helped each other.
    I noticed that there were some freshmen who had some 
difficulty. An older kid got tuned into it, and there's nothing 
more powerful than the older kid coming along asking the 
freshman how he's doing that day. I've had freshmen come and 
tell me, ``gee whiz, he asked me how I was doing.''
    We also did mediations, and mediation like I learned in 
farm prices back in the 1980s, when Fatty Judge was my 
coordinator. Anyway, we called them ``sat downs'' rather than 
mediations. I remember one in particular was a kid, a freshman 
who was so upset about something, he threatened to bring his 
shotgun to school and shoot the other kid. Well, we let it set 
for a couple of days, and then I asked them if he'd like to do 
mediation. We invited in a couple of kids that hadn't heard 
about it yet. We did the mediation.
    It finally became apparent that the freshman needed to 
apologize. He did, after some real encouragement from the other 
kids. But the freshman one day came and told me, he said this 
older kid that I hated so bad came by and saw my artwork and he 
told me how good I was doing. The freshman was just totally 
enthralled with this kid. They became friends.
    They didn't have to beat each other up to do it. We did a 
mediation, and I think mediation in schools could be used very 
effectively if we just would. So I guess my frustration now is 
that I have all this experience and knowledge and I don't have 
any place to use it. I'd like to find a school or something 
that needed some instruction and do some of these kinds of 
things.
    The Chairman. We'll get your name and address and phone 
number. I'm always being asked for things like that.
    I've got time for one more question. Oh, boy, we've got two 
more.
    Ms. Bradle. I'm Tracy Bradle, T-r-a-c-y, B-r-a-d-l-e.
    I want to say, first of all, I'm lucky enough to be Matt's 
mom.
    The Chairman. Hey.
    Ms. Bradle. We're a matched set.
    Second of all, I think there's one thing--and, Senator 
Harkin, you and I briefly talked about this earlier--that 
doesn't get pointed out is that the parents are part of this. 
We are supposed to be the grownups, and Paul talked about his 
colleague who ended up being shown in a bad light in the 
bullying movie and is now being bullied herself. We can't fix 
it if we continue to perpetuate it, and I think that's 
something that we need to make sure that we bring home, is that 
it's not just the school's responsibility.
    My No. 1 priority is to raise decent human beings. That's 
my No. 1 job.
    The Chairman. You've done pretty well.
    Ms. Bradle. Thank you very much.
    The Chairman. From what I can see, you've done pretty darn 
well.
    Ms. Bradle. I have another one, so we'll see how he turns 
out.
    [Laughter.]
    But that's my No. 1 job, and we are supposed to be the 
grownups, and we have to act like it.
    The Chairman. Thank you.
    Now, somebody over here has been trying to get--we'll try 
to get one more in here.
    Mr. Sheebout. Thank you. Senator Harkin, my name is Francis 
Sheebout, and I'd like to comment from this whole program today 
a little different angle and get your response. I've got a 
question and then a side comment I want to make in regard to 
that.
    From your point of view, with your experience and taking an 
interest in natural medications and agents and things like 
that, how big a player is body chemistry in the scheme of 
things, like serotonin, dopamine, and that type of thing?
    My side comment is I've got a packet of information I'd 
like to leave you after the meeting which has got some old 
scientific information dating back to 1995 with your name in it 
and talking about serotonin. Things have evolved since then 
greatly, and there are now urinalysis tests where we can test 
young adults and kids, and science tells us that low levels of 
serotonin, people are suicidal.
    So there are some great things in the works. People don't 
like to talk about a lot of this stuff, and it's taboo, and in 
a lot of instances the medical profession can be running 10 
years behind the times. But there is some good news out there, 
and I'd like to get your opinion on it. And like I said, after 
the meeting I've got some information I can leave you, and if 
you've got any comments in regard to that now, that would be 
fine.
    The Chairman. I don't know that I have any comments on that 
right now. I mean, as a general observation, it's been my 
experience on this committee--because we deal with health also, 
and we deal with the Centers for Disease Control and Prevention 
and the National Institutes of Health. It's been I think my 
information, and my belief now based upon that information, 
that a lot of kids are overdosed or over-diagnosed with 
illnesses, and a lot of our kids I think are on drugs that have 
long-term detrimental effects, and we're not dealing with the 
emotional underpinnings of some of those physical ailments.
    I don't mean to sound like gobbledy-gook. What I'm saying 
is that a lot of physical ailments that people have, and 
especially kids, while they're real, while there are real 
physical manifestations, the underlying cause is not a 
physiological cause. It is a psychological cause. It's an 
emotional disturbance, and the way that it is played out is 
through some physiological manifestation.
    I think that what happens is that many times, especially 
with kids who have emotional trauma, perhaps they're having a 
hard time discovering who they are and realizing their 
orientation or who they are, they get mixed up, and so there's 
a physiological reaction. So the doctor prescribes drugs, and 
they get on this, and that does not really reach to the 
underlying cause of why they tend to be ill or why they tend to 
have a lot of manifestations of gastrointestinal problems or 
asthma or a number of other things. There's a lot of body of 
evidence now out there to show that.
    I don't know if that gets to your point or not, but that's 
been--we've had a lot of hearings on this in the past, too, to 
point that out. But that's another issue that I didn't want to 
bring up today.
    Listen, I'm sort of overdue, but there was someone back 
there who had their hand up right at the beginning and I never 
called on them.
    [No response.]
    OK. Now there's two, and then I've got to cut it off.
    Ms. Whetstone. I'm sorry. I was handed the mic.
    My name is Gano Whetstone. It's G-a-n-o, W-h-e-t-s-t-o-n-e. 
And I was a former teacher and administrator at school, and I 
myself was a monitor reporter in situations. I feel like we 
need to do more to do monitor reporting in the school. I 
reported a lot of it to the mental health center and to the 
doctors, and I think we need to have an understanding of the 
health issues involved, too, like you said, the mental and 
emotional problems.
    But I think there needs to be a lot of mandatory reporting 
and told where to go and who to report things to also. Thank 
you.
    The Chairman. One of the things that I have been trying to 
do for years, both in my capacity as the chair of this 
committee and the Appropriations Committee, is to focus on 
elementary school counseling. Most people think of high school 
counseling, and they think about it in terms of counseling only 
in terms of college work, counseling in that regard. I wanted 
to focus on elementary school counseling to get qualified 
people, qualified individuals who had degrees in child 
development to be in our elementary schools to recognize early 
on the problems that some of these kids have and to help them 
get through counseling.
    Some kids come from pretty tough backgrounds and they have 
a tough life, and they have tough home lives. And to the extent 
that we can help with counselors to work with them and work 
with their families, I think we get much healthier kids later 
on. If these kids aren't helped when they're in elementary 
school and that digs inside of them and they bury it inside 
them, it comes out later on in middle school and high school. 
And I just think that we sweep a lot of this under the carpet 
when they're in elementary school.
    Yes, one more time back here, and then we're going to have 
to call it off.
    Ms. Claypol. Hi. My name is Alicia Claypol, A-l-i-c-i-a, C-
l-a-y-p-o-l. And I want to thank you, Senator Harkin, for 
holding this hearing today here in Iowa. I think it's very 
important, and I think it's been very helpful for everyone who 
has been here.
    I wanted to make several comments. One is that I was glad 
to hear the comments made about dealing with bullying is not a 
civil right. In other words, being gay is a civil right, and 
that we need to address that in our civil rights laws. 
Obviously, Iowa has made that progress already, but it goes 
back to enforcement.
    I just want educators to know and families to know that 
there is a school portion in the Iowa civil rights law, and 
bullying, you can file complaints with the Iowa Civil Rights 
department. So don't forget that that is a tool available in 
your quiver of tools to address bullying in your communities. I 
used to be on the Civil Rights Commission, so that's how I know 
that. I chaired the Commission for 5 years, and we were one of 
the partners in this room, among many people, who helped to 
lead the effort to pass the anti-bullying law, as well as the 
civil rights law in 2007, adding sexual orientation and gender 
identity as protected classes in Iowa law.
    Second, I wanted to make a comment about the woman from the 
GAO reference that, well, maybe we should just talk about all 
kids should be protected from bullying. And while, yes, that's 
true, all kids do need to be protected, I don't want to let any 
elected official get away with not feeling that we need to 
enumerate all of these protected classes, because as we've 
learned in civil rights law, if you don't name it, it doesn't 
get protected.
    We need to make sure that we do itemize, that we do address 
those demographics. We cannot just say all kids will be 
protected because in Gilbert, that won't happen. I'm so sorry 
to hear about the story from Gilbert, because what got me 
interested in dealing with bullying in the first place was 
because of a kid named Gerry in Gilbert 10 years ago. I mean, 
the circle has come full circle, and it's very distressing to 
know that in spite of the progress we've made in Iowa, we 
haven't made enough progress because Liz has not been 
protected, and that is extremely unfortunate.
    That leads me to my final comment, which is about 
accountability. There needs to be accountability at all levels 
of the system. That means we've worked on policies. Those can 
be strengthened in Iowa. I don't know that we need any more 
laws, but we certainly need better policies and procedures.
    There needs to be accountability for the educators, every 
person in the school, not just the teacher but the bus driver, 
the school cook, the counselor, everybody. There needs to be 
accountability on the part of adults. School board members need 
to be included in that, parents as well as students, and the 
systems. There were several comments made about the systems. 
This is a cultural problem. We can no longer, as other people 
have said, dismiss this as, well, kids will be kids, it's a 
rite of passage, blah blah blah. That's not true.
    We need to change our culture, and therefore we have to 
address accountability in all the systems, and that's why we 
need to also reach out to the community, as others have said 
too, to make sure that we can change the culture. So it's the 
schools, it's the students, it's the parents and the community 
at large.
    Thank you very much for being here and for all the great 
comments that were made today. Thank you.
    The Chairman. Thank you, Alicia Claypol, who has been a 
great leader in our civil rights community for many, many 
years. I thank you for that.
    I want to thank each of our witnesses for their excellent 
testimony, for sharing your stories, for the important work you 
do every day. This topic has a very special importance to me. 
I'm grateful for this productive discussion we've had today.
    The committee will leave the record open for 10 days until 
June 18.
    I want to thank everyone here for getting involved in the 
campaign against bullying through your attendance here today. I 
think we've learned a lot of important things. I will take 
these insights and comments back to Washington with me. I hope 
you'll take them back to your communities and your schools. I 
just thought it was a very productive hearing.
    This is, again, something that--this whole issue of 
bullying we've got to address on a broad basis, not just in 
schools or communities, as you said so eloquently. And again, 
we're always looking for what is the role of the Federal 
Government in our policies in this, and that's sort of what 
we're searching for, what is our proper role and what can we be 
doing to be supportive in a way that, again, I feel very 
strongly about, and that's prevention. How do we get it out 
there so that we prevent this from happening in the first 
place?
    Again, I thank you all very much, and the committee will 
stand adjourned.
    I'm supposed to bang the gavel. There you go. We're done.
    [Applause.]
    [Additional material follows.]

                          ADDITIONAL MATERIAL

  Prepared Statement of Chad Griffin, President, Human Rights Campaign
    Mr. Chairman and members of the committee, my name is Chad Griffin, 
and I am the president of the Human Rights Campaign, America's largest 
civil rights organization working to achieve lesbian, gay, bisexual and 
transgender (LGBT) equality. By inspiring and engaging all Americans, 
HRC strives to end discrimination against LGBT citizens and realize a 
nation that achieves fundamental fairness and equality for all. On 
behalf of our over 1 million members and supporters nationwide, I am 
honored to submit this statement into the record for this important 
field hearing on ``Bullying-Free Schools: How Local, State and Federal 
Efforts Can Help.''
    LGBT youth are subject to widespread and pervasive discrimination 
at school, including harassment, bullying, intimidation and violence. 
They are deprived of equal educational opportunities in schools in 
every part of our Nation when teachers and administrators do not 
intervene to stop bullying behavior. We have been saying for decades 
that growing up gay or transgender is not easy. On June 7, HRC released 
a new report--``Growing up LGBT in America''--that provides a stark 
snapshot of what it is like to grow up gay or transgender. Included in 
the report is new data on the bullying faced by LGBT youth in schools.
    The report is based on a survey by HRC of more than 10,000 LGBT 
teens (ages 13-17) across the country on what life is like for them in 
America today. This is the largest known survey of LGBT youth ever 
conducted. It includes LGBT youth from every region of the country, 
from urban, suburban and rural communities, and from a wide variety of 
social, ethnic and racial backgrounds.
    According to our survey, LGBT youth often experience rejection from 
their families, employers, places of worship and elected 
representatives. This makes them profoundly disconnected from their 
communities. While schools should serve as a respite from this 
rejection, LGBT youth say they most often hear negative messages about 
being LGBT when they are at school.
    The survey tells us that LGBT youth experience bullying at school 
more frequently than their non-LGBT peers. In fact, LGBT youth are 
twice as likely to experience verbal harassment, exclusion and physical 
attack at school as their non-LGBT peers. Among LGBT youth, 51 percent 
have been verbally harassed at school, compared to 25 percent among 
non-LGBT students; 48 percent say they are often excluded by their 
peers because they are different, compared to 26 percent among non-LGBT 
students; and 17 percent report they have been physically attacked at 
school, compared to 10 percent among non-LGBT students.
    The survey also shows that LGBT youth identify bullying as a 
primary problem in their lives. They identified family rejection (26 
percent), school/bullying problems (21 percent) and fear of being out 
or open (18 percent) as the top three problems they face. In 
comparison, non-LGBT youth identified classes/exams/grades (25 
percent), college/career (14 percent) and financial pressures (11 
percent) as the top three problems they face. Clearly, LGBT youth spend 
time worrying about bullying and rejection, while their non-LGBT peers 
are able to focus on grades, career choices and the future.
    Bullying behavior is problematic because it has severe consequences 
on students--some of which have been found to last into adulthood. 
Students who experience bullying and harassment suffer from higher 
levels of depression and anxiety and have lower self-esteem. Bullied 
students receive grade point averages almost half a grade lower than 
students less often harassed at school and are less likely to pursue 
any post-secondary education. LGBT students are three times more likely 
to have missed classes and four times more likely to have missed at 
least 1 day of school in the past month because they felt unsafe or 
uncomfortable at school, as compared to the general population of 
secondary school students. Tragically, students who are bullied at 
school are also more than twice as likely to report a suicide attempt 
as students who are not bullied.
    Unfortunately, only 16 States and the District of Columbia 
(effective Jan. 2013) have laws that explicitly address bullying of 
students based on sexual orientation and gender identity. Additionally, 
23 States prohibit bullying in schools but list no categories of 
protection. Iowa is one of the States that proudly enacted a law in 
2007 that requires school districts to adopt anti-bullying policies 
that include sexual orientation and gender identity. Regrettably, some 
anti-equality legislators in Iowa have been working to have this 
enumeration rescinded.
    It is our experience--and the experience of those that have studied 
bullying laws and policies--that LGBT students are more likely to 
report bullying and teachers are more likely to intervene when sexual 
orientation and gender identity are enumerated in an anti-bullying 
statute or policy. We must have enumerated anti-bullying statutes and 
policies. Unenumerated language is not enough.
    There is no statutory prohibition on schools discriminating against 
students based on sexual orientation or gender identity at the Federal 
level, but protections do exist on the basis of race, color, national 
origin, sex and disability. In addition, there is no Federal 
requirement that schools enact enumerated anti-bullying policies. Based 
on this patchwork of State laws and the nonexistence of Federal laws on 
bullying, LGBT youth experience varying degrees of protection from 
bullying based on the State they live in and the school district in 
which they attend school.
    The Human Rights Campaign urges Congress to pass the Student Non-
Discrimination Act (SNDA, S. 555; H.R. 998) and the Safe Schools 
Improvement Act (SSIA, S. 506; H.R. 1648) to address bullying of LGBT 
youth. These complimentary pieces of legislation address the issue in 
distinct ways. SNDA would prohibit public schools from discriminating 
against any student on the basis of actual or perceived sexual 
orientation or gender identity. SSIA would require school districts 
that receive Federal funds to adopt anti-bullying policies that 
enumerate protections for students on the basis of race, color, 
national origin, sex, disability, sexual orientation, gender identity 
and religion. Together, the SNDA and SSIA prohibit schools from 
overlooking bullying of LGBT youth and require schools to enact anti-
bullying policies that include LGBT youth.
    These bills are supported by numerous education, legal, health and 
civil rights organizations. Among the supportive national school-
focused groups are the National Education Association, the American 
School Counselor Association, the National Association of School 
Psychologist, the National Association of Secondary School Principals, 
and the School Social Work Association of America. In addition, 79 
percent of Americans support passing laws prohibiting the bullying of 
LGBT youth according to a 2011 HRC poll conducted by Greenberg Quinlan 
Rosner Research.
    Passing legislation is important, but not enough, if we want to 
drastically decrease the bullying experienced by LGBT youth. We must 
also involve administrators, teacher, parents, students and communities 
in conversations about bullying and efforts to combat bias in schools. 
We must ensure that in elementary school, children learn to respect all 
kinds of differences, including diversity in family structure, race, 
religion, gender and national origin. HRC's Welcoming Schools does just 
that. It is an innovated and field-tested program that offers tools, 
lessons and resources on embracing family diversity, avoiding gender 
stereotyping and ending bullying and name-calling in elementary 
schools. The program leads to learning environments in which all 
students and families are welcomed and respected. Welcoming Schools has 
trainers and consultants located throughout the country that are 
skilled in working with schools, communities and parents to bring about 
institutional-change that make our schools better and children safer.
    It's a safe bet that somewhere in America tonight, an LGBT young 
person will close the door to his or her bedroom, turn off the lights, 
and will, for countless hours, stare at the ceiling worrying about 
being gay or transgender and being bullied at school next Monday. On 
behalf of all of them, I urge you to pass the Student Non-
Discrimination Act and Safe Schools Improvement Act. I also urge you to 
encourage schools districts in your State to implement initiatives, 
like Welcoming Schools, that teach tolerance and combat bias-based 
behaviors at an early age.
    Over the past half-century, our Nation has worked to make it easier 
for all Americans to access education free of discrimination and bias. 
Congress and the President have recognized that schools cannot tolerate 
discrimination in schools based on race, color, national origin, sex 
and disability. These civil rights laws have improved access to 
education for millions of Americans, creating empowered students and 
future leaders. Congress must act to ensure that lesbian, gay, bisexual 
and transgender students have the same chance to receive a 
discrimination-free education and become future leaders of our country.
            Prepared Statement of the Anti-Defamation League
    The Anti-Defamation League is one of the Nation's premier civil 
rights/human relations organizations, founded in 1913 ``to secure 
justice and fair treatment for all and to put an end to unjust and 
unfair discrimination against and ridicule of any sect or body of 
citizens.'' ADL is the Nation's leader in the development of effective 
programs to confront anti-Semitism, bigotry, and prejudice. The 
League's strength is its ability to craft innovative national 
programming and policy initiatives and then to refine and implement 
them through staff in our network of 28 Regional Offices. The national 
headquarters in New York houses extensive research archives as well as 
staff members with professional expertise in legal affairs and 
education. Complementing these professionals are ADL lawyers, 
educators, and human relations professionals in Regional Offices 
throughout the country.
        addressing bullying and cyberbullying--the adl approach
    Over the past 30 years, the Anti-Defamation League has emerged as a 
principal national resource for education and advocacy tools to address 
prejudice and bigotry. And over the past decade, the League has built 
on these award-winning anti-bias education and training initiatives to 
craft innovative programming and advocacy to address bullying and the 
pernicious new form of harassment affecting children and students known 
as cyberbullying.
    Working to create safe, inclusive schools and communities is a top 
priority for ADL. The League takes a broad, holistic approach to 
addressing bullying and cyberbullying, tracking the nature and 
magnitude of the problem, developing education and training programs, 
and advocating--at the State and Federal level--for policies and 
programs that can make a difference.
    The Federal Government, in partnership with State and local public 
agencies, non-profit, community organizations, and colleges and 
universities, can play a critical role in ensuring that our schools and 
communities are safe places for all students. Federal leadership on 
these important issues helps nurture a climate and a culture in which 
the vast majority of members of the community are willing to condemn 
bigotry, bullying, cyberbullying, and harassment.
    We believe that while laws and appropriate, inclusive school-based 
policies can be a focal point for addressing bullying, education 
strategies, training programs, and community involvement are necessary 
complements to any effective response.
                the nature and magnitude of the problem
    Bullying and harassment in elementary, secondary, and university 
educational settings are continuing problems for administrators, 
educators, parents, and students across the Nation. The large body of 
credible research on effective responses to bullying supports the 
conclusion that schools and other educational institutions can best 
address these behaviors through ongoing, comprehensive plans that 
include both intervention and prevention strategies. As demonstrated by 
the most important recent studies on this national problem (included at 
the end of this statement), professional development is a key component 
that provides opportunities for educators to share their thoughts and 
experiences about bullying at their schools, assess existing practices, 
adopt effective policies and procedures, and reinforce and strengthen 
effective response strategies.
               bias-motivated bullying and cyberbullying
    <bullet> According to the authoritative 2011 report, Indicators of 
School Crime and Safety, 10 percent of students ages 12-18 reported 
that someone at school had used hate-related words against them, and 
more than one-third (35 percent) reported seeing hate-related graffiti 
at school in 2007. [U.S. Dept. of Education, National Center for 
Education Statistics and U.S. Dept. of Justice, Bureau of Justice 
Statistics (2011).]
    <bullet> Research shows that bullying is often related to ingrained 
biases and prejudices. For instance, according to the 2009 National 
School Climate Survey (GLSEN, 2010), 84.6 percent of LGBT youth 
reported being verbally harassed because of their sexual orientation, 
and 39.9 percent reported that it happened often or frequently. Nearly 
64 percent had been verbally harassed because of their gender 
expression, and 25.6 percent reported that it happened often or 
frequently. Additionally, these same LGBT youth also reported bullying 
based on other aspects of their identity--48.1 percent were verbally 
harassed because of their gender, 40 percent because of their religion, 
32.9 percent because of their race or ethnicity, and 17.1 percent 
because of their disability.
    <bullet> A January 2004 study focused on the severe impact of bias-
related harassment and bullying for students. In that survey 27.4 
percent of students said they had experienced some type of bias-related 
harassment. Low grades, truancy, depression, suicide, substance abuse, 
victimization, and other risk behaviors were all associated with bias-
related harassment. Consequences of Harassment Based on Actual or 
Perceived Sexual Orientation and Gender Non-Conformity and Steps for 
Making Schools Safer. California Safe Schools Coalition and 4-H Center 
for Youth Development, University of California, Davis, 2004).
                   bias-motivated juvenile hate crime
    There is currently very little hard data about youthful hate crime 
perpetrators and victims. Congress has helped address this problem in 
two ways in recent years.
    First, to increase awareness of hate violence on college campuses, 
Congress enacted in 1998, an amendment to the Higher Education Act 
(HEA) requiring all colleges and universities to collect and report 
hate crime statistics to the Office of Post-Secondary Education (OPE) 
of the Department of Education. The Department's hate crime statistics 
have reflected very substantial underreporting http://ope.ed.gov/
security/Search.asp). But even worse, for many years, that limited data 
was inconsistent with campus hate crime information collected by the 
FBI under the Hate Crime Statistics Act of 1990 (HCSA)--because the 
Department of Education's hate crime categories did not conform to the 
crime categories collected by the FBI. In 2008, Congress acted to 
require the Department to collect the same campus hate crime categories 
as the FBI. The new standards should give parents and students a 
broader and more accurate picture of the campus climate. In addition, 
consistent statistics will increase public awareness of the problem, 
and may serve to provoke improvements in campus safety measures and the 
criminal justice system.
    In addition, importantly, the recently enacted Matthew Shepard and 
James Byrd, Jr. Hate Crimes Prevention Act, [Public Law 111-84, 
Division E] mandates additional reporting requirements for the FBI 
under their existing HCSA requirement--hate crimes directed at 
individuals on the basis of their gender or gender identity and for 
crimes committed by and against juveniles. In addition, nine States 
currently require collection of juvenile hate crime statistics (Idaho, 
Massachusetts, Michigan, Minnesota, Montana, New Jersey, New York, 
Tennessee, and Virginia).
    The existing HCSA data provides some troubling insights:

    <bullet> An October 2001 report by the Justice Department's Bureau 
of Justice Statistics provided disturbing information about the too-
frequent involvement of juveniles in hate crime incidents. This report, 
Hate Crimes Reported in NIBRS, 1997-99, which carefully analyzed nearly 
3,000 of the 24,000 hate crimes to the FBI from 1997 to 1999, revealed 
that a disproportionately high percentage of both the victims and the 
perpetrators of hate violence were young people under 18 years of age:

        <bullet>  33 percent of all known hate crime offenders were 
        under 18; 31 percent of all violent crime offenders and 46 
        percent of the property offenders.
        <bullet>  Another 29 percent of all hate crime offenders were 
        18-24.
        <bullet>  30 percent of all victims of bias-motivated 
        aggravated assaults and 34 percent of the victims of simple 
        assault were under 18.
        <bullet>  34 percent of all persons arrested for hate crimes 
        were under 18; 28 percent of the violent hate crimes and 56 
        percent of the bias-motivated property crimes.
        <bullet>  Another 27 percent of those arrested for hate crimes 
        were 18-24.

    <bullet> According to the FBI, the third most common location 
nationwide for a hate crime to occur is on a school or college campus. 
The FBI 2010 annual Hate Crime Statistics Act report states that 10.9 
percent of hate crimes occur at schools or colleges, and 18.6 percent 
were targeted because of their perceived sexual orientation [U.S. 
Department of Justice, Federal Bureau of Investigation, 2010].
 the response of the obama administration to bullying, cyberbullying, 
                             and harassment
    The Obama administration has demonstrated extraordinary commitment 
to addressing bullying and cyberbullying in a comprehensive and 
inclusive manner. The October 26, 2010 Department of Education, Office 
of Civil Rights Bullying and Harassment Dear Colleague guidance, the 
significant work of the Department's Office of Safe and Drug Free 
Schools on the topic, the new and expanded Federal partners anti-
bullying Web site, the Centers for Disease Control and Prevention LGBT 
anti-bullying violence prevention Web site, and the video messages the 
President and members of his Cabinet made to elevate the issue and 
empower targets all demonstrate a clear recognition that leaders can 
make a difference addressing this issue.
    In addition, we are pleased that the Administration has been active 
in helping to resolve and clarify rights for all Americans. For 
example, Justice Department intervention helped to settle a case, J.L. 
v. Mohawk Central School District, a lawsuit filed by the New York 
Civil Liberties Union on behalf of a student, J.L., who was the alleged 
victim of severe and pervasive student-on-student harassment based on 
sex. According to the Justice Department's filings, J.L. had failed to 
conform to gender stereotypes in both behavior and appearance. He 
exhibited feminine mannerisms, dyed his hair, wore makeup and nail 
polish, and maintained predominantly female friendships. The Department 
alleged that the harassment against J.L. escalated from derogatory 
name-calling to physical threats and violence--and that the Mohawk 
Central School District had knowledge of the harassment, but was 
deliberately indifferent in its failure to take timely, corrective 
action, thereby restricting J.L.'s ability to fully enjoy the 
educational opportunities and benefits of his school. The Department 
alleged violations of the Equal Protection Clause of the Fourteenth 
Amendment and Title IX of the Education Amendments of 1972, both of 
which prohibit discrimination based on sex, including discrimination 
based on gender stereotypes. The school district denied these 
allegations.
    On March 29, 2010 a settlement was approved by the U.S. District 
Court in the northern district of New York which required the Mohawk 
Central School District to, among other things: (1) retain an expert 
consultant in the area of harassment and discrimination based on sex, 
gender identity, gender expression, and sexual orientation to review 
the District's policies and procedures; (2) develop and implement a 
comprehensive plan for disseminating the District's harassment and 
discrimination policies and procedures; (3) retain an expert consultant 
to conduct annual training for faculty and staff, and students as 
deemed appropriate by the expert, on discrimination and harassment 
based on sex, gender identity, gender expression, and sexual 
orientation; (4) maintain records of investigations and responses to 
allegations of harassment for 5 years; and (5) provide annual 
compliance reports to the United States and private plaintiffs. As part 
of the settlement, $50,000 was to be paid to J.L. and $25,000 in 
attorneys' fees was to be paid to the New York Civil Liberties 
Foundation.
    We were also pleased with the Administration's active involvement 
in helping to resolve Doe and United States v. Anoka-Hennepin School 
District, in which multiple students alleged harassment by other 
students because they did not dress or act in ways that conform to 
gender stereotypes. The Department of Justice and the Department of 
Education conducted an extensive investigation into sex-based 
harassment in the district's middle and high schools, finding that many 
students reported that the unsafe and unwelcoming school climate 
inhibited their ability to learn. The United States, at the behest of 
the Federal District Court for the District of Minnesota, joined in the 
mediation of the students' case against the Anoka-Hennepin School 
District. Together, the three parties entered a Consent Decree, and 
jointly filed a motion to approve the decree and a memorandum in 
support of that motion--and the District Court entered the decree, 
resolving the case between the parties.
    The Consent Decree, entered on March 6, 2012, requires the Anoka-
Hennepin School District to: (1) retain an expert consultant in the 
area of sex-based harassment to review the district's policies and 
procedures concerning harassment; (2) develop and implement a 
comprehensive plan for preventing and addressing student-on-student 
sex-based harassment at the middle and high schools; (3) enhance and 
improve its training of faculty, staff and students on sex-based 
harassment; (4) hire or appoint a title IX coordinator to ensure proper 
implementation of the district's sex-based harassment policies and 
procedures and district compliance with title IX; (5) retain an expert 
consultant in the area of mental health to address the needs of 
students who are victims of harassment; (6) provide for other 
opportunities for student involvement and input into the district's 
ongoing anti-harassment efforts; (7) improve its system for maintaining 
records of investigations and responding to allegations of harassment; 
(8) conduct ongoing monitoring and evaluation of its anti-harassment 
efforts; (9) and submit annual compliance reports to the departments 
during the 5-year life of the Consent Decree.
    Justice Department involvement also helped resolve another 
important complaint involving race, color and/or national origin-based 
harassment of Asian students at South Philadelphia High School, and 
allegations that the school district was deliberately indifferent to 
the severe and pervasive harassment. The complaint filed by the Asian-
American Legal Defense and Education Fund (AALDEF) in U.S. District 
Court for the eastern district of Pennsylvania, alleged persistent 
harassment, including an incident in December 2009 in which 
approximately 30 Asian students were attacked and approximately 13 were 
sent to the emergency room.
    The settlement agreement in December 2010 will help ensure that the 
district: (1) retains an expert consultant in the area of harassment 
and discrimination based on race, color and/or national origin to 
review the district's policies and procedures concerning harassment; 
(2) develops and implements a comprehensive plan for preventing and 
addressing student-on-student harassment at the high school; (3) 
conducts training of faculty, staff and students on discrimination and 
harassment based on race, color and/or national origin and to increase 
multi-cultural awareness; (4) maintains records of investigations and 
responses to allegations of harassment; and (5) provides annual 
compliance reports to the department.
   department of education office for civil rights (ocr) guidance on 
  bullying, cyberbullying, and harassment: background and significance
    The Anti-Defamation League strongly welcomed the October 26, 2010 
Dear Colleague guidelines issued by the U.S. Department of Education's 
Office for Civil Rights (OCR) to address bullying in schools.
    The OCR Dear Colleague letter accomplished three things of major 
importance for ADL:

    1. Provided an unprecedented, inclusive description of the breadth 
of existing Federal anti-discrimination laws and their application to 
both K-12 schools and colleges and universities. In addition, the Dear 
Colleague letter set out explicitly a school's duty to address 
incidents of discriminatory harassment under specific Federal civil 
rights laws and described the responsibilities schools have for 
appropriate responses, including timely investigation, counseling, 
discipline, education and training.

          ``Harassment does not have to include intent to harm, be 
        directed at a specific target, or involve repeated incidents. 
        Harassment creates a hostile environment when the conduct is 
        sufficiently severe, pervasive, or persistent so as to 
        interfere with or limit a student's ability to participate in 
        or benefit from the services, activities, or opportunities 
        offered by a school.''

    In clarifying the breadth of Federal anti-discrimination law 
coverage, the Dear Colleague letter included helpful examples of 
incidents of harassment and described appropriate school responses. 
Importantly, the guidance stressed that when responding to an incident 
of discriminatory harassment where a hostile environment is formed, it 
is not enough for the institution to punish the student who is 
responsible. Instead, the administration must address the environment 
and the effect of the incident and take steps to ensure that harassment 
does not recur.
    2. Made clear that anti-Semitic harassment on campus can be 
prohibited by Federal civil rights law. ADL had called for 
clarification of this issue in a March 2010 letter that the League 
helped coordinate with 12 other Jewish organizations. That letter 
called on the Department to interpret title VI to protect Jewish 
students from anti-Semitic harassment, intimidation and 
discrimination--including anti-Israel and anti-Zionist sentiment that 
crosses the line into anti-Semitism.
    In addition, this OCR guidance was buttressed by the conclusions of 
the United States Commission on Civil Rights (USCCR), after the 
Commission held a briefing on campus anti-Semitism in November 2005. 
Finding that campus anti-Semitism is a ``serious problem which warrants 
further attention,'' it recommended that ``OCR should protect college 
students from anti-Semitic and other discriminatory harassment by 
vigorously enforcing title VI.''
    Specifically, the OCR guidance makes clear that Title VI of the 
Civil Rights Act of 1964--which bars schools receiving Federal dollars 
from discriminating based on ``race, color or national origin''--
protects Jewish students from anti-Semitism on campuses ``on the basis 
of actual or perceived shared ancestry or ethnic characteristics.'' The 
OCR guidance defines title VI coverage as follows:

          ``While title VI does not cover discrimination based solely 
        on religion, groups that face discrimination on the basis of 
        actual or perceived shared ancestry or ethnic characteristics 
        may not be denied protection under title VI on the ground that 
        they also share a common faith. These principles apply not just 
        to Jewish students, but also to students from any discrete 
        religious group that shares, or is perceived to share, ancestry 
        or ethnic characteristics (e.g., Muslims or Sikhs).''

    This clarification is particularly welcome in conjunction with 
ADL's continuing work to combat anti-Semitic bullying, harassment and 
bigotry on campus--including anti-Semitic intimidation of pro-Israel 
activists. According to the guidance, this includes harassment that is 
``sufficiently serious that it creates a hostile environment and . . . 
is encouraged, tolerated, not adequately addressed or ignored by school 
employees.''
    While a complete examination of the parameters of the title VI 
coverage of anti-Semitic, anti-Israel, or anti-Zionist activities on 
campus is beyond the scope of this statement, it is critically 
important to distinguish between anti-Semitic activities on campus and 
anti-Israel activities. We certainly do not believe that every anti-
Israel action is a manifestation of anti-Semitism. But the League is, 
obviously, concerned about organized anti-Israel activity which can 
create an atmosphere in which Jewish students feel isolated and 
intimidated.
    Natan Sharansky, human rights activist and now Chairman of the 
Jewish Agency Executive, created a concise and useful three-part litmus 
test to help identify when legitimate criticism of Israel can cross the 
line to anti-Semitism. In what he calls the ``3D Test'': demonization, 
double standards, and delegitimization, Sharansky posited questions to 
help distinguish legitimate criticism of Israel from anti-Semitism:

    <bullet> Is the Jewish State being demonized for its action? Are 
the problems of the world or the Middle East being blamed on Israel?
    <bullet> Is there a double standard when criticizing Israel in 
relation to other countries? Are Israeli faults exaggerated and far 
worse human rights violations in other places ignored?
    <bullet> Is there an attempt to delegitimize the Jewish State? Are 
the Jewish people alone in not having the right of sovereignty?

    In addition, importantly, in recent years, both the U.S. Commission 
on Civil Rights and the State Department have tailored their own 
responses to the spread of this new stream of anti-Semitism that 
manifests itself as vilification of Israel. Both use definitions 
similar to the EUMC Working Definition of Antisemitism.
    In its short April 2006 Finding and Recommendations of the United 
States Commission on Civil Rights Regarding Campus Anti-Semitism the 
Commission stated:

          On many campuses, anti-Israeli or anti-Zionist propaganda has 
        been disseminated that includes traditional anti-Semitic 
        elements, including age-old anti-Jewish stereotypes and 
        defamation. This has included, for example, anti-Israel 
        literature that perpetuates the medieval anti-Semitic blood 
        libel of Jews slaughtering children for ritual purpose, as well 
        as anti-Zionist propaganda that exploits ancient stereotypes of 
        Jews as greedy, aggressive, overly powerful, or conspiratorial. 
        Such propaganda should be distinguished from legitimate 
        discourse regarding foreign policy. Anti-Semitic bigotry is no 
        less morally deplorable when camouflaged as anti-Israelism or 
        anti-Zionism.

    3. Underscored that harassment based on sexual orientation and 
gender identity in schools and on campus is prohibited by Federal civil 
rights law. The Department of Education also announced that it would 
use Title IX of the Civil Rights Act--which prohibits discrimination on 
the basis of gender--to protect lesbian, gay, bisexual, and transgender 
students. According to the OCR guidance, ``title IX does protect all 
students, including lesbian, gay, bisexual, and transgender (LGBT) 
students, from sex discrimination'' and

          ``it can be sex discrimination if students are harassed 
        either for exhibiting what is perceived as a stereotypical 
        characteristic for their sex, or for failing to conform to 
        stereotypical notions of masculinity and femininity.''

    This is a very welcome development.
    We believe the OCR Dear Colleague helps make clear that bullying--
and particularly bullying based on race, religion, ethnicity, 
disability, sexual orientation and gender identity--is an issue that 
must be taken seriously. The guidelines represent a significant step 
forward in protecting children from bigotry and harassment.
    Federal leadership on this important issue is critical to ensure 
that schools are safe places for all students, and that they help 
foster a culture in which bias and bullying are not tolerated. The 
guidelines will help community members work together to promote a civil 
and respectful environment for children, online as well as offline.
    As the Department released the new guidance, it announced its plan 
to hold workshops and training sessions around the country to help 
educators better understand their obligations and the resources 
available. And on December 16, 2010, the Department of Education issued 
a Key Policy Letter providing assistance for States and local 
jurisdiction in crafting effective anti-bullying laws and policies. The 
Department included a summary of legislative initiatives some States 
had enacted to prevent and reduce bullying. ADL has compiled a chart 
which includes links to each of the 50 State anti-bullying law in the 
country (49 States and the District of Columbia), highlighting key 
provisions of these laws. A copy of this chart is included separately 
as part of our statement.
   adl advocacy on bullying and cyberbullying prevention initiatives
    ADL has been at the forefront of responding to bias, bullying, and 
cyberbullying through a combination of education and legislative 
advocacy, including drafting a model State bullying prevention policy 
which requires schools and communities to approach the issue of 
bullying with proactive, responsive and responsible measures. Several 
States, including Florida and Massachusetts, have recently adopted 
policies based on ADL's model.
    ADL advocates for anti-bullying policies on the Federal level, on 
the State level, and in schools. The League promotes policies that are 
inclusive and comprehensive--balancing a school's duty to maintain a 
safe learning environment with students' constitutional rights.
    Three years ago, ADL developed a model bullying prevention law for 
States, which provides schools the resources they need to combat and 
respond to bullying, and the unique issue of cyberbullying. The model 
law, among other things, provides a strong constitutional definition of 
bullying that includes electronic bullying. It also addresses bias-
motivated bullying, requires clear procedures for reporting and 
investigating bullying incidents, provides counseling for targets and 
perpetrators, and mandates training for faculty and students.
    For years, ADL has been advocating on the State level for strong 
comprehensive bullying laws. In States that had no laws, ADL advocated 
for their passage. In a State with a weak anti-bullying law, ADL 
advocated for strengthening it. The League played leading roles in the 
advocacy efforts in Massachusetts, Florida, New Jersey, New York, and 
Georgia.

    <bullet> In Massachusetts, ADL organized and led the coalition of 
community groups advocating for the law's passage from the ground up. 
The law is based in large part on ADL's model policy and, at the bill 
signing ceremony, Governor Patrick specifically commended ADL for our 
work in seeing the law passed. Now, ADL is working with the State on 
the most important part of any new law--its implementation.
    <bullet> In New York, where ADL was a leading organization in the 
push to pass the Dignity for All Students Act, the League now sits on 
the Task Force established by the New York State Education Department 
which will work on implementing this new bullying prevention law.
    <bullet> Likewise, ADL worked with Garden State Equality to get the 
New Jersey anti-bullying bill passed and we are now working in 
partnership on implementation efforts.

    There is an educational component to ADL's advocacy strategy as 
well. It is critical that the community is informed and engaged on this 
topic for any law or policy to have real meaning. ADL regularly 
addresses administrators, faculty and community members on the issue of 
bullying, the legal concerns surrounding community response to the 
issue (particularly with responding to cyberbullying), and the League 
provides guidance on what makes a strong school bullying prevention 
policy.
    In addition to our advocacy to State lawmakers and local school 
officials, ADL has advocated for policy and programming recommendations 
for Federal action.

    <bullet> In January 2010, ADL submitted comments on the Justice 
Department's Office of Juvenile Justice and Delinquency Prevention's 
(OJJDP) Proposed Program Plan for fiscal year 2010. The comments 
applauded OJJDP on their effort to address bullying and cyberbullying 
and provided background on ADL's related education programs and model 
legislation.
    <bullet> As previously mentioned, in March 2010, the League joined 
with 12 other Jewish organizations in calling for the Department of 
Education Office of Legal Counsel (OLC) to interpret title VI to 
protect Jewish students from anti-Semitic harassment, intimidation and 
discrimination.
    <bullet> In August 2010, the League submitted recommendations to 
Education Secretary Arne Duncan, Health and Human Services Secretary 
Kathleen Sebelius, and to U.S. Attorney General Eric H. Holder, Jr. in 
advance of a first-ever Federal Bullying Prevention Summit.
    <bullet> In March 2011, the League wrote a letter to President 
Obama commending the Administration for convening the first White House 
Bullying Prevention Conference and for demonstrating a strong 
commitment to address bullying and cyberbullying in a comprehensive and 
inclusive manner. We submitted recommendations on how the U.S. 
Government can more effectively address the issue of bullying and 
cyberbullying.
    <bullet> Finally, advocating for a Federal response for bullying 
was one of the three priority items on which our National Leadership 
Conference participants lobbied their Representatives when they visited 
Capitol Hill for an advocacy day as part of ADL's annual conference in 
early May 2012.

        <bullet>  As Congress continues efforts to rewrite and update 
        the Elementary and Secondary Education Act (ESEA), ADL is 
        urging Members to support inclusive anti-bullying and 
        cyberbullying initiatives, including the Safe Schools 
        Improvement Act (SSIA), H.R. 1648, introduced by Rep. Linda 
        Sanchez (D-CA) and S. 506, introduced by Sen. Casey (D-PA). 
        This bill would help schools to develop and implement bullying 
        prevention policies and programs. It also requires States to 
        gather and report information on bullying and harassment.
        <bullet>  In addition, after the Tyler Clementi case focused 
        national attention on the dangers of bullying and 
        cyberbullying, Rep Rush Holt (D-NJ) and Sen. Frank Lautenberg 
        (D-NJ) introduced the Tyler Clementi Higher Education Anti-
        Harassment Act (H.R. 1048/S. 540) to require colleges and 
        universities to recognize cyberbullying as a form of harassment 
        and fund institutions with anti-harassment programs. ADL 
        supports this legislation, which calls for establishing and 
        publicizing policies to ``prohibit[s] harassment of students 
        based on their actual or perceived race, color, national 
        origin, sex, disability, sexual orientation, gender identity, 
        or religion.''

    ADL also seeks to build collaboration with other national 
organizations on this issue.
    <bullet> In advance of the August 2010 Federal Bullying Prevention 
Summit, ADL coordinated a letter from 71 national civil rights, 
religious, professional, and education groups with a series of anti-
bullying policy and program recommendations for Federal agencies and 
Congress.
    <bullet> ADL resources are being used as part of the unique Jewish 
youth group collaboration against bullying Stand UP for Each Other, a 
campaign for respect and inclusion involving United Synagogue Youth 
(USY), North American Federation of Temple Youth (NFTY), Young Judaea, 
National Conference of Synagogue Youth (NCSY), and BBYO.
    <bullet> And the League also helped lead a recent effort to promote 
the adoption of a thoughtful and inclusive new American Bar Association 
(ABA) Resolution on Bullying. The Resolution and accompanying 
comprehensive Report approved in February 2011 put the ABA on record, 
for the first time, in support of Federal and State policies and laws 
designed to prevent and respond to bullying and cyberbullying. The ABA 
also urged Internet service providers and social networking platforms 
to adopt terms of service that define and prohibit cyberbullying and 
cyberhate. The League is now working with State bar associations to 
promote the adoption of policies and replicate the research at the 
State and local level.
     adl policy and program recommendations: confronting bullying 
                           and cyberbullying
    In advance of the first White House Bullying Prevention Conference 
in March 2011, the League's best lawyers and educators prepared policy 
and programmatic recommendations for the President and the 
Administration. We praised the President and his Administration for 
their ``extraordinary commitment to address bullying and cyberbullying 
in a comprehensive and inclusive manner.''
    The complete listing of proactive strategies to confront bullying 
and cyberbullying recommended by the League is included below.
1. Programs and Training Initiatives
    <bullet> The Federal Government should require the adoption of an 
anti-bullying policy for school personnel and students in every State.

    We welcomed the December 16 Key Policy Letter from the Education 
Secretary and the Office of Civil Rights Deputy Secretary which 
highlighted components of effective anti-bullying laws, using examples 
from existing State laws. That letter stated:

          ``Though laws are only a part of the cure for bullying, the 
        adoption, publication, and enforcement of a clear and effective 
        anti-bullying policy sends a message that all incidents of 
        bullying must be addressed immediately and effectively, and 
        that such behavior will not be tolerated.''

    As previously mentioned, the League has been at the forefront of 
responding to bias, bullying, and cyberbullying through a combination 
of education and legislative advocacy, including drafting a model State 
bullying prevention policy that requires schools and communities to 
approach the issue of bullying with proactive, responsive, and 
responsible measures. The ADL model anti-bullying law is inclusive, 
comprehensive, and sufficiently protective of the First Amendment.
    ADL believes a strong and comprehensive anti-bullying statute 
should:

        <bullet>  include a strong definition of bullying, which 
        includes cyberbullying;
        <bullet>  address bullying motivated by race, religion, 
        national origin, gender, gender identity, disability, sexual 
        orientation and other personal characteristics;
        <bullet>  include notice requirements for students and parents;
        <bullet>  set out clear reporting procedures;
        <bullet>  require regular training for teachers and for 
        students about how to recognize and respond to bullying and 
        cyberbullying.

    <bullet> The Department of Education, working with the Department 
of Justice and other Federal agencies, should institutionalize and 
coordinate anti-bullying/cyberbullying prevention and response programs 
within their safe schools/healthy schools and school-related violence 
prevention initiatives.

    We welcome the extraordinary compilation of anti-bullying resources 
available at the new stopbullying.gov, Web site, coordinated by several 
Federal agencies, and the Bullying Prevention Campaign maintained by 
the Health Resources and Services Administration of HHS.
    We welcome the Centers for Disease Control and Prevention's (CDC) 
recently launched Web page devoted to the issue. We believe CDC anti-
bullying resources for schools and parents are an excellent complement 
to its essential, ongoing violence prevention work.

    <bullet> The Department of Education should provide training and 
technical assistance to teachers, principals, and school administrators 
on its excellent October 26 Department of Education Guidance on 
Bullying and Harassment.
    The Anti-Defamation League strongly welcomed the Department of 
Education Office of Civil Rights (OCR) October 26 Dear Colleague Letter 
to thousands of school districts and colleges across the country 
clarifying their responsibilities with respect to student bullying and 
harassment. The guidance demonstrates that the Department of Education 
takes bullying--and particularly bullying based on race, religion, 
ethnicity, disability, sexual orientation and gender identity--very 
seriously. We believe the new guidelines represent a significant step 
forward in protecting children from bigotry and harassment. We 
especially appreciated the fact that the OCR rightly interpreted the 
Federal civil rights law to protect students from anti-Semitic 
harassment.
    <bullet> As Congress works toward enactment of a reauthorization of 
the Elementary and Secondary Schools (ESEA), the Administration should 
promote the inclusion of comprehensive and inclusive anti-bullying and 
cyberbullying initiatives as one of its ESEA priorities.
    The League supports H.R. 1648/S. 506, the Safe Schools Improvement 
Act, which would help schools to develop and implement bullying 
prevention policies and programs--and require States to gather and 
report information on bullying and harassment. ADL also supports H.R. 
1048/S. 540, the Tyler Clementi Higher Education Anti-Harassment Act 
which would require colleges and universities to recognize 
cyberbullying as a form of harassment and fund institutions with anti-
harassment programs. The legislation also calls for establishing and 
publicizing policies to ``prohibit[s] harassment of students based on 
their actual or perceived race, color, national origin, sex, 
disability, sexual orientation, gender identity, or religion.''
    <bullet> Federal agencies should provide resources, fund, develop, 
and promote programming and training initiatives--including Webinars--
for teachers, administrators, parents, students, State Attorneys 
General, law enforcement officials (school resource officers in 
particular) and others in the community on how to recognize and respond 
to bullying, harassment, and cyberbullying.
    Most school systems lack adequate funding for personnel to design, 
implement, and staff these prevention and response programs. Anti-
bullying programs and initiatives must address this significant 
barrier. Successful policies and programs are both proactive and 
responsive, and engage the community to action.
    <bullet> Using its expanded anti-bullying Web sites, and 
newsletters from the Department of Education and its Office of Safe and 
Drug Free Schools and the Justice Department and its Office of Juvenile 
Justice Delinquency Prevention, the Federal Government should make 
information available regarding effective bullying, cyberbullying and 
hate crime prevention programs and resources--and promote awareness of 
successful training initiatives and best practices.
    The Administration also should commend and highlight State and 
local efforts to carry out effective anti-bias education programs.
2. Research, Reports, and Data Collection Initiatives
    <bullet> In conjunction with academic institutions, the Department 
of Education and the Department of Justice should fund research into 
the nature and magnitude of the bullying/cyberbullying problem in the 
United States, specifically its impact on both the social and emotional 
health of students and the impact on academic achievement.

    Bullying can have a devastating effect on the lives of teenagers:

    <bullet> According to an Associated Press 2009 survey, 60 percent 
of young people who have been bullied report destructive behavior such 
as smoking cigarettes, drinking alcohol, using illegal drugs or 
shoplifting (compared to 48 percent of those not bullied).
    <bullet> The same study indicated that the targets of digital abuse 
are twice as likely to report having received treatment from a mental 
health professional (13 percent vs. 6 percent of others), and nearly 
three times more likely to have considered dropping out of school (11 
percent vs. 4 percent of others).
    <bullet> A 2009 study from the Cyberbullying Research center found 
that bullied students are three times more likely to drop out of school 
and one-and-a-half to two times more likely to have attempted suicide.
    <bullet> The Department of Education's National Center on Education 
Statistics, the Department of Justice's Bureau of Justice Statistics, 
and the Department of Health and Human Services--including the CDC--
should update and coordinate reporting requirements and data collection 
efforts on bullying and cyberbullying. Possible reforms include:

        <bullet>  The School Survey on Crime and Safety questionnaire 
        should include more questions regarding teacher and 
        administrator perceptions of occurrences of bullying and 
        cyberbullying.
        <bullet>  The Bureau of Justice Statistics National Crime 
        Victimization Survey's School Crime Supplement (NCVS-SCS) 
        should ask questions designed to draw connections between 
        bullying and personal characteristics of students and whether 
        students were harassed because of these characteristics.
        <bullet>  The School Crime Supplement should also collect 
        information on student technology use and the connection to 
        increased occurrences of cyberbullying.
        <bullet>  The Indicators of School Crime and Safety annual 
        report should expand its three-page section on bullying and 
        cyberbullying.
        <bullet>  The influential Youth Risk Behavior Survey's section 
        on bullying and cyberbullying should be expanded.

    <bullet> The Department of Education, Office for Civil Rights and 
the National Association of Attorneys General should update their 
excellent 1999 report, Protecting Students from Harassment and Hate 
Crime.

    This detailed guide promoted a comprehensive approach to protecting 
students from harassment and hate-motivated violence and included 
sample policies and procedures from across the Nation. An updated 
report should integrate resources to address cyberbullying.

3. Media Literacy and Public Awareness Initiatives
    <bullet> The Federal Government should provide resources for 
parents and adult family members to inform them regarding the 
prevalence of bullying on social networking sites and through cell 
phone use.
    Despite the prevalence and impact of cyberbullying, many adults are 
unaware of the problem due to a lack of fluency in new technologies, 
limited involvement in and oversight of youth online activity and 
strong social norms among youth against disclosure of online behavior. 
Therefore, it is critical to develop programming for teachers, parents 
and other critical partners on how to recognize and respond to 
cyberbullying. There is considerable misunderstanding about harassment, 
students' free speech rights on the Internet, and when ``kids will be 
kids'' goes too far. Current research indicates that less than one-
third of parents are aware of available tools, such as parental 
controls, that can help them protect their children from online 
threats.
    <bullet> Working with youth-oriented private corporations--such as 
Cartoon Network, MTV, Nickelodeon, YouTube and Facebook--the Federal 
Government should promote programs and awareness of the nature and 
magnitude of the bullying/cyberbullying problem.
    Facebook alone reaches 500 million registered users worldwide each 
month. Public awareness and Ad Council campaigns and programming 
partnerships with corporations such as Facebook, MTV, Cartoon Network, 
and Nickelodeon can leverage their standing with youth to encourage 
young people to speak out against harassment and bullying and promote 
responsible online behavior.
    For example, the Anti-Defamation League serves on the Advisory 
Board for MTV's A Thin Line campaign, developed to empower youth to 
identify, respond to and stop the spread of digital abuse in their 
lives. In addition, since 2010, ADL has partnered with Cartoon Network 
on its STOP BULLYING: SPEAK UP campaign, aimed at empowering youth to 
take action to reduce bullying. The campaign has its own Web site, 
which features a variety of tools and links, including ADL educational 
resources.
    <bullet> The Department of Justice and the Department of Education 
should encourage State and local Bar Associations and lawyers and 
judges to involve themselves in assessing the nature of the bullying 
and cyberbullying problem at the State and local levels and crafting 
appropriate, constitutional responses.

    We welcome the recent action by the American Bar Association to 
adopt a thoughtful and inclusive anti-bullying and cyberbullying 
Resolution. The Resolution puts the ABA on record in support of:

      <bullet>  Adopting inclusive Federal and State policies and laws 
designed to prevent and respond to bullying and cyberbullying;
      <bullet>  Developing Federal and State programs to identify 
targets and enhance appropriate interventions;
      <bullet>  Funding programs, research, and evaluations that 
address prevention and responses to bullying and cyberbullying;
      <bullet>  Training, data collection, and appropriate notice of 
bullying incidents to the families of those involved;
      <bullet>  Internet service providers and social networking 
platforms to adopt terms of service that define and prohibit 
cyberbullying and cyberhate; and
      <bullet>  School districts to implement the October 2010 U.S. 
Department of Education Office of Civil Rights ``Dear Colleague'' 
letter on bullying and harassment.

    <bullet> Consistent with the First Amendment, the Federal 
Government should encourage Internet providers to clearly define 
prohibited hate speech and prohibit the use of hate in any Terms of 
Service agreement.

    No provider of Internet services, social networking, or user-
submitted content sites should ignore the fact that these sites can 
become vehicles for promoting harassment and hate. Web sites should 
establish clear, user-friendly reporting mechanisms for reporting 
hateful content and act quickly to remove or sequester hateful content 
once it is reported.
    <bullet> The Federal Government should promote Internet media 
literacy--specifically programs to help develop students' critical 
thinking skills for Internet, viral, and wireless communications.
    For most teenagers, Internet use is a part of daily life. We should 
promote civil discourse on the Internet and should teach young people 
how to identify risks and engage in critical thinking for Web-based 
research and communications. Students should be trained on how to use 
electronic communications in a responsible manner, how to develop 
empathy for others and how to intervene safely and not be a bystander 
when confronted with bullying and harassment.
4. Public Advocacy Supporting Anti-Bullying and Hate Crime Prevention 
        Initiatives
    <bullet> The Justice Department and the FBI should work 
collaboratively with civil rights and community-based groups and law 
enforcement organizations to ensure comprehensive and effective 
implementation of the Matthew Shepard and James Byrd, Jr. Hate Crimes 
Prevention Act (HCPA), with particular attention to the new requirement 
that the FBI collect hate crime statistics committed by and against 
juveniles, beginning in January 2013.

    The HCPA provides new tools to promote partnerships between 
Federal, State and local officials to confront hate violence. The 
passage of the HCPA provides a teachable moment for the country on the 
impact of hate violence and bullying--and effective responses. ADL 
resources on the hate crimes and the HCPA can be found here.

    <bullet> The White House should complement its Bullying Prevention 
Conference with a National Youth Bullying/Cyberbullying Summit.
    The Federal Government should make every effort to engage young 
people in an advocacy role on these issues. A ``National Youth Bullying 
Summit'' could help organize student leaders to promote discussions 
surrounding effective ways students can combat harassment and bigotry 
in their own school and to bring awareness to successful efforts 
nationwide.
    <bullet> Government leaders and public officials should use their 
bully pulpit to condemn bullying/cyberbullying, bigotry and bias-
motivated violence whenever and wherever it arises.
    We applaud the significant contributions the Administration has 
made as part of the ``It Gets Better'' anti-bullying video campaign. 
The fact that President Barack Obama, Vice President Joe Biden, 
Secretary of State Hillary Clinton, HHS Secretary Kathleen Sebelius and 
Assistant Attorney General for Civil Rights Tom Perez all made videos 
is extraordinary--and demonstrates their very welcome willingness to 
use their bully pulpit to address this issue and empower targets of 
bullying.
    Strong leadership from Federal officials can help create a climate 
and a culture in which other members of the community are willing to 
condemn bigotry and combat bullying, hate, and harassment. Efforts to 
advocate for strong hate crimes laws, comprehensive hate crime data 
collection, and better understanding between different communities are 
a vital part of these efforts.
                               conclusion
    Left unchecked, bullying can contribute to environments in which 
youth feel that it is acceptable to express and act on feelings of 
prejudice. In an online setting, social cruelty may be a precursor to 
more destructive behavior, including participation in gaming sites that 
promote hate messages, involvement in hate groups and bias-related 
violence. Name-calling and bullying, like other bias-motivated 
behaviors, have the potential to escalate into more serious incidents 
of violence if they are unchecked. Too frequently, educators, parents, 
and students are unsure how to respond.
    The bottom line is that whether or not bullying is related to bias 
and prejudice, it impacts young people's sense of safety in their 
school community and beyond. For this reason, educators, 
administrators, families and youth service providers are reaching out 
to organizations like ADL to help them navigate the growing problem of 
bullying as well as cyberbullying and social cruelty in electronic 
forums. This provides ADL with an important opportunity to not only 
address the problems of bullying and cyberbullying, but to deepen 
understanding about the connections among bullying, bias-motivated 
behavior, and online hate activities. It also opens the door to ongoing 
anti-bias work and ultimately the chance to promote a culture of 
acceptance and kindness in schools and the broader community.
    We applaud the committee for holding this field hearing on 
bullying. We stand ready to assist the committee as you examine 
initiatives and promote proactive strategies to confront bullying, 
cyberbullying, and harassment in schools and in the community.
                                 ______
                                 
   ADL Selected Resources on Bullying, Cyberbullying, and Harassment
    educational strategies to respond to bullying and cyberbullying
    ADL Curriculum Connection: Using Children's Literature to Address 
Bullying.
    ADL Tools for Responding to Cyberbullying: http://www.adl.org/
combat
bullying/.
    ADL has created several different half-day or full-day training 
programs for middle and high school educators, administrators, and 
youth service providers: http://www.adl.org/education/cyberbullying/
workshops.asp; http://www.adl.org/educa-tion/cyberbullying/program-
cyberbullying-flyer.pdf.
    ADL CyberALLY<SUP>TM</SUP>: a half or full-day interactive training 
for middle and high school students: http://www.adl.org/education/
cyberbullying/cyberally-student-flyer.pdf.

    Workshops and Trainings to Address Name-Calling and Bullying:

    Becoming an Ally: Responding to Name-Calling and Bullying
    Becoming an Ally: Responding to Name-Calling and Bullying (Educator 
Version)
    Becoming an Ally: Responding to Name-Calling and Bullying (Youth 
Version)
    Step Up! Assembly Program
    Names Can Really Hurt Us Assembly Program

    Responding to Cyberbullying:

    Trickery, Trolling and Threats: Understanding and Addressing 
Cyberbullying
    Cyberbullying: Focus on the Legal Issues
    CyberALLY<SUP>TM</SUP>
    Youth and Cyberbullying: What Families Don't Know Will Hurt Them

    Tips on How to Respond to Cyberbullying: http://www.adl.org/
education/cyberbullying/tips.asp.
    What Can Be Done About Name-Calling: http://www.adl.org/
combatbullying/pdf/what-can-be-done-bullying-handout.pdf.
    Take a Stand: A Student's Guide to Stopping Name-Calling and 
Bullying: http://www.adl.org/combatbullying/pdf/taking-a-stand-
bullying-guide.pdf.
    Advice on Cyberbullying and Teens (ADL interview, Your Teen 
Magazine): http://yourteenmag.com/2010/10/cyberbullying-and-teens/.
    Internet Safety Strategies for Students: http://www.adl.org/
education/curriculum_connections/cyberbullying/
Internet%20Safety%20Strategies%20for%20
Students.pdf.
    Confronting Hate Speech Online: http://www.adl.org/main_internet/
hatespeechonline2008.htm.
advocacy resources to prevent and respond to bullying and cyberbullying
    ADL Bullying/Cyberbullying Advocacy Toolkit for State anti-bullying 
laws: http://www.adl.org/civil_rights/Anti-
Bullying%20Law%20Toolkit_2009
.pdf.
    ADL Bullying/Cyberbullying Model Statute (which has been a model 
for a number of States): http://www.adl.org/main_internet/
Cyberbullying_
Prevention_Law.
    Responding to Cyberhate: Toolkit for Action: http://www.adl.org/
internet/Binder_final.pdf.
    In advance of the August 11-12 Federal Bullying Summit, ADL 
submitted to a trio of Federal agencies (Health and Human Services, 
Department of Education, Department of Justice) recommendations for 
programs, training initiatives, and research proposals: http://
www.adl.org/Civil_Rights/letter_bullying_cyberbully
ing_2010.asp.
    Seventy-one national civil rights, education, religious, and 
professional organizations submitted complementary consensus 
recommendations to the lead Federal agencies in advance of the August 
Federal Bullying Summit: http://www.civilrights.org/advocacy/letters/
2010/coalition-letter-to-sec-duncan-on-bully
ing-cyberbullying-and-harassment-recommendations.pdf.
            Federal Anti-Bullying/Cyberbullying Initiatives
                              white house
    March 26, 2012: The White House, the Department of Justice and the 
Department of Education hosted an LGBT Conference on Safe Schools & 
Communities at the University of Texas, Arlington. Over 400 students 
and administrators attended to talk about safety and security for the 
LGBT community.
    June 1, 2011: The Administration launched an LGBT-specific web page 
on the White House Web site to coincide with the first day of LGBT 
Pride Month. The site includes ``It Gets Better'' videos made by the 
President, Vice President, and other Administration officials.
    March 10, 2011: The President and the First Lady host the White 
House Conference on Bullying Prevention, attended by approximately 150 
students, parents, teachers, youth-oriented media, advocates, and 
policymakers. One outcome of the conference is the creation of a new 
comprehensive Federal anti-bullying Web site, http://
www.stopbullying.gov/.
    March 9, 2011: The President and First Lady create a video 
addressing bullying for the stopbullying.gov Facebook page.
    December 20, 2010: White House staff members make an anti-bullying 
video for the ``It Gets Better'' video campaign.
    November 23, 2010: John Berry, Director of the Office of Personnel 
Management, creates an anti-bullying video for the ``It Gets Better'' 
video campaign.
    November 18, 2010: Vice President Biden posts an anti-bullying 
video in the ``It Gets Better'' video campaign.
    October 21, 2010: President Obama records an anti-bullying video in 
the ``It Gets Better'' video campaign.
                        department of education
    April 20, 2012: Education Secretary Arne Duncan makes a statement 
in support of the Student Non-Discrimination Act and the Safe Schools 
Improvement Act.
    April 2, 2012: The Department of Education released its final 
strategic plan to improve the Nation's education system in order to 
make all students, regardless of individual characteristics, feel safe 
and secure, which impacts students' classroom success. This included 
new commitments to LGBT students.
    January 2012: U.S. Department of Education's Higher Education 
Center publishes a Prevention Update. Bullying and Cyberbulling at 
Colleges and Universities describes what bullying is, what statistics 
say about the nature and magnitude of the problem, and lessons colleges 
and universities have learned.
    December 6, 2011: The U.S. Department of Education releases 
Analysis of State Bullying Laws and Policies, a new report summarizing 
current approaches in the 46 States with anti-bullying laws and the 41 
States that have created anti-bullying policies as models for schools.
    November 2, 2011: U.S. Department of Education publishes Student 
Victimization in U.S. Schools. The report uses data from the 2009 
School Crime Supplement to examine student criminal victimization and 
the personal characteristics of crime victims.
    September 21, 2011: The Department of Education, in partnership 
with eight other Federal agencies hosted the second annual Federal 
Partners in Bullying Prevention Summit, at which Secretary Duncan 
spoke.
    June 14, 2011: Secretary Arne Duncan issues a ``Dear Colleague'' 
Key Policy letter and accompanying legal guidelines that focus on 
protecting LGBT students and the rights of students who want to 
establish gay-straight alliances in schools.
    June 6-7, 2011: The Department of Education held the first-ever 
``Federal LGBT Youth Summit'' in Washington, DC. Secretary Duncan said 
that his ``commitment to LGBT students is unequivocal.''
    April 5, 2011: Secretary Arne Duncan addressed the Anti-Defamation 
League's National Leadership Conference on the Administration's efforts 
to prevent bullying and cyberbullying.
    April 5, 2011: Kevin Jennings, Assistant Deputy Secretary for Safe 
and Drug-Free Schools, addressed ADL's National Leadership Conference 
and participated in a panel discussion about preventing bullying and 
cyberbullying.
    March 10, 2011: Secretary Duncan makes Enough is Enough speech at 
the White House Conference on Bullying Prevention.
    December 16, 2010: The Department of Education Office of Civil 
Rights issues a ``Dear Colleague'' Key Policy Letter providing 
technical assistance for States drafting their own anti-bullying and 
cyberbullying laws.
    October 26, 2010: The Department of Education Office of Civil 
Rights issues a trailblazing 10-page ``Dear Colleague'' letter to 
schools clarifying that some student harassment or bullying--including 
harassment on the basis of religion, sexual orientation, and gender 
identity--may trigger responsibilities under one or more of the Federal 
anti-discrimination laws enforced by the Department of Education and 
the Department of Justice.
    August 11-12, 2010: Department of Education, with other Federal 
partners led by the Department of Justice and the Department of Health 
and Human Services, hosts the first Federal Bullying Summit. Federal 
agencies joined together to establish an Interagency Working Group on 
Youth Programs.
    March 16, 2010: The Department of Education Office of Civil Rights 
announces it will begin collecting data to measure whether all students 
have equal educational opportunity, including data on bullying policies 
in schools. This data will help with the department's enforcement of 
Federal civil rights laws.
                         department of justice
    April 3, 2012: At the 2012 Summit on Preventing Youth Violence, 
young people lead discussions and recommended steps forward for their 
city's youth violence prevention programs.
    March 26, 2012: The Department of Justice cosponsored the White 
House LGBT Conference on Safe Schools and Safe Communities in 
partnership with the White House Office of Public Engagement, the 
Department of Education and the University of Texas at Arlington. The 
conference highlighted the law enforcement tools and programmatic 
resources being used by the Justice Department in the education and 
law-enforcement contexts to combat violence and harassment directed at 
LGBT individuals.
    March 5, 2012: Following an extensive investigation by the 
Department of Justice and the Department of Education, parties enter 
into a consent decree to address complaints involving student 
harassment on the basis of gender stereotypes and an unsafe and 
unwelcoming climate in Doe and United States v. Anoka-Hennepin School 
District.
    February 22, 2012: The Bureau of Justice Statistics publishes 
Indicators of School Crime and Safety, 2011, an annual report that 
examines crime that occurs inside and outside schools from the 
perspectives of students, teachers, and principals.
    December 2011: The Office of Juvenile Justice and Delinquency 
Prevention published a Juvenile Justice Bulletin, Bullying in Schools: 
An Overview, which describes a study that examines the connections 
between bullying in schools, school attendance and engagement, and 
academic achievement.
    June 3, 2011: Office of Juvenile Justice and Delinquency Prevention 
(OJJDP) hosts a webinar on ``Bullying and Civil Rights: An Overview of 
School Districts' Federal Obligation to Respond to Harassment.''
    December 9, 2010: The Justice Department releases an anti-bullying 
video, featuring Assistant Attorney General for Civil Rights Tom Perez 
and other Justice Department staff. The video describes rights of 
individuals and enforcement powers of the Department.
    January 15, 2010: The Department intervenes in a lawsuit on behalf 
of an openly gay high school student who was beaten up because of his 
sexual orientation. The case is settled on March 29.
                       department of agriculture
    November 24, 2010: Secretary Tom Vilsack posts an anti-bullying 
message in the ``It Gets Better'' series.
                department of health and human services
    March 20, 2012: The CDC hosts a Twitter Live Chat. Veto Violence is 
a forum to discuss bullying prevention.
    September 21, 2011: The Department of Health and Human Services, in 
partnership with eight other Federal agencies, hosted the second annual 
Federal Partners in Bullying Prevention Summit, at which Secretary 
Sebelius spoke.
    Spring 2011: The Centers for Disease Control and Prevention (CDC) 
issues a new fact sheet that defines what bullying is, why it is a 
public health problem, and which people are particularly at risk.
    June 6, 2011: Secretary Kathleen Sebelius spoke at the first 
``Federal LGBT Youth Summit,'' sponsored by the Department of 
Education.
    April 22, 2011: A new joint Massachusetts Department of Public 
Health/CDC study of Massachusetts middle and high school students shows 
family violence may also be associated with bullying.
    April 1, 2011: Secretary Sebelius establishes a page on HHS 
Recommended Actions to Improve the Health and Well-Being of Lesbian, 
Gay, Bisexual, and Transgender Communities, including anti-bullying 
initiatives.
    March 3, 2011: The CDC issues Measuring Bullying Victimization, 
Perpetration, and Bystander Experiences: A Compendium of Assessment 
Tools to aid researchers in creating a set of psychometrically sound 
measures for assessing the incidence and prevalence of bullying.
    January 25, 2011: CDC launches a new LGBT bullying prevention web 
page, with resources for schools and parents.
    October 28, 2010: HHS Secretary Kathleen Sebelius issues a press 
release announcing that she has taken part in the ``It Gets Better'' 
campaign by creating her own video.
    July 1, 2010: CDC issues three new guides: Youth Violence: 
Electronic Media and Youth Violence--A CDC Issue Brief for Educators 
and Caregivers describes what is known about young people and 
electronic aggression, offers strategies to address the issue, and 
discusses the implications for school staff, education policymakers, 
caregivers and parents. Youth Violence: Electronic Media and Youth 
Violence--A CDC Research Brief for Researchers, describes current 
research on electronic aggression, highlights gaps, and suggests future 
directions; and a new tip sheet for parents Youth Violence: Technology 
and Youth--Protecting Your Child from Electronic Aggression, which 
provides an overview of electronic aggression, any type of harassment 
or bullying that occurs through e-mail, a chat room, instant messaging, 
a Web site, or text messaging.
                          department of labor
    November 18, 2010: Secretary Hilda Solis posts an anti-bullying 
video message in the ``It Gets Better'' series.
                          department of state
    May 3, 2011: U.S. State Department's Bureau of Diplomatic Security 
(DS) hosted ``Get Schooled, Kids and Cyber Security,'' an event to 
raise awareness about cyber security and children.
    October 19, 2010: Secretary Clinton offers a message of hope to 
LGBT youth through a video as part of the ``It Gets Better'' series.
            united states commission on civil rights (usccr)
    September 27, 2011: The Commission released its bullying report, 
Peer-to-Peer Violence and Bullying: Examining the Federal Response. The 
report develops recommendations to further address the problem of 
bullying and harassment based on sex, race, national origin, 
disability, sexual orientation, and religion in public K-12 schools.
    May 13, 2011: The Commission held an all-day briefing on Federal 
Enforcement of Civil Rights Laws to Protect Students Against Bullying, 
Violence and Harassment. Four panels of witnesses presented statements 
through the day, which are also available to view through C-Span.
   Studies on the Nature and Magnitude of the National Bullying and 
                         Cyberbullying Problem
    Here are highlights from some of the most important recent studies 
on this national problem:
            a. student attitudes toward teasing and bullying
    In a survey commissioned by the Kaiser Family Foundation, more 8 to 
15 year-olds picked teasing and bullying as ``big problems'' than those 
who picked drugs or alcohol, racism, AIDS, or pressure to have sex. 
More African-Americans saw bullying as a big problem for people their 
age than those who identified racism as a big problem (Kaiser Family 
Foundation, 2001).
    A survey conducted by Widmeyer Communications for the Health, 
Resources and Services Administration (HRSA) of the U.S. Department of 
Health and Human Services underscores the ``omnipresent fear of 
physical violence and name-calling'' that students age 9-13 feel. The 
report describes the prevailing view among students that schools 
``don't get it'' when it comes to verbal and emotional bullying, 
instead simply focusing on physical bullying (Widmeyer Communications, 
2003).
    Students who participated in the HRSA survey report that it is not 
worth the effort to tell an adult about bullying because bullies are 
rarely punished severely enough to deter them from future bullying. 
Students describe ``unsympathetic and apathetic teachers and 
principals'' who are ``difficult to motivate to take action'' and 
``weak and ineffective penalties and punishments for bullies that 
allows bullying to flourish'' (Widmeyer Communications, 2003).
    Adolescents' opinions about their school staff 's attitudes about 
bullying in rural and suburban public schools were investigated by 
Harris (2004) and Harris, et al (2002). Approximately one-quarter of 
students said that they did not believe that their teachers or 
administrators were interested in trying to stop bullying, while 
slightly less than a quarter believed that they were interested in 
reducing bullying (the rest of the students indicated that they did not 
know). Eighty percent of the students in Swearer and Cary's (2003) 
study of Midwestern middle schoolers thought that the school staff did 
not know that bullying occurred.
    Oliver, et al., (1994) found that many students believed that 
``teasing is playful'' and most (61 percent) felt that bullying can 
``toughen'' a weak student.
    Most Washington State adolescents (57 percent) would not take 
action if they witnessed another student being bullied or teased 
(Smyser & Reis, 2002). While between 36 percent (6th graders) to 46 
percent (12th graders) of these students said that they would ``tell 
that kid to stop,'' between one-third and one-fourth of 8th, 10th, and 
12th graders said they would ``walk away'' or ``mind their own 
business.'' A full 20 percent indicated that they would ``stay and 
watch'' (Smyser & Reis, 2002).
    Research has found that only between 4 and 13 percent of middle and 
high school youth indicated that they would report an incident of 
bullying to a teacher, administrator, or another school staff member 
(Bulach, et al., 2000; Harris, 2004; Harris, et al., 2002; Shakeshaft, 
et al., 1997).
    b. associations between bullying and academic/social/emotional 
                               adjustment
Targets of Bullying
    Both victims and perpetrators of bullying are at a higher risk for 
suicide than their peers. Children who are both victims and 
perpetrators of bullying are at the highest risk (Kim & Leventhal, 
2008; Hay & Meldrum, 2010; Kaminski & Fang, 2009). All three groups 
(victims, perpetrators, and perpetrator/victims) are more likely to be 
depressed than children who are not involved in bullying (Wang, Nansel, 
et al., in press). One study found that victims of cyberbullying had 
higher levels of depression than victims of face-to-face bullying 
(Wang, Nansel, et al., 2010).
    A 2001 study funded by the National Institute of Child Health and 
Human Development (NICHD) found that students who were bullied 
demonstrated poorer social and emotional adjustment, reporting greater 
difficulty making friends, poorer relationships with classmates, and 
greater loneliness. In addition, the study found that fighting, 
smoking, poorer academic achievement, poorer relationships with 
classmates and increased loneliness were all positively associated with 
being bullied (Nansel, Overpeck, Pilla, Ruan, Simons-Morton, & Scheidt, 
2001).
    A study of bullying, teasing, and sexual harassment in school by 
the American Association of University Women demonstrates a direct link 
between ``hostile hallways'' and diminished academic outcomes, self-
confidence, attachment to school, and participation in curricular and 
extracurricular activities, especially among girls. Girls who 
experienced harassment were twice as likely as boys to feel ``less 
confident'' (16 percent to 32 percent) and more likely to change 
behaviors in school and at home because of the experience, including 
not talking as much in class (18 percent to 30 percent) and avoiding 
the person who harassed them (24 percent to 56 percent) (American 
Association of University Women, 2001).
    A survey conducted by Widmeyer Communications for the Health, 
Resources and Services Administration (HRSA) of the U.S. Department of 
Health and Human Services reports that students who regularly 
experience verbal and non-verbal forms of bullying report hurt 
feelings, low self-esteem, depression, living in fear and torment, poor 
academic achievement, emotional turmoil, physical abuse, and suicide 
(Widmeyer Communications, 2003).
    A study that assessed Midwestern kindergartners at three schools 
found that these children had greater difficulty adjusting to school 
and became more school avoidant following their victimization by peers 
(Kochenderfer & Ladd, 1996). Reis and Saewyc (1999) similarly found 
that harassed adolescents were more likely to report missing at least 1 
day of school in the past month out of fear of their safety than their 
non-harassed peers.
    According to Dan Olweus, a trailblazing Norwegian researcher on 
bullying, individuals formerly bullied were found to have higher levels 
of depression and poorer self-esteem at the age of 23 years, despite 
the fact that, as adults, they were no more harassed or socially 
isolated than comparison adults (Olweus,1994).
    The Gay Lesbian Straight Education Network (GLSEN) conducts a 
periodic School Climate Survey about the experiences of LGBT youth in 
schools. Findings from their 2009 survey included the following:

    <bullet> 61.1 percent of LGBT students felt unsafe at school 
because of their sexual orientation; 39.9 percent felt unsafe because 
of their gender expression.
    <bullet> Nearly a third missed class at least once in the last 
month (29.1 percent) and missed at least 1 day of school (30.0 
percent).
    <bullet> Students who experienced high levels of harassment and 
assault had poorer educational outcomes.
    <bullet> Students who experienced high levels of harassment and 
assault had lower psychological well-being.
Bystanders to Bullying
    Both a 2001 study funded by the National Institute of Child Health 
and Human Development (NICHD) and a survey conducted by Widmeyer 
Communications for the Health, Resources and Services Administration 
(HRSA) of the U.S. Department of Health and Human Services found that 
bystanders to bullying suffer from feelings of helplessness and 
powerlessness, and develop poor coping and problem-solving skills 
(Nansel, Overpeck, Pilla, Ruan, Simons-Morton, & Scheidt, 2001; 
Widmeyer Communications, 2003).
Perpetrators of Bullying
    A 2001 study funded by the National Institute of Child Health and 
Human Development (NICHD) found that students who bully demonstrate 
poor social and emotional adjustment, social isolation, lack of success 
in school, and involvement in problem behaviors, such as fighting, 
drinking alcohol, and smoking. Without intervention, note the 
researchers, bullies often continue on a path of even more extreme 
violence and abusive behavior and often become involved in crime 
(Nansel, Overpeck, Pilla, Ruan, Simons-Morton, & Scheidt, 2001).
    Olweus found former bullies to have a fourfold increase in criminal 
behavior at the age of 24 years, with 60 percent of former bullies 
having at least one conviction and 35 percent to 40 percent having 
three or more convictions (Olweus, 1992).
 Other Resources on the Nature and Magnitude of the National Bullying 
                       and Cyberbullying Problem
    Addington, Lynn A., Ruddy, Sally A., Miller, Amanda K., and DeVoe, 
Jill F. Are America's Schools Safe? Students Speak Out: 1999 School 
Crime Supplement. Education Statistics Quarterly, National Center for 
Educational Statistics. Volt. 4, Issue 4 (November 2002).
    American Association of University Women Educational Foundation and 
Harris Interactive. Hostile Hallways: Bullying, Teasing, and Sexual 
Harassment in School (2001).
    Bosworth, et al. Factors Associated with Bullying Behavior in 
Middle School Students. Journal of Early Adolescence. 19(3), 341-62 
(1999).
    Bulach, C.R., Fulbright, J.P., & Williams, R. Bullying Behavior at 
the Middle School Level: Are There Gender Differences? American 
Educational Research Association Conference. New Orleans, LA. (2000).
    Coy, Doris Rhea. Bullying, ERIC Digest (2001).
    Harris, S. Bullying at School Among Older Adolescents. The 
Prevention Researcher, 11(3), 12-14 (2004).
    Harris, et al. Bullying Among 9th Graders: An Exploratory Study. 
NASSP Bulletin (March 2002).
    Kaiser Family Foundation, & Children Now. Talking With Kids About 
Tough Issues: A National Survey of Parents and Kids (2001).
    Khosropour, Shirin C. & Walsh, James. That's Not Teasing--That's 
Bullying: A Study of Fifth Graders' Conceptualization of Bullying and 
Teasing. Paper Presented at the Annual Conference of the American 
Educational Research Association, Seattle, WA (April 2001).
    Kochenderfer, B.J. & Ladd, G.W. Peer Victimization: Cause or 
Consequence of School Maladjustment? Child Development, 67(4), 1305-17 
(1996).
    Nansel, Tonja R., Overpeck, Mary, Pilla, Ramani S., Ruan, W. June, 
Simons-Morton, Bruce, and Scheidt, Peter. Bullying Behaviors Among US 
Youth: Prevalence and Association With Psychosocial Adjustment, JAMA, 
285:2094-2100 (2001).
    Oliver, R., Hoover, J.H., & Hazler, R. The Perceived Roles of 
Bullying in Small-Town Midwestern Schools. Journal of Counseling and 
Development, 72(4), 416-23 (1994).
    Olweus, D. Bullying Among Schoolchildren: Intervention and 
Prevention. In Peters, R.D., McMahon, R.J., and Quinsey, V.L., Eds. 
Aggression and Violence Throughout the Life Span. London, England: Sage 
Publications (1992).
    Olweus, D. Bullying at School: Long-Term Outcomes for the Victims 
and an Effective School-Based Intervention Program. In Huesmann, L.R., 
Ed. Aggressive Behavior: Current Perspectives. New York, NY: Plenum 
Press (1994).
    Olweus, D. Bully/Victim Problems Among School Children: Basic Facts 
and Effects of a School Based Intervention Program. In Pepler, D., 
Rubin, K.H., Eds. The Development and Treatment of Childhood 
Aggression. Mahwah, NJ: Lawrence Erlbaum Associates Inc. (1991).
    Reis B. & Saewyc, E. Eighty-Three Thousand Youth: Selected Findings 
from Population-Based Studies as they Pertain to the Safety and Well-
Being of Sexual Minority Students. Safe Schools Coalition of Washington 
(1999).
    Sharp, S., Smith, P.K. Bullying in UK Schools: The DES Sheffield 
Bullying Project. Early Child Dev Care. 77:47-55 (1991).
    Smith, P.K. Bullying in Schools: The UK Experience and the 
Sheffield Anti-Bullying Project. Ir J Psychol. 18:191-201 (1997).
    Smyser, M. & Reis, E. Bullying and Bias-Based Harassment in King 
County Middle Schools. Public Health Data Watch, 5(2), 1-15 (2002).
    Swearer, S.M. & Cary, P.T. Perceptions and Attitudes Toward Middle 
School Youth: A Developmental Examination Across the Bully/Victim 
Continuum. (Eds.) Bullying, Peer Harassment, and Victimization in the 
Schools: The Next Generation of Prevention, p. 63-80 (2003).
    Teachers College Reports. Examining School Violence (Winter 2001).
    Widmeyer Communications for the Health, Resources and Services 
Administration of the U.S. Department of Health and Human Services. 
National Bullying Prevention Campaign Formative Research Report (2003).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 3:44 p.m., the hearing was adjourned.]


                                 [all]
                                 
                                 

      
</pre></body></html>
